<html>
<title> - DEPARTMENT OF THE INTERIOR SPENDING AND THE PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                           DEPARTMENT OF THE
                       INTERIOR SPENDING AND THE
                     PRESIDENT'S FISCAL YEAR 2013
                            BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 15, 2012

                               __________

                           Serial No. 112-93

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
72-938                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
PJon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV


                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel


                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 15, 2012.....................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     3
        Prepared statement of....................................     5
    Rivera, Hon. David, a U.S. Representative in Congress from 
      the State of Florida, Prepared statement of................    80

Statement of Witnesses:
    Salazar, Hon. Ken, Secretary, U.S. Department of the Interior     6
        Prepared statement of....................................     8
        Response to questions submitted for the record...........    22

Additional materials supplied:
    Hastings, Rep. Alcee L., Senator Bill Nelson, Rep. Frederica 
      Wilson, Rep. Ted Deutch, Rep. Debbie Wasserman Schultz, 
      Rep. Allen West, Rep. C.W. Bill Young, Rep. Kathy Castor, 
      Rep. Mario Diaz-Balart, Rep. David Rivera, Rep. Ileana Ros-
      Lehtinen, Letter to The Honorable Ken Salazar, Secretary, 
      U.S. Department of the Interior, submitted for the record 
      by The Honorable David Rivera..............................    82
    Independent Petroleum Association of America, Letter 
      submitted for the record...................................    84
    Map submitted for the record by The Honorable Bill Flores....    85
    ``OSM Statement of Work Authorizing Contact with Coal 
      Companies on Proposed Rule'' submitted for the record by 
      The Honorable Bill Johnson.................................    86
    ``Tamiami Trail Modification project limits,'' Map submitted 
      for the record by The Honorable David Rivera...............    81
                                     



  OVERSIGHT HEARING ON ``DEPARTMENT OF THE INTERIOR SPENDING AND THE 
            PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSAL.''

                              ----------                              


                      Wednesday, February 15, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Gohmert, Bishop, 
Lamborn, Broun, Fleming, Thompson, Denham, Rivera, Duncan of 
South Carolina, Tipton, Gosar, Labrador, Flores, Harris, 
Landry, Runyan, Johnson, Amodei; Markey, Kildee, Faleomavaega, 
Napolitano, Holt, Grijalva, Bordallo, Costa, Sablan, Lujan, 
Sarbanes, and Garamendi.
    The Chairman. The Committee will come to order. The 
Chairman notes the presence of a quorum, which under Rule 3(e) 
is two Members, and we vastly exceed that.
    The Committee on Natural Resources is meeting today to hear 
testimony on Department of the Interior spending and the 
President's Fiscal Year 2013 budget proposal. Under Committee 
Rule 4(f), opening statements are limited to the Chairman and 
the Ranking Member of the Committee. However, I ask unanimous 
consent that any Member who would like to submit an opening 
statement have it to the Clerk prior to the close of business 
today.
    [No response.]
    The Chairman. And without objection, so ordered. I will now 
recognize myself for my opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Mr. Secretary, thank you very much for being 
here today to discuss the Interior Department's proposed budget 
for Fiscal Year 2013. I note that the President's budget 
includes a one percent increase for funding for the Interior 
Department. But it also contains more tax-and-spend policies in 
the overall budget that, in my view, are detrimental to job 
creation and economic growth.
    Fiscal Year 2013 will mark the fourth straight year of 
over-trillion-dollar budget deficits. Increasing taxes on 
American families and businesses is not the solution, and 
simply freezing and holding the line on spending is not enough. 
We must set priorities and make tough choices on how to cut 
spending, and where to best direct scarce tax dollars.
    For instance, like last year, I must again question the 
need to increase funding for the Federal Government to purchase 
more Federal land. While the request for land acquisition was 
cut in half from last year, it still represents a $160 million 
spending increase compared to when President Obama took office. 
The Interior Department continues to have a maintenance backlog 
on Federal lands that measures into the billions of dollars.
    The bottom line is that we should not be increasing 
spending for land acquisition when the government cannot 
maintain the land that it already owns.
    I also have serious concerns about the tax and fee 
increases on American energy production. We all know that 
energy production is one of the best job creators and economic 
boosters in our country. That is why it is baffling to me that 
the President's budget would include over $45 billion in tax 
and fee increases on American energy. Increasing taxes on 
energy production is misguided policy that, obviously, will 
just increase energy costs. And now gasoline prices are once 
again on the rise.
    Just to go back, the national average of the gasoline price 
at the pump has gone up nearly $1.70 since President Obama took 
office. The last thing that families and small businesses need 
is to pay even higher prices due to this Administration's tax 
and fee policies.
    At today's hearing we will also examine a number of other 
important Interior Department policies that directly impact 
American jobs.
    The Interior Department continues to pursue sweeping 
changes to coal regulations that could potentially cost 
thousands of jobs and have significant economic impacts 
throughout the country. But what is frustrating is the 
Department's lack of fully cooperating with this committee's 
document requests regarding their document rewrite of this 
regulatory process. I hope that this frustration can be eased.
    The Department is also pursuing new regulations on 
hydraulic fracturing on public lands. Based on a draft document 
that was made public, it appears these new regulations will add 
significant barriers and delays to natural gas production and 
job creation on Federal lands. The Department also is in the 
process of finalizing the new five-year offshore leasing plan. 
There is bipartisan concern over the President's plan to close 
the majority of the Outer Continental Shelf to new energy 
production.
    The Administration's plan effectively reinstates the 
drilling moratoria that were lifted in 2008 by Congress and the 
President when gasoline prices soared to over $4 a gallon. We 
might be getting to that same area again. And by locking-up the 
Atlantic, Pacific and parts of the Arctic, this Administration 
is forfeiting the production of new American energy, the 
creation of over a million new American jobs, and generation of 
new revenue for the Federal Government.
    So, these are just a couple of the issues that I wanted to 
highlight. I know Members on both sides of the aisle will have 
concerns that are wider than what I have talked about. But that 
is the reason for this hearing.
    So, Mr. Secretary, once again thank you very much for being 
here. And I will recognize the Ranking Member for his opening 
statement.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Thank you Secretary Salazar for being here today to discuss the 
Interior Department's budget proposal for Fiscal Year 2013.
    I note, the President's budget includes a one percent increase in 
funding for the Interior Department. But it also contains more tax and 
spend policies that are detrimental to job creation and economic 
growth.
    FY 2013 will mark the fourth straight year of over trillion dollar 
budget deficits. Increasing taxes on American families and businesses 
is not the solution, and simply freezing and holding the line on 
spending is not enough. We must set priorities and make tough choices 
on how to cut spending and where to best direct scarce taxpayer 
dollars.
    For instance, like last year, I must again question the need to 
increase funding for the federal government to purchase more federal 
land. While the request for land acquisition was cut in half from last 
year, it still represents a $160 million spending increase compared to 
when President Obama took office. The Interior Department continues to 
have a maintenance backlog on federal lands that measures into the 
billions. The bottom line is that we should not be increasing spending 
for land acquisition when the government cannot maintain the land it 
already owns.
    I also have serious concerns about the tax and fee increases on 
American energy production. We all know that energy production is one 
of America's best job-creators and economic boosters. That's why it's 
baffling that the President's budget would include over $45 billion in 
tax and fee increases on American energy. Increasing taxes on energy 
production is misguided policy that will increase energy costs. 
Gasoline prices are once again on the rise. The national average has 
gone up $1.68 since President Obama took office. The last thing 
families and small businesses need is to pay even higher prices due to 
this administration tax increases.
    At today's hearing we will also examine a number of other important 
Interior Department policies that directly impact American jobs.
    The Interior Department continues to pursue sweeping changes to 
coal regulations that could cost thousands of jobs and have significant 
economic impacts throughout the country. But what's frustrating is the 
Department's lack of fully cooperating with this Committee's' document 
requests regarding their conduct of this regulatory rewrite.
    The Department is also pursuing new regulations on hydraulic 
fracturing on public land. Based on a draft document that was made 
public, it appears these new regulations will add significant barriers 
and delays to natural gas production and job creation on federal lands.
    The Department is in the process of finalizing the new five-year 
offshore leasing plan. There is bipartisan concern over the President's 
plan to close the majority of the Outer Continental Shelf to new energy 
production. The Administration's plan effectively reinstates the 
drilling moratoria that were lifted in 2008 by Congress and the 
President when gasoline prices soared to over $4 a gallon. By locking-
up the Atlantic, Pacific and parts of the Arctic, the Obama 
Administration is forfeiting the production of new American energy, the 
creation of over a million new American jobs and the generation of new 
revenue.
    I look forward to hearing from the Secretary today and further 
discussing these important issues.
                                 ______
                                 

   STATEMENT OF THE HON. EDWARD MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much.
    Earlier this week the Obama Administration released a 
budget proposal for the Department of the Interior that lays 
out a balanced approach to energy production on public lands. 
Despite the claims of critics, the Obama Administration has 
been fostering both traditional oil and gas development, while 
moving us forward to a clean energy future. Across the United 
States, oil production is at its highest level in nearly a 
decade. Natural gas production has reached levels we have never 
seen before. Oil production on public lands offshore is higher 
than it was during each of the last three years of the Bush 
Administration.
    According to industry analysts, by this summer there will 
be nearly 30 percent more floating rigs operating in the Gulf 
than there were prior to the BP spill. And despite claims from 
the oil industry that companies need access to more areas 
offshore, the Interior Department's 5-year plan makes more than 
75 percent of the offshore oil and gas resources available for 
development.
    It is not the Obama Administration holding back more 
domestic production. It is the oil companies that are currently 
warehousing roughly 26 million acres offshore that hold 
billions of barrels of oil. Onshore, the Department of the 
Interior has approved more permits to drill, and industry has 
begun drilling more wells in the first three years of the Obama 
Administration than in the first three years of the Bush 
Administration. And the oil and gas industry still has more 
than 7,000 approved permits to drill onshore that they are not 
using.
    But the Obama Administration is also developing renewable 
energy on public lands, with the goal of permitting 11,000 
megawatts by the end of 2013. This would be more than five 
times the amount of renewable energy permitted by all previous 
Administrations combined. Yet, the Republican Majority is 
threatening to raise taxes on the wind industry, which would 
jeopardize these projects and could kill 37,000 permanent and 
existing clean energy jobs at the same time they say that the 
Keystone pipeline would create 6,000 temporary jobs in 
construction.
    Meanwhile, today the Majority is bringing a bill to the 
House Floor that amounts to nothing more than a giveaway to Big 
Oil under the guise of funding our nation's transportation 
projects. The Majority said their drilling bills were necessary 
to pay for transportation funding. Yet, the three bills 
reported out of this committee would generate less than 10 
percent of the revenue shortfall for our transportation 
projects over the next five years. It turns out simply creating 
more drill holes won't eliminate our nation's potholes.
    But, more than that, we know that there will be no drilling 
in the Arctic Wildlife Refuge, because the votes aren't there 
in the Senate. We know that there will be no oil shale in 
Colorado and Utah and in Wyoming, because the Department of 
Energy has determined that there is no commercially available 
technology in order to accomplish that goal. And we know that 
there is not going to be any oil drilling off the coast of 
Florida and California, because Republicans from those states 
are lining up to lead the charge to make sure there is no 
drilling off of those coastlines.
    So, these are phantom revenues from phantom drilling that 
are being proposed by the Republicans in order to pay for a 
transportation bill. And that is the bottom line, in terms of 
their proposals on this big debate that we are going to have on 
paying for the transportation bill.
    In contrast to the all-of-the-above energy plan laid out by 
Secretary Salazar and the Obama Administration, the Majority's 
plan is nothing more than oil above all. These drilling bills 
may be good for the members of the American Petroleum 
Institute, but they are not good for the American people. And 
ultimately, they are not going to provide the revenues we need 
for a transportation bill.
    The Majority's drilling bills wouldn't even ensure that 
American resources would stay here in America to help our 
consumers. The Majority rejected my amendments in this 
committee to ensure that natural gas produced from public lands 
cannot be exported. We should keep that here for our own 
industries, our own farmers, our own consumers. Low U.S. 
natural gas prices provide a competitive advantage for American 
businesses, and relief for American families, and exporting our 
natural gas would eliminate our economic edge. The Majority 
should not be imposing a de facto natural gas tax on American 
agriculture, manufacturing in chemical, steel, and plastics by 
allowing our natural gas to be exported, as all of these 
Republican bills would do.
    Mr. Chairman, I thank you for having this important hearing 
today.
    Welcome, Mr. Secretary. We look forward to your testimony.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you.
    Earlier this week, the Obama Administration released a budget 
proposal for the Department of the Interior that lays out a balanced 
approach to energy production on public lands. Despite the claims of 
critics, the Obama Administration has been fostering both traditional 
oil and gas development while moving us forward to a clean energy 
future.
    Across the United States, oil production is at its highest level in 
nearly a decade. Natural gas production has reached levels we have 
never seen before. Oil production on public lands offshore is higher 
than it was during each of the last three years of the Bush 
Administration. According to industry analysts, by this summer there 
will be nearly 30 percent more floating rigs operating in the Gulf than 
there were prior to the BP spill.
    And despite claims from the oil industry that companies need access 
to more areas offshore, the Interior Department's five year plan makes 
more than 75 percent of the offshore oil and gas resources available 
for development. It's not the Obama administration holding back more 
domestic production, it's the oil companies that are currently 
warehousing roughly 26 million acres offshore that hold billions of 
barrels of oil.
    Onshore, the Department of the Interior has approved more permits 
to drill and industry has begun drilling more wells in the first three 
years of the Obama Administration than in the first three years of the 
Bush Administration. And the oil and gas industry still has more than 
7,000 approved permits to drill onshore that they are not using.
    But the Obama Administration is also developing renewable energy on 
public lands, with the goal of permitting 11,000 megawatts by the end 
of 2013. This would be more than 5 times the amount of renewable energy 
permitted by all previous administrations combined. Yet the Republican 
Majority is threatening to raise taxes on the wind industry, which 
would jeopardize those projects and could kill 37,000 permanent and 
existing clean energy jobs.
    Meanwhile, today the Majority is bringing a bill to the House Floor 
that amounts to nothing more than a giveaway to Big Oil under the guise 
of funding our nation's transportation projects. The Majority said 
their drilling bills were necessary to pay for transportation funding. 
Yet the three bills reported out of this committee would generate less 
than 10 percent of the revenue shortfall for our transportation 
projects over the next 5 years. It turns out simply creating more drill 
holes won't eliminate our nation's pot holes.
    In contrast to the ``all of the above'' energy plan laid out by 
Secretary Salazar and the Obama Administration, the Majority's plan is 
nothing more than ``oil above all.'' These drilling bills may be good 
for the members of the American Petroleum Institute, but they are not 
good for the American people.
    The Majority's drilling bills wouldn't even ensure that American 
resources stay here in America to help our consumers. The Majority 
rejected my amendments in this Committee to ensure that natural gas 
produced from public lands cannot be exported.
    Low U.S. natural gas prices provide a competitive advantage for 
American businesses and a relief for American families, and exporting 
our natural gas would eliminate our economic edge. The Majority should 
not be imposing a de facto natural gas tax on American agriculture, 
manufacturing, chemicals, steel and plastics by allowing our gas to be 
exported as these Republican bills would do.
    If the Republicans vote to allow the exportation of America's 
natural gas in their transportation bill, all they will be constructing 
is an expressway to higher prices for American families and businesses.
    For years, the Majority has said we need to ``drill here, drill 
now, pay less.'' But it appears the real Republican energy plan is to 
``drill here, sell there, and pay more.''
    I look forward to hearing Secretary Salazar's testimony and thank 
him for coming to this committee.
                                 ______
                                 
    The Chairman. I thank the Ranking Member. And once again, 
Mr. Secretary, thank you very much for being here. And you have 
been here before, and know how our process works. Your full 
statement will appear in the record, and the timing lights are 
such that when the green light goes on, the full five minutes 
is what you have allocated. When the yellow light goes on, it 
means you have a minute. And then, when the red light goes on, 
if you could watch it as closely as possible, we would very 
much appreciate it.
    And I might add to the Committee that the Chairman--or the 
Secretary is here until approximately 12:15. There may be some 
flexibility on that, but if we can adhere as closely to the 5-
minute rule, we will get as many questions in as possible.
    So with that, Mr. Secretary, I recognize you for five 
minutes.

 STATEMENT OF THE HON. KEN SALAZAR, SECRETARY, U.S. DEPARTMENT 
    OF THE INTERIOR, ACCOMPANIED BY DAVID J. HAYES, DEPUTY 
SECRETARY, U.S. DEPARTMENT OF THE INTERIOR, AND PAMELA K. HAZE, 
 DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, PERFORMANCE AND 
          ACQUISITION, U.S. DEPARTMENT OF THE INTERIOR

    Secretary Salazar. Thank you very much, Chairman Hastings, 
and Ranking Member Markey, and all the members of the 
Committee, as well as your staff. It is an honor for me to 
appear before you today on behalf of President Obama, and to 
represent the budget proposed by the President for the 
Department of the Interior.
    Today with me at the hearing table is the Deputy Secretary 
of the Interior, David J. Hayes, who works with me on a panoply 
of issues, including all of the issues that this committee 
addresses, and Pam Haze, who is the Budget Director for the 
Department of the Interior, who has been in the position for 
multiple Administrations.
    Let me say at the outset, Mr. Chairman and Ranking Member 
Markey, that this budget for the Fiscal Year 2013 is a squeeze 
budget. It is a squeeze budget with tough choices and with 
painful cuts included in this budget. We have cuts in 
government, so that we will be doing more with less.
    We have a proposed budget here that supports job creation, 
job creation through energy, including conventional energy as 
well as renewable energy. We have job creation in this budget 
through support for conservation and America's great outdoors, 
job creation in this budget through investment in water 
infrastructure, especially through all the Bureau of 
Reclamation facilities and working with our partners throughout 
the West, and job creation on tribal homelands, where we honor 
our trust responsibilities in standing up the future of the 566 
tribes of America.
    I want to review each of those areas in brief here in my 
opening comment. First of all, with respect to cuts and 
efficiency in government, working closely with Pam Haze, our 
Budget Director, and others, we have put forward a budget that 
will cut the Federal workforce by 591 FTE in the Department of 
the Interior in the year 2013. Those are real positions with 
real dollars associated with them.
    We will also conduct a program termination and downsizing 
of a number of programs that will total $517 million. Now, I 
know some of you may not like the fact, for example, that with 
the Central Utah Project we are cutting that by $8 million, and 
we also are consolidating that within the Bureau of 
Reclamation.
    A painful cut for me and for many members of this committee 
is the National Heritage Areas, because those are important 
programs for our country. And yet we are taking an $8 million 
cut in the National Heritage Area program. So there are many 
program terminations and downsizings that are set forth in this 
budget.
    And third, administrative efficiencies, matters that relate 
to travel and contracting and procurement. We will save $207 
million in this budget that is being proposed in 2013.
    Now, let me move quickly from those cuts and downsizing 
over to jobs and energy, which I know is a primary focus of 
this committee. We have included in this budget an increase of 
$76 million from 2012 to move forward with an all-of-the-above 
strategy for energy--the energy program of the United States of 
America. Now, that additional money, $76 million over 2012, 
will support the development of our conventional energy, 
including oil and gas, as well as support the major renewable 
energy revolution, which we are leading in America today.
    It is important to note that on the conventional side, 
which goes into most of the oil and gas production and other 
energy resources that we produce, $662 million is allocated for 
those conventional energies. In contrast, only $86 million is 
allocated to renewable energy. But with those $86 million, the 
Department of the Interior is dedicated to surpass the goals 
that President Obama set out in the State of the Union to have 
this authorized by the end of 2012, over 10 megawatts of 
renewable energy power on our public lands.
    So, we feel good about where we are, in terms of the energy 
program for the United States, and the reflection on this 
budget.
    Jobs again, in outdoor recreation and conservation. Funding 
here is level with 2012. Independent reports show that over 
eight million jobs come from outdoor recreation and tourism and 
preservation. We have reports from independent consultants, as 
well, that this is one of the cornerstones of the future jobs 
for America. And that is true for Utah, Wyoming, Colorado, and 
in fact, all of your states and territories.
    Jobs and water. The Bureau of Reclamation today supports 
416,000 jobs. We provide water to 31 million people, and 
provide water for much of the agriculture for the United States 
of America. This budget keeps us on track so that between 2009 
and 2013 we will have been able to increase water supply in 
Bureau of Reclamation facilities by 730,000 acre-feet. That is 
a very significant amount of water.
    And finally, jobs on tribal homelands. It is an important 
part of our responsibilities of the Department of the Interior. 
And this budget honors those responsibilities.
    In conclusion, Mr. Chairman, this budget is a squeeze 
budget with tough choices and painful cuts. We do more with 
less. We invest in job creation through energy, conservation, 
water, tribal homelands, and the science that is required to 
support all of those initiatives.
    Thank you very much for the opportunity for the opening 
statement.
    [The prepared statement of Mr. Salazar follows:]

          Statement of The Honorable Ken Salazar, Secretary, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the Committee, I am pleased to be here 
today to present the details of the 2013 budget request for the 
Department of the Interior. Interior's 2013 budget totals $11.5 
billion, essential level with 2012 funding. The request includes 
reductions and savings of $516.8 million. We made difficult choices in 
this budget, sacrificing in many areas, deferring projects, and 
programming savings for efficiencies in order to maintain funding for 
key priorities and investments that will contribute to strengthening 
the economic vitality and well-being of the Nation.
    As the President has detailed in his Blueprint for an America Built 
to Last, the budget proposes investments in an economy that works for 
everyone. Our budget request supports responsible domestic energy 
development, advances an America's Great Outdoors strategy to maintain 
our legacy and stimulate new opportunities, applies science to address 
the most formidable natural resource challenges, and invests in self-
determination and economic development to strengthen tribal Nations. 
This Committee has been an active partner in advancing these 
priorities. I look forward to our continued collaboration during the 
2013 appropriations process.

Introduction
    The mission of the Department of the Interior is to protect and 
manage the responsible use of America's natural resources, support our 
cultural heritage and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives.
    Interior's people and programs impact all Americans. According to a 
Department study, in 2010, Interior programs and activities supported 
over two million jobs and approximately $363 billion in economic 
activity. The Department is the steward of 20 percent of the Nation's 
lands. Interior manages the resources of the national parks, national 
wildlife refuges, and public lands and assists States, Tribes, and 
others in the management of natural and cultural resources.
    Interior manages many of the Nation's natural resources, including 
those that are essential for America's industry--oil and gas, coal, and 
minerals such as gold and uranium. On public lands and the Outer 
Continental Shelf, Interior provides access for renewable and 
conventional energy development and manages the protection and 
restoration of surface mined lands. The Department of the Interior 
oversees the responsible development of 24 percent of America's 
domestic oil and gas supplies, while striving to ensure safety and 
environmental protection and the effective collection of revenue from 
this development. We estimate that energy and minerals development on 
Federal lands supported 1.3 million jobs and $246 billion in economic 
activity in 2010.
    The Department is also the largest supplier and manager of water in 
the 17 Western States, promotes and assists others to conserve water 
and extend water supplies, and provides hydropower resources used to 
power much of the Country. The Department estimates that the use of 
water, timber, and other resources produced from Federal lands 
supported about 370,000 jobs and $48 billion in economic activity.
    Interior works to ensure that America's spectacular landscapes, 
unique natural life, and cultural resources and icons endure for future 
generations, tells and preserves the American story, and maintains the 
special places that enable the shared American experience. In 2012, 
visitors made 476 million visits to Interior-managed lands and 
supported an estimated $47 billion in economic activity.
    Interior manages and delivers water, arbitrates long-standing 
conflicts in water allocation and use, and actively promotes water 
conservation. As one of the Nation's primary natural and cultural 
resource stewards, the Department makes decisions regarding potential 
development on the public lands and offshore coastal areas that can 
greatly impact the Nation's energy future and economic strength. 
Factored into this balance is the Department's unique responsibility to 
American Indians and Alaska Natives. The Department supports cutting 
edge research in the earth sciences--geology, hydrology, and biology--
to inform resource management decisions at Interior and organizations 
across the world and in earthquake, volcano, and other hazards to 
protect communities across the Nation. Maintaining and building the 
capacity to carry out these responsibilities on behalf of the American 
people is Interior's primary focus.

Powering America's Economy
    Stewardship of America's lands and natural resources is at the 
heart of the national spirit and the economy--from the responsible 
management and development of natural resources and increasingly, the 
economic power of outdoor recreation.
    In 2011, the Department of the Interior generated a total of $13.2 
billion in receipts benefitting the U.S. Treasury--from a combination 
of fees, royalties, rents and bonuses from mineral, timber, and other 
natural resource development. The Department estimates that 
conventional and renewable energy produced on Interior lands and waters 
results in about $230 billion in economic benefits each year. In 2011, 
of the total receipts generated by Interior, $11.3 billion was 
collected from energy production on public lands, tribal lands, and 
Federal offshore areas--a $2.0 billion increase over the previous 
year--with receipts disbursed and revenues shared among Federal, State, 
and tribal governments.
    Since 2008, oil production from the Federal OCS has increased by 30 
percent, from 450 million barrels to more than 589 million barrels in 
2010. Balancing the need for safety and environmental enforcement, 
Interior currently manages over 35 million acres of the OCS under 
active lease. A recently proposed five-year oil and gas leasing program 
would make more than 75 percent of undiscovered technically recoverable 
oil and gas estimated on the OCS available for development.
    Onshore, the Bureau of Land Management held 32 onshore oil and gas 
lease sales in 2011. The BLM offered 1,755 parcels of land covering 
nearly 4.4 million acres. Nearly three-quarters or 1,296 of those 
parcels of land offered were leased, generating about $256 million in 
revenue for American taxpayers. This was a 20 percent increase in lease 
sale revenue over 2010, following a strong year in which leasing reform 
helped to lower protests and increase revenue from onshore oil and gas 
lease sales on public lands. The BLM recently has seen a 50 percent 
jump in industry proposals to lease for oil and gas exploration. Oil 
and gas companies nominated nearly 4.5 million acres of public minerals 
for leasing in 2011, up from just under 3 million acres the year 
before. Industry nominations are the first step in the BLM leasing 
process. After evaluating the parcels, BLM may offer them at auction. 
Successful bidders can then apply to drill for oil and gas.
    Interior is moving aggressively to put the President's energy 
strategy, Blueprint for a Secure Energy Future, into action and expand 
secure energy supplies for the Nation--a strategy that includes the 
responsible development of renewable energy sources on the public 
lands. At the start of this Administration, there were no solar energy 
facilities sited on the public lands, and wind energy development was 
relatively limited compared to development on private lands. Since 
March 2009, 29 onshore projects that increased approved capacity for 
production and transmission of power have been approved including the 
first ever utility scale solar project, five wind projects, and eight 
geothermal projects. The Cape Wind Energy Project, approved for 
construction and operation, is the first ever offshore commercial wind 
operation. The 2013 budget reflects an expansion of these 
accomplishments with the goal of permitting 11,000 megawatts by the end 
of 2013.
    The President's Blueprint recognizes the economic potential of 
renewable energy development. The economic benefits could be 
particularly significant in America's remote and rural places near 
public lands. The Department's 2010 estimates identified nearly $5.5 
billion in economic impacts associated with renewable energy 
activities, a growing economic sector that supports high paying jobs.

Growing the Economy Outdoors
    Interior is at the forefront of the Administration's comprehensive 
effort to spur job creation by making the United States the world's top 
travel and tourism destination. In a recent statement, President Obama 
cited Department of Commerce figures showing that in 2010, 
international travel resulted in $134 billion in U.S. exports. 
International travel to the U.S. is the Nation's largest service export 
industry, with seven percent of total exports and 24 percent of service 
exports. The Bureau of Economic Analysis estimates that every 
additional 65 international visitors to the United States can generate 
enough exports to support an additional travel and tourism-related job. 
According to the travel industry and Bureau of Economic Analysis, 
international travel is particularly important as overseas or ``long-
haul'' travelers spend on average $4,000 on each visit.
    President Obama has asked me to co-chair an interagency task force 
with Commerce Secretary Bryson to develop a National Travel and Tourism 
Strategy to expand job creation by promoting domestic and international 
travel opportunities throughout the United States. A particular focus 
of the Task Force will be on strategies for increasing tourism and 
recreation jobs by promoting visits to the Nation's national treasures. 
The Department of the Interior manages iconic destinations in the 
national parks, wildlife refuges, cultural and historic sites, 
monuments, and other public lands that attract travelers from around 
the country and the globe. According to a Departmental study, in 2010, 
437 million visits were made by American and international travelers to 
these lands, contributing $47.9 billion in economic activity and 
388,000 jobs. Eco-tourism and outdoor recreation also have an impact on 
rural economies, particularly in Arizona, California, Colorado, 
Florida, Nevada, North Carolina, Oregon, Utah, and Wyoming.
    Interior is working to maximize the benefit of the outdoors for the 
millions of Americans at home. Hunting, fishing, and outdoor recreation 
contribute an estimated $730 billion to the U.S. economy each year. 
More than 12 million Americans hunt; more than 30 million Americans 
fish; and three out of four Americans engage in some kind of healthy 
outdoor activity. One in twenty U.S. jobs is in the recreation economy.
    Through the America's Great Outdoors initiative, the Administration 
continues to expand opportunities for recreation--through partnerships 
with States and others and the promotion of America's parks, refuges, 
and public lands. The 2013 budget requests $5.1 billion in support of 
this initiative, a $145.6 million increase compared to 2012. Funding is 
focused on programs supported through the Land and Water Conservation 
Fund, land management operations, and other grant and technical 
assistance programs that promote conservation and improve recreational 
access.
    By encouraging innovative partnerships in communities across the 
Nation, the Administration is expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. As part of America's Great Outdoors, Interior is supporting 
101 signature projects in all States across the Country to make parks 
accessible for children, create great urban parks and community green 
spaces, restore rivers, and create recreational blueways to power 
economic revitalization. Projects were selected in concert with 
governors, tribal leaders, private landowners, and other stakeholders, 
and were evaluated based on the level of local support, the ability of 
states and communities to leverage resources, and the potential to 
conserve important lands and promote recreation.
    The America's Great Outdoors initiative is being implemented in 
partnership with communities and stakeholders across the Country. In 
January of this year, I accepted the first donation of land in south-
central Florida to officially establish the Everglades Headwaters 
National Wildlife Refuge and Conservation Area--conserving one of the 
last remaining grassland and longleaf pine savannah landscapes in 
eastern North America. The new refuge and conservation area--the 556th 
unit of the national wildlife refuge system--was established with the 
support of local ranchers, farmers, and landowners who are working 
cooperatively with Interior and the Fish and Wildlife Service to 
conserve the wildlife values on their lands while retaining their right 
to raise livestock or crops, an approach championed by the Obama 
Administration.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area is one example of the new parks and refuges Interior has recently 
established to protect key natural and cultural resources for future 
generations. In addition to 650 miles of new national trails, 
designation of several national natural and historic landmarks, 
Interior welcomes the Martin Luther King, Jr. Memorial in Washington, 
D.C.; the Paterson Great Falls National Historical Park in New Jersey; 
the Fort Monroe National Monument in Virginia; the Dakota Grassland 
Conservation Area in North and South Dakota; New Mexico's first urban 
national wildlife refuge, the Middle Rio Grande National Wildlife 
Refuge in Albuquerque; and a signature America's Great Outdoors project 
in the Crown of the Continent Conservation Area in Montana. Interior 
launched significant efforts to protect America's enduring icons 
including upgrading the Statue of Liberty, initiating repairs to 
earthquake damage at the Washington Monument, and withdrawal of over 
one million acres in the vicinity of the Grand Canyon from additional 
uranium and hardrock mining, to protect and preserve the natural beauty 
of the Grand Canyon.
    Interior's 2013 budget request for appropriations from the Land and 
Water Conservation Fund includes a total of $450 million for Interior 
and Forest Service Program. The budget requests $212.0 million for 
Federal land acquisition within national parks, national wildlife 
refuges, and BLM public land boundaries, including $83.6 million for a 
collaborative program to support landscape-scale conservation projects 
developed in a collaborative process conducted by the Forest Service 
and Interior land management bureaus. Investments in ecologically 
important landscapes will be coordinated with State and local efforts 
to maximize ecosystem benefits, support at-risk species, and create 
wildlife corridors. The request includes $128.4 million for acquisition 
to facilitate protection of parks, refuges, and BLM designated areas 
based on bureau mission-specific priorities.
    The 2013 Federal land acquisition budget for BLM includes funding 
to will improve access for hunters and anglers to the public lands. 
Often these sportsmen and women are frustrated by complicated 
``checkerboard'' land ownership and are unable to access BLM lands that 
provide recreation opportunities. The budget includes $2.5 million that 
will be used to purchase easements to alleviate these challenges and 
provide improved access for public recreation.
    An additional $120 million is proposed for key grant programs 
supported by the LWCF, including $60 million each for the Cooperative 
Endangered Species Conservation Fund program and State LWCF grants.

Spurring Growth and Innovation Through Science
    Investments in research and development promote economic growth and 
innovation, ensure American competitiveness in a global market, and are 
critical to achieving the mission of the Department of the Interior. 
Investments in Interior's research and development will improve 
management of U.S. strategic energy and mineral supplies, water use and 
availability, and natural hazard preparedness. Sustainable stewardship 
of natural resources requires strong investments in research and 
development in the natural sciences.
    Research and development funding is increased by nearly $60 million 
in the 2013 budget, with R&D funding increases among all of the DOI 
bureaus, and particularly USGS, FWS, BSEE, BLM and BOR. With these 
investments, Interior will support research that addresses critical 
challenges in energy production and the management of ecosystems, 
invasive species, public lands, and water.
    Recent technology and operational improvements have led to 
increased use of hydraulic fracturing in developing natural gas 
resources. To ensure the prudent and sustainable development of this 
important source of domestic energy, economic development, and job 
creation, the 2013 budget invests in research and development that 
proactively addresses concerns about the potential impacts of hydraulic 
fracturing on air, water, ecosystems, and earthquakes. The 2013 budget 
supports a $45 million interagency research and development initiative 
by the USGS, the Department of Energy, and the Environmental Protection 
Agency aimed at understanding and minimizing potential environmental, 
health, and safety impacts of shale gas development and production 
through hydraulic fracturing.
    The BOEM is working with the University of Texas and a team of 
arctic researchers on a five year comprehensive study of the Hanna 
Shoal ecosystem in the Chukchi Sea off Alaska's northwest coast. Past 
studies have identified this area as an important biological ecosystem, 
which supports a high concentration of marine life. Valuable data on 
physical and biological processes in the area obtained from this 
research effort will be combined with the results of previously 
conducted studies. The resulting information will be used by industry, 
as well as by BOEM in decisions regarding energy development in this 
region, and will be included in future National Environmental Policy 
Act analyses.
    In 2011, USGS used cutting edge technology to complete the genome 
sequencing of the fungus that causes the skin infection that is a 
hallmark of the white-nose syndrome, which is decimating bat 
populations across the country. This sequencing will support further 
research that is necessary to develop management strategies to mitigate 
the spread of the syndrome among bats. Recognizing the impact of this 
is not limited to wildlife health, USGS and university partners 
produced a study which determined that bats contribute $3.7 billion to 
the agricultural economy by eating pests that are harmful to 
agricultural and forest commodities. The 2013 budget provides $1.8 
million for USGS to conduct further research and development to address 
this critical issue.
    In 2013, the Budget requests a $2 million increase in the BLM Wild 
Horse and Burro program to fund research on contraception/population 
control. Research may include topics such as studies on herd genetics, 
animal behavior and overall rangeland use as it relates to 
sterilization and other population growth suppression techniques. The 
goal of the research will be to develop additional methods to minimize 
wild horse population growth and maintain herd health.

Delivering Sustainable Growth through Water
    Although the Bureau of Reclamation is within the jurisdiction of 
the Energy and Water Subcommittee, it plays a critical role in 
addressing the Nation's water challenges which are of interest the 
Subcommittee. Reclamation maintains 476 dams and 348 reservoirs with 
the capacity to store 245 million acre-feet of water. The bureau 
manages water for agricultural, municipal, and industrial use, and 
provides flood control and recreation for millions of people. 
Reclamation's activities, including recreation, generate estimated 
economic benefits of over $55 billion and support nearly 416,000 jobs.
    These facilities deliver water to one in every five western farmers 
to irrigate about ten million acres of land, and provide water to over 
31 million people for municipal and industrial uses and other non-
agricultural uses. The water managed by Interior irrigates an estimated 
60 percent of the Nation's vegetables each year. Reclamation facilities 
also reduce flood damages in communities where they are located and 
thereby create an economic benefit by sparing these communities the 
cost of rebuilding or replacing property damaged or destroyed by flood 
events.
    WaterSMART, established in 2010, has assisted communities in 
improving conservation, increasing water availability, restoring 
watersheds, resolving long-standing water conflicts, addressing the 
challenges of climate change, and implementing water rights 
settlements. The program has provided more than $85 million in funding 
to non-Federal partners, including Tribes, water districts, and 
universities, including $33 million in 2011 for 82 WaterSMART grant 
projects. In December, Interior released a report on the effectiveness 
of the WaterSMART program, which demonstrates the importance of this 
work to the sustainability of resources in the Colorado River Basin.
    Another example of Interior's efforts to stretch water resources is 
the Yuma Desalting Plant in Arizona. Reclamation recently completed a 
year-long pilot operation of the Plant in collaboration with 
California, Arizona, and Nevada water agencies. The pilot demonstrated 
the capability of the Plant to augment Lower Colorado River supplies 
and produced sufficient water for use by about 116,000 people in a 
year. Reclamation and the regional water agencies are reviewing the 
results of this effort to evaluate the potential for long-term and 
sustained operation of the desalting plant.

Encouraging Economic Development in Indian Country and Honoring Trust 
        Responsibilities
    The Department has a unique responsibility to American Indians and 
Alaska Natives, which is upheld by Interior's support for a robust 
government-to-government relationship as demonstrated by a new 
comprehensive and transparent consultation policy that ensures there is 
a strong, meaningful role for tribal governments. The Department and 
the President hosted the third White House Tribal Nations Conference in 
December 2011, bringing together tribal leaders from across the United 
States and enabling tribal leaders to interact directly with 
Administration representatives and identify priority actions for 
American Indians and Alaska Natives.
    In 2011, Interior began planning to implement the landmark $3.4 
billion settlement of the Cobell v. Salazar lawsuit, and appointed a 
Secretarial Commission on Trust Administration and Reform to oversee 
implementation of the Settlement agreement. The Commission is 
undertaking a forward looking, comprehensive evaluation of Interior's 
management of nearly $4 billion in American Indian and tribal trust 
funds--with the goal of making trust administration more transparent, 
responsive, customer focused, and accountable.
    The Department held regional consultations across the Country to 
set the framework for the Cobell land consolidation program. The 
Settlement establishes a $1.9 billion fund for the voluntary buy-back 
and consolidation of fractionated land interests to provide individual 
American Indians with an opportunity to obtain cash payments for 
divided land interests and consolidate holdings for economic and other 
uses, a significant benefit for tribal communities. Almost four million 
individually owned interests involving nearly nine million acres have 
been identified as part of this effort.
    To further encourage and speed up economic development in Indian 
Country, the Department took a significant step forward announcing the 
sweeping reform of antiquated, ``one-size-fits-all'' Federal leasing 
regulations for the 56 million surface acres the Federal government 
holds in trust for Tribes and individual Indians. The proposed rule 
identifies specific processes--with enforceable timelines--through 
which the Bureau of Indian Affairs must review leases. The regulation 
establishes separate, simplified processes for residential, business, 
and renewable energy development, so that, for example, a lease for a 
single family home is distinguished from a large solar energy project. 
The proposed regulation incorporates many changes requested by tribal 
leaders during extensive consultations this past year to better meet 
the goals of facilitating and expediting the leasing process for trust 
lands. During the initial consultation period more than 2,300 comments 
were received from more than 70 Tribes as well as several Federal 
agencies, including the Departments of Housing and Urban Development, 
Agriculture, and the Internal Revenue Service. The BIA regulatory 
drafting workgroup is expected to review the comments and publish the 
final rule in 2012.
    The Claims Resolution Act of 2010 settled the Cobell lawsuit and 
four settlements that will provide permanent water supplies and 
economic security for the five New Mexico Pueblos of Taos, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona. The 
agreements will enable construction and improvement of reservation 
water systems, irrigation projects, a regional multi-pueblo water 
system, and codify water-sharing arrangements between Indian and 
neighboring communities. The primary responsibility for constructing 
water systems associated with the settlements was given to the Bureau 
of Reclamation and BIA is responsible for the majority of the trust 
funds.
    Reclamation is requesting $21.5 million in 2013 for the continued 
implementation of these four settlements and $25.0 million for the 
Navajo-Gallup Water Supply project. In total, the Indian Affairs budget 
includes $36.3 million for ongoing Indian land and water settlements, 
which includes $9.5 million for the seventh and final payment for the 
Nez Perce/Snake River Water Rights Settlement.
    A key responsibility for Indian Affairs is ensuring and improving 
the safety of Indian communities. Some Indian reservations experience 
violent crime rates that are twice the national average. The high crime 
rates are a key issue for tribal leaders as they degrade the quality of 
life for residents, attract organized crime, and are a real 
disincentive for businesses to consider these communities for economic 
development. FY 2011 was the second year of a two-year pilot at four 
reservations to conduct expanded community policing, equip and train 
the law enforcement cadre, partner with the communities to organize 
youth groups and after school programs, and closely monitor results. 
The results exceeded expectations with a 35 percent overall decrease in 
violent crime in the four communities. Information about the four 
reservations is being analyzed and the program will be expanded in 2013 
to an additional two communities. The 2013 budget includes $353.9 
million for Public Safety and Justice programs, a program increase of 
$8.5 million to support this expansion and other public safety 
activities.

Interior's Budget in Context
    President Obama has challenged agencies to encourage American 
innovation, employ and educate young people, rebuild America, and 
promote economic development. Interior's 2013 budget invests in areas 
that are responsive to these challenges and more. This budget continues 
funding for important programs that will protect the Nation's 
significant natural resources and cultural heritage, makes strategic 
investments in energy development, advances partnerships to leverage 
resources, and seeks improved outcomes for Indian communities. At the 
same time, this budget recognizes the need for fiscal responsibility. 
The priority programs that are level funded with 2012 and limited 
strategic investments proposed in 2013 are balanced by reductions in 
lower priority programs, deferrals and planning efficiencies.
    Taking Fiscal Responsibility - Interior made its 2013 budget 
decisions in the context of the challenging fiscal environment. The 
2013 budget of $11.5 billion, including Reclamation, eliminates and 
reduces lower priority programs, defers project start-ups, reduces 
duplication, streamlines operations, and captures savings. The 2013 
request is $97.9 million, essentially level with 2012 enacted and 
$280.4 million below 2011.
    The 2013 budget contains $516.8 million in program terminations, 
reductions, and savings from administrative efficiencies. Staffing 
reductions of 591 FTEs are planned for 2013, a reduction of 741 FTEs 
from 2011 levels. These personnel reductions are focused on areas where 
there are funding reductions. Staffing reductions will be achieved 
through attrition, and buy-outs in order to minimize the need to 
conduct reductions in force to the greatest extent possible.
    This budget is responsible, with strategic investments in a few, 
targeted areas, and maintains the core functions that are vital to 
uphold stewardship responsibilities and sustain key initiatives. The 
budget also continues efforts to shift program costs to industry where 
appropriate. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6.0 billion, for $17.5 billion in total budget authority 
for Interior in 2013.
    Administrative Savings - As part of the Administration's Campaign 
to Cut Waste, the Department will achieve additional administrative 
efficiencies that result in cumulative savings of $207.0 million from 
2010 to 2013. These reductions are being implemented throughout 
Interior and result from changes in how the Department manages travel, 
employee relocation, acquisition of supplies and printing services, and 
the use of advisory services. The proposed savings in administrative 
functions will not have an impact on programmatic performance, and to 
the greatest extent possible savings will be redirected into priority 
programmatic areas.
    The Department's 2013 budget reflects a freeze on Federal salaries 
for 2012 and a 0.5 percent pay increase in 2013. The budget fully funds 
fixed costs for the civilian pay increase, anticipated changes in the 
Federal contributions to health benefits, rent increases, changes in 
workers and unemployment compensation costs, programs financed through 
the Working Capital Fund, and specific contract requirements for P.L. 
93-638 agreements with Tribes.
    Cost Recovery - Significant portions of Interior's budget are 
funded by cost recovery, offsetting collections, and discrete fees 
linked to uses of lands and resources. The budget proposes to increase 
cost recovery to offset the cost of some resource development 
activities that provide clear benefits to customers. The proposed fees 
on oil and gas inspections are consistent with the recommendations of 
the National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling. The Commission's report stated the oil and gas 
industry should be ``required to pay for its regulators'' so that the 
costs of regulation ``would no longer be funded by taxpayers but 
instead by the industry that is permitted to have access to a publicly 
owned resource.''
    The budget includes $48.0 million from new inspection fees to be 
paid by onshore oil and gas producers. Instituting these fees will 
allow for a $10.0 million program increase to be used to strengthen the 
BLM inspection program, along with a $38.0 million decrease in current 
appropriations for BLM as a whole. Similar fees were proposed in 2012 
but not adopted due to concerns about impacts on the producers. The 
fees would be on average, 0.2 percent of the annual income collected by 
the producers. In addition to the proposed onshore inspection fees, 
estimated fee collections from the offshore oil and gas inspections 
instituted in 2012 are slightly increased in 2013 to $65.0 million. 
This fee-based funding is critical to maintaining the Administration's 
aggressive implementation of a robust offshore safety program.
    The 2013 budget proposes a new grazing administrative fee of $1.00 
per animal unit month on a three-year pilot basis. The fee is estimated 
to generate $6.5 million in 2013 and will be used to assist BLM in 
processing grazing permits. During the period of the pilot, BLM would 
work through the process of promulgating regulations for the 
continuation of the grazing fee as a cost recovery fee after the pilot 
expires. The 2013 budget continues an offsetting collection initiated 
in 2012, allowing the Office of Surface Mining to retain coal mine 
permit application and renewal fees for the work performed as a service 
to the coal industry. An estimated $3.4 million will be collected in 
2013.

Major Changes in the 2013 Request
    The Department's 2013 budget request totals $11.5 billion in 
current authority including $10.5 billion for programs funded by the 
Interior, Environment, and Related Agencies Appropriations Act. This is 
$140.3 million, or 1.4 percent, above the 2012 level. The 2013 request 
for the Bureau of Reclamation including the Central Utah Project 
Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $1.0 billion in current appropriations, $42.4 
million or 3.9 percent below the 2012 level.
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual appropriation. In 2013, Interior will generate receipts 
of approximately $13.9 billion and propose mandatory legislation with a 
total net savings of roughly $2.5 billion over ten years.
    Bureau of Land Management - The 2013 request is $1.1 billion, 
essentially level with the 2012 enacted budget. This includes a 
decrease of $8.2 million for BLM's two operating accounts, an increase 
of $11.2 million for Land Acquisition, and a reduction of $3.6 million 
that eliminates the Construction account.
    To advance the America's Great Outdoors initiative, the request 
includes $6.3 million in programmatic increases for recreation, 
cultural resources, and the National Landscape Conservation System for 
BLM to expand and improve opportunities for recreation, education, and 
scientific activities while enhancing the conservation and protection 
of BLM managed lands and resources.
    The BLM will continue to promote and facilitate the development of 
renewable energy on public lands, as part of the New Energy Frontier 
initiative. The 2013 budget includes a program increase of $7.0 million 
for renewable energy to support wind, solar, and geothermal energy. An 
additional $13.0 million in program increases are requested to maintain 
and strengthen management of the oil and gas program, along with a 
requested $10 million increase in mandatory funding specifically 
focused on strengthening BLM's oil and gas inspection program. These 
increases would be more than offset by $48.0 million in proposed 
inspection fees to shift the cost of the oil and gas inspection and 
enforcement activity from taxpayers to the oil and gas industry.
    The other major program increase is $15.0 million to implement sage 
grouse conservation and restoration measures to help prevent the future 
listing of the species for protection under the Endangered Species Act. 
The BLM will use $10.0 million of the requested increase to incorporate 
the necessary protections into BLM's land use plans to address 
conservation of the sage grouse. These plans will guide energy 
development, transportation, and other uses and ensure conservation of 
sage grouse habitat. The remaining $5.0 million funds on-the-ground 
projects to restore and improve sage grouse habitat and additional 
inventory, monitoring, and mapping efforts to delineate areas of 
highest priority habitat in the range of the sage grouse. Other program 
increases in the BLM budget include $1.5 million for the Secretary's 
Western Oregon Strategy, $2.0 million for research and development on 
population control in the Wild Horse and Burro Management program, and 
$4.4 million in the Resource Management Planning program to support 
high priority planning efforts.
    A $15.8 million program decrease is proposed in the Rangeland 
Management program, however, the impact of this funding decrease will 
be mitigated by a new grazing administrative processing fee of $1.00 
per animal unit month that BLM proposes to implement on a pilot basis 
through appropriations language, estimated to raise $6.5 million in 
2013. The 2013 budget reduces programmatic funding for the Alaska 
Conveyance program by $12.4 million from the 2012 level. Interior will 
explore opportunities to further streamline the program. A $3.5 million 
program reduction is proposed in the Public Domain Forest Management 
program.
    Bureau of Ocean Energy Management - The 2013 operating request is 
$164.1 million, including $62.7 million in current appropriations and 
$101.4 million in offsetting collections. This is an increase of $3.3 
million above the 2012 enacted level.
    The 2013 budget includes program increases of $2.0 million from the 
2012 enacted level for activities to promote offshore conventional and 
renewable energy development that is safe and environmentally 
responsible. Increased funding will be used to develop baseline 
characterization and monitoring capabilities in the Gulf of Mexico that 
are required as a result of the Deepwater Horizon incident, as well as 
to support renewable energy lease auctions.
    Bureau of Safety and Environmental Enforcement - The 2013 operating 
request is $222.2 million, including $96.3 million in current 
appropriations and $125.9 million in offsetting collections. This is an 
increase of $24.8 million above the 2012 enacted level. The $4.8 
million increase for offsetting collections includes an estimated $3.0 
million increase in inspection fee collections.
    The 2013 budget includes funds to increase operational safety 
capabilities, develop the National Offshore Training and Learning 
Center for inspectors, and conduct research and development activities 
on critical safety systems associated with offshore oil and gas 
development.
    Office of Surface Mining - The 2013 budget request is $140.7 
million, a decrease of $9.5 million from the 2012 enacted level. The 
reduction reflects decreases in grants to States and Tribes to 
encourage regulatory programs to recover costs from fees charged to the 
coal industry and finalize the transition of abandoned mine land 
reclamation from discretionary to mandatory funding.
    I signed a Secretarial Order on October 26, 2011, to review certain 
functions of OSM and BLM for potential consolidation. As part of this 
effort, I asked the Directors of OSM and BLM and other Interior 
officials to report by February 15, 2012 on the results of discussions 
with the bureaus' employees, congressional committees, and interested 
parties, such as Tribes, State regulatory officials, industry 
representatives, and representatives of communities affected by coal 
mining. Our efforts in consolidation will respect existing law and 
identify actions that will strengthen these two bureaus.
    Bureau of Reclamation - The 2013 budget request for the Bureau of 
Reclamation totals $1.0 billion, including the Central Utah Project 
Completion Act program. Interior's 2013 budget proposes to consolidate 
the CUPCA program with the Bureau of Reclamation. This will allow the 
Department to evaluate the priority of the CUPCA program in the context 
of other water programs. The 2013 CUPCA request is $21.0 million, a 
decrease of $7.7 million from the 2012 enacted level. The Bureau of 
Reclamation total adjusted in 2012 to include CUPCA funding, is a 
decrease of $42.4 million below the 2012 enacted level.
    Reclamation's 2013 request reflects reductions due to the 
completion of the construction of Animas-La Plata and the Central 
Valley Project Red Bluff pumping plant and fish screen, discontinues 
the Geographically Defined Investigation Programs and Rural Water 
Program, Title I, and does not continue the following congressional 
additions in the 2012 enacted budget: fish passage and fish screens; 
water conservation and delivery studies, projects and activities; and 
environmental restoration and compliance.
    The 2013 budget includes $7.1 million to begin implementation of 
actions under the Klamath Basin Restoration Agreement that are 
currently authorized under existing law, and some increases in programs 
such as: rural water projects, which includes a $9.2 million increase 
to complete the construction of the Mni Wiconi Project in South Dakota 
by the 2013 sunset date; the WaterSMART program; and the Safety of Dams 
program.
    Funding for Native American programs in Water and Related Resources 
shows a reduction of $52.1 million, reflecting the shift of $46.5 
million to the requested new Indian Water Rights Settlements account 
and smaller decreases. Reclamation is requesting the establishment of 
an Indian Water Rights Settlements account in 2013 to assure continuity 
in the construction of the authorized projects and to highlight and 
enhance transparency in handling these funds. The total for 
Reclamation's implementation of Indian water rights settlements in 2013 
is $106.5 million, $46.5 million in current funding and $60.0 million 
in permanent authority.
    U.S. Geological Survey - The USGS budget request is $1.1 billion, 
$34.5 million above the 2012 enacted level. The President's budget 
supports science, monitoring, and assessment activities that are 
critical to understanding and managing the ecological, mineral, and 
energy resources that underlie the prosperity and well-being of the 
Nation. The 2013 budget includes a program increase of $51.0 million to 
fund research and development priorities in disaster response, 
hydraulic fracturing, coastal and ocean stewardship, and ecosystem 
restoration. The budget also supports the Secretary's initiatives in 
responsible energy development and further resolution of water 
challenges with funding above the 2012 enacted level.
    The USGS budget also includes investments in important science 
programs to help meet societal needs. A program increase of $13.0 
million above 2012 for the WaterSMART Program will be used to conduct 
research on predictive models on regional water availability, explore 
methods of integrating and disseminating data through science 
platforms, and establish a National Groundwater Monitoring Network.
    A program increase of $8.6 million is requested to improve rapid 
disaster response to natural disasters. Funding will be used to improve 
capacity to provide timely and effective science and information 
products to decision makers, in order to minimize the risks hazards 
pose to human and natural systems. Funding will be invested in 
capability improvements to the USGS monitoring networks for rapid 
response to earthquakes, volcanoes, volcanic ash, debris flow, 
tsunamis, floods, hurricanes, and other potential threats to 
populations and infrastructure.
    The budget includes a program increase of $13.0 million to support 
the hydraulic fracturing research and development effort with the 
Department of Energy and Environmental Protection Agency to understand 
and minimize potential adverse environmental, health, and safety 
impacts of shale gas development through hydraulic fracturing. New work 
will build on existing efforts and address issues such as water quality 
and quantity, ecosystem impacts, and induced seismicity.
    With a program increase of $16.2 million, USGS will conduct science 
in support of ecosystem management for priority ecosystems such as the 
Chesapeake Bay, California Bay-Delta, Columbia River, Everglades, Puget 
Sound, Great Lakes, Upper Mississippi River, and the Klamath Basin. 
With an increase of $2.0 million, the USGS will address overarching 
ecosystem issues related to the invasive brown tree snake, white-nose 
syndrome in bats, and coral reef health. These increases will provide 
information management and synthesis and land change science support 
for these ecosystem activities. Included in the total above is $500,000 
identified for research efforts through the DOI Climate Science Centers 
to enhance work with Tribes to understand the impacts of climate change 
on tribal lands. Funding increases will also support priorities in 
sustaining our National environmental capital, including development of 
the first coordinated multi-departmental effort of its kind to develop 
a standardized ecosystem services framework.
    The 2013 budget also provides a program increase of $6.8 million to 
sustain and enhance existing activities and for a new initiative on 
Science for Coastal and Ocean Stewardship that supports priority 
objectives of the National Ocean Policy in the areas of marine and 
coastal science, resource and vulnerability assessments, ecosystem 
based management, and providing science based tools to inform policy 
and management. The USGS will work with partners to provide access to 
comprehensive maps and assessments of seabed and coastal conditions and 
vulnerability. The increase will improve the integrated science needed 
to inform development of resources while conserving the Nation's 
coastal and marine ecosystems.
    Fish and Wildlife Service - The 2013 budget includes $1.5 billion, 
an increase of $72.0 million above the 2012 enacted level. In addition, 
the budget includes a $200.0 million cancellation of prior year 
unobligated balances in the Coastal Impact Assistance program. The 
budget includes America's Great Outdoors increases of $20.9 million in 
the Resource Management account and $52.3 million for land acquisition. 
There is a $3.9 million increase in the North American Wetlands grants 
program, a component of the AGO initiative. State and Tribal Grants are 
funded at $61.3 million, level with 2012. Funding for the Construction 
account is reduced by $3.9 million.
    The budget proposes a program increase of $4.0 million for 
activities associated with energy development. This enables FWS to 
participate fully in priority landscape level planning and assist 
industry and State fish and wildlife agencies as they plan for 
renewable energy projects and transmission corridor infrastructure. The 
2013 budget continues the commitment to ecosystem restoration by 
including $13.5 million for the Everglades, an increase of $3.0 
million; $4.9 million for California's Bay-Delta, level with 2012; 
$10.2 million for the Gulf Coast, level with 2012; $10.3 million for 
the Chesapeake Bay, a program increase of $145,000; and $47.8 million 
for the Great Lakes, a program increase of $2.9 million. Funding for 
the Cooperative Landscape Conservation and Adaptive Science activity is 
$33.1 million, an increase of $856,000. This funding supports the 
operation of 14 Landscape Conservation Cooperatives.
    The budget includes $994.7 million available under permanent 
appropriations, most of which will be provided in grants to States for 
fish and wildlife restoration and conservation.
    The 2013 budget proposes a reduction of $14.0 million to eliminate 
the discretionary contribution to the National Wildlife Refuge Fund 
payments to counties to offset local tax loss due to Federal land 
ownership. An estimated $8 million in mandatory receipts collected and 
allocated under the program would remain. Payments collected by 
counties can be used for non-conservation purposes and as such, this 
Fund does not provide the high priority conservation benefits delivered 
by other FWS programs. The budget also proposes the cancellation of 
$200 million in prior year balances within the Coastal Impact 
Assistance Program.
    National Park Service - The 2013 budget includes $2.6 billion, $1.0 
million below the 2012 enacted level. Within the total available for 
NPS in 2013, $2.4 billion is for programs that support the goals of the 
America's Great Outdoors initiative. The budget proposes strategic 
increases to advance the goals of the initiative, including increases 
of $13.5 million for park operations and $17.5 million for Land 
Acquisition and State Assistance. The budget proposes reductions of 
$7.8 million in the National Recreation and Preservation account from 
the National Heritage Areas program, and $24.2 million from 
Construction. The request for the Historic Preservation Fund is level 
with 2012--grants to States and Tribes are continued at the 2012 level 
of $55.9 million.
    Select programmatic increases in the park operations account 
include $5.0 million for Climate Change Adaptive Management tools, $2.0 
million for U.S. Park Police operations including $1.4 million in 
support of the Presidential Inauguration, $1.2 million for National 
Capital Area parks in support of the Presidential Inauguration, and 
$610,000 for the Challenge Cost Share program. These increases are 
offset with strategic reductions of $24.8 million to park operations 
and service-wide programs.
    Funding for Land Acquisition and State Assistance totals $119.4 
million and includes a programmatic increase of $2.5 million for 
Federal land acquisition. The Land Acquisition proposal includes $9.0 
million for matching grants to States and local entities to preserve 
and protect Civil War battlefield sites outside the national park 
system. The budget also requests a programmatic increase of $15.1 
million for the State Assistance grant program. The $60.0 million 
request for State grants includes $20.0 million for competitive grants 
that support urban parks and green spaces, blueways, and landscape 
level conservation projects in communities that need them the most.
    Funding for Construction includes a programmatic reduction of $25.3 
million for line-item construction projects, however, the budget 
proposes funding for the most critical health and safety projects in 
the national park system. It also includes programmatic reductions of 
$1.5 million from construction program management and planning, 
$760,000 from the housing improvement program, $443,000 from 
construction planning, $450,000 from management planning, and $228,000 
from equipment replacement.
    Indian Affairs - The 2013 budget includes $2.5 billion for Indian 
Affairs programs, a decrease of $4.6 million from the 2012 enacted 
level. This includes an increase of $11.7 million for Operation of 
Indian Programs and a decrease of $17.7 million in the Construction 
account. The budget includes an increase of $3.5 million in Indian Land 
and Water Claim Settlements and a decrease of $2.1 million in the 
Indian Guaranteed Loan program.
    In 2013, the largest increase, $8.8 million, is in Contract Support 
Costs and the Indian Self-Determination Fund, both high priorities for 
Tribes. Public Safety and Justice activities receive a program increase 
of $8.5 million to support additional police officers and detention 
corrections staff.
    The budget proposes program increases of $7.8 million for the Trust 
Natural Resources programs and $7.0 million for Trust Real Estate 
Services programs. Funding increases for Trust Land Management programs 
are proposed to assist Tribes in the management, development, and 
protection of Indian trust land and natural resources. The budget 
proposes a $2.5 million program increase to support increasing 
enrollment at tribal colleges.
    The 2013 request reflects a reduction of $19.7 million as the 
bureau will undergo a consolidation in 2013 to streamline and improve 
oversight operations. The BIA will engage in extensive consultation 
with Tribes to identify strategies that will ensure tribal needs and 
priorities are addressed. Following consultation, Indian Affairs will 
construct an implementation plan for a streamlined, cost-effective 
organization. The budget also includes $13.9 million in administrative 
savings from reductions to fleet, travel, contractors, and awards.
    Departmental Offices and Department-wide Programs - The 2013 
request for the Office of the Secretary is $261.6 million, a reduction 
of $266,000 from the 2012 enacted level. Of this, $119.6 million is for 
Office of Natural Resources Revenue including a program increase of 
$1.2 million to complete termination of the Royalty-in-Kind program and 
a program decrease of $2.3 million for completed information management 
system upgrades. The budget for OS includes a program increase of $1.6 
million for minerals receipts modeling development to improve revenue 
estimation and reporting capabilities and a program increase of $2.0 
million for facilities rent necessitated by the delay in the Main 
Interior Building modernization project. Other changes include a 
general program reduction of $3.7 million and the transfer of the 
Indian Arts and Crafts Board from OS to BIA resulting in a reduction of 
$1.3 million.
    The Department's 2013 request for the Working Capital Fund 
appropriation is $70.6 million, an increase of $8.7 million from the 
2012 enacted level. Within this request is $62.1 million to continue 
deployment of the Financial and Business Management System including 
implementation of the acquisition and financial assistance 
functionality as recommended by an independent assessment of the 
program. The budget proposes an increase of $3.5 million to improve 
Interior's stewardship of its cultural and scientific collections and 
an increase of $2.5 million to expand collaboration similar to the 
Service First to improve delivery and operating costs. Proposed 
reductions include $5.0 million to reflect the shift of the 
Department's Information Technology Transformation initiative from 
appropriated funds to the Departmental Working Capital fund and $2.5 
million for completion of the Department's Acquisition Improvement 
initiative.
    Major changes in other Departmental programs include an increase of 
$243.0 million in the Wildland Fire Management program. The net 
increase is comprised of a program increase of $195.8 million that 
fully funds the 10-year suppression average and a program reduction of 
$39.0 million in the Hazardous Fuels Reduction program reflecting a 
refocusing of the program toward treatments in the wildland-urban 
interface.
    The budget request for the Office of Insular Affairs is $88.0 
million, a decrease of $16.4 million from the 2012 enacted level. The 
budget includes $5.0 million to mitigate the impacts and costs of 
Compact migration and $3.0 million to implement energy projects 
identified by the Territories' sustainable energy strategies. Funding 
of $13.1 million for the Palau Compact is not requested for 2013 as it 
is expected the Compact will be authorized in 2012.
    The Office of the Special Trustee request is $146.0 million, $6.1 
million below the 2012 enacted level. The 2013 request includes a 
program increase of $3.0 million for the Office of Trust Review and 
Audit to conduct compliance audit reviews for Interior bureaus. The 
budget includes program decreases of $9.9 million for streamlining, 
administrative savings, and the completion of certain trust reform 
activities.

Mandatory Proposals
    In 2013, Interior will collect $13.9 billion in receipts and 
distribute $6.0 billion in permanent funding without further 
appropriation for a variety of purposes, under current law. The budget 
includes 13 legislative proposals that will be submitted to the 
Congress to collect a fair return to the American taxpayer for the sale 
of Federal resources, to reduce unnecessary spending, and to extend 
beneficial authorities of law. Together these proposals will save a net 
total of approximately $2.5 billion over the next decade.
    Reform Coal Abandoned Mine Land Reclamation - The Administration 
proposes to reform the coal Abandoned Mine Lands program to reduce 
unnecessary spending and ensure the Nation's highest priority sites are 
reclaimed. First, the budget proposes to terminate the unrestricted 
payments to States and Tribes that have been certified for completing 
their coal reclamation work because these payments do not contribute to 
abandoned coal mine lands reclamation. Second, the budget proposes to 
reform the distribution process for the remaining funding to 
competitively allocate available resources to the highest priority coal 
abandoned mine lands sites. Through a competitive grant program, a new 
Abandoned Mine Lands Advisory Council will review and rank the 
abandoned coal mine lands sites, so OSM can distribute grants to 
reclaim the highest priority coal sites each year. These reforms will 
focus available coal fees to better address the Nation's most dangerous 
abandoned coal mines while saving taxpayers $1.1 billion over the next 
ten years.
    Create a Hardrock Abandoned Mine Reclamation Fund - To address the 
legacy of abandoned hardrock mines across the U.S., the Administration 
will propose legislation to create a parallel Abandoned Mine Lands 
program for abandoned hardrock sites. Hardrock reclamation would be 
financed by a new abandoned mine lands fee on the production of 
hardrock minerals on both public and private lands. The BLM would 
distribute the funds through a competitive grant program to reclaim the 
highest priority hardrock abandoned sites on Federal, State, tribal, 
and private lands. This proposal will hold hardrock mining companies 
accountable for cleaning up the hazards left by their predecessors 
while generating $500 million in savings over 10 years.
    Reform Hardrock Mining on Federal Lands - The Administration will 
submit a legislative proposal to provide a fair return to the taxpayer 
from hardrock production on Federal lands. The legislative proposal 
would institute a leasing program under the Mineral Leasing Act of 1920 
for certain hardrock minerals including gold, silver, lead, zinc, 
copper, uranium, and molybdenum, currently covered by the General 
Mining Law of 1872. After enactment, mining for these metals on Federal 
lands would be governed by the new leasing process and subject to 
annual rental payments and a royalty of not less than five percent of 
gross proceeds. Half of the receipts would be distributed to the States 
in which the leases are located and the remaining half would be 
deposited in the Treasury. Existing mining claims would be exempt from 
the change to a leasing system but would be subject to increases in the 
annual maintenance fees under the General Mining Law of 1872. Holders 
of existing mining claims for these minerals could, however, 
voluntarily convert claims to leases. The Office of Natural Resources 
Revenue will collect, account for, and disburse the hardrock royalty 
receipts. The proposal is projected to generate Treasury revenues of 
$80.0 million over ten years.
    Fee on Non-producing Oil and Gas Leases - The Administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4.00 per acre fee on non-
producing Federal leases on lands and waters would provide a financial 
incentive for oil and gas companies to either get their leases into 
production or relinquish them so the tracts can be leased to and 
developed by new parties. The proposed $4.00 per acre fee would apply 
to all new leases and would be indexed annually. In October 2008, the 
Government Accountability Office issued a report critical of past 
efforts by Interior to ensure companies diligently develop their 
Federal leases. Although the report focused on administrative actions 
the Department could undertake, this proposal requires legislative 
action. This proposal is similar to other non-producing fee proposals 
considered by the Congress in the last several years. The fee is 
projected to generate revenues to the U.S. Treasury of $13.0 million in 
2013 and $783.0 million over ten years.
    Net Receipts Sharing for Energy Minerals - The Administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2014. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
2013, this net receipts sharing deduction from mineral revenue payments 
to States would be implemented as an offset to the Interior 
Appropriations Act, consistent with identical provisions included in 
the Act since 2008. Permanent implementation of net receipts sharing is 
expected to result in savings of $44.0 million in 2014 and $449.0 
million over ten years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds - The 
Administration proposes to repeal portions of Section 365 of the Energy 
Policy Act, beginning in 2014. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited BLM from establishing cost recovery fees for 
processing applications for oil and gas permits to drill. Congress has 
implemented permit fees through appropriations language for the last 
several years and the 2013 budget proposes to continue this practice. 
Upon elimination of the fee prohibition, BLM will promulgate 
regulations to establish fees for applications for permits to drill 
administratively, with fees starting in 2014. In combination with 
normal discretionary appropriations, these cost recovery fees will then 
replace the applications for permits to drill fees currently set 
annually through appropriations language and the mandatory permit fund, 
which would also be repealed starting in 2014. Savings from terminating 
this mandatory funding are estimated at $18.0 million in 2014 and $36.0 
million over two years.
    Geothermal Energy Receipts - The Administration proposes to repeal 
Section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
government and States with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of five years, 25 percent to a 
new BLM Geothermal Steam Act Implementation Fund. The allocations to 
the new BLM geothermal fund were discontinued a year early through a 
provision in the 2010 Interior Appropriations Act. The repeal of 
Section 224(b) will permanently discontinue payments to counties and 
restore the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in savings of $4.0 million in 2013 and $50.0 
million over ten years.
    Deep Gas and Deepwater Incentives - The Administration proposes to 
repeal Section 344 of the Energy Policy Act of 2005. Section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure Americans receive fair value for 
Federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices drop below current projections.
    Repeal of Authorities to Accept Royalty Payments In Kind - The 
Administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that royalty payments will be 
properly accounted for in the future. The budget does not assume 
savings from this change because the Administration does not anticipate 
restarting the program; however, if enacted, this proposal would 
provide additional certainty that a new Royalty-in-Kind program could 
not be initiated at some point in the future.
    Federal Land Transaction Facilitation Act - The Administration 
proposes to reauthorize this Act that expired July 25, 2011 and allow 
lands identified as suitable for disposal in recent land use plans to 
be sold using the Act's authority. The sales revenues would continue to 
be used to fund the acquisition of environmentally sensitive lands and 
to cover the administrative costs associated with conducting sales.
    Federal Migratory Bird Hunting and Conservation Stamps - Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15.00 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
Administration proposes to increase these fees to $25.00 per stamp per 
year, beginning in 2013. Increasing the cost of Duck Stamps will bring 
the estimate for the Migratory Bird Conservation account to 
approximately $58.0 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2013. Total acres acquired for 2013 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association - On September 3, 2010, the U.S. and 
the Republic of Palau successfully concluded the review of the Compact 
of Free Association and signed a 15-year agreement that includes a 
package of assistance through 2024. Under the agreement, Palau 
committed to undertake economic, legislative, financial, and management 
reforms. The conclusion of the agreement reaffirms the close 
partnership between the U.S. and the Republic of Palau. Permanent and 
indefinite funding for the Compact expired at the end of 2009. The 2013 
budget seeks to authorize permanent funding for the Compact as it 
strengthens the foundations for economic development by developing 
public infrastructure and improving health care and education. Compact 
funding will also support one or more infrastructure projects designed 
to support Palau's economic development efforts. The Republic of Palau 
has a strong track record of supporting the U.S. and its location is 
strategically linked to Guam and U.S. operations in Kwajalein Atoll. 
The cost for this proposal for 2013-2022 is $184.0 million.
    Extension of Payments in Lieu of Taxes -PILT payments are currently 
authorized only through 2012. The budget proposes a one-year extension 
of mandatory PILT payments at the current authorization levels in 2013. 
These payments support local government services in counties that have 
significant Federal lands within their boundaries. The Administration 
looks forward to working with Congress to develop a longer-term 
strategy for providing sustainable levels of funding for PILT payments, 
in light of overall constrained budgets and the need for appropriate 
offsets for new mandatory spending. This extension utilizes the current 
PILT payment formula that is prescribed by law and based on population, 
certain receipt sharing payments, and the amount of Federal land within 
an affected county. The cost for this proposal in 2013 is estimated at 
$398.0 million.

Offsetting Collections and Fees
    The budget includes several proposals to increase cost recovery 
fees, so that industries share some of the cost of regulation.
    Fee Increase for Offshore Oil and Gas Inspections - Through 
appropriations language, the Administration proposes to continue the 
current offshore inspection fee levels authorized by Congress in 2012. 
These fees are estimated to generate $65.0 million in 2013, up from 
$62.0 million in 2012, from operators with offshore oil and gas 
drilling facilities that are subject to inspection by BSEE. The 
increased fees will fund an expanded inspection program, and as enacted 
for 2012, operators will now be charged for the inspection of drilling 
rigs in addition to production platforms. These inspections are 
intended to increase production accountability, human safety, and 
environmental protection.
    New Fee for Onshore Oil and Gas Inspections - Through 
appropriations language, the Administration proposes to implement an 
inspection fee in 2013 for onshore oil and gas drilling activities that 
are subject to inspection by BLM. The proposed inspection fee is 
expected to generate an estimated $48.0 million in 2013, $10.0 million 
more than the corresponding $38.0 million reduction in requested BLM 
appropriations, thereby expanding the capacity of BLM's oil and gas 
inspection program. The fee would support Federal efforts to increase 
production accountability, human safety, and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee - The 2013 budget proposes 
to continue a fee for processing drilling permits through 
appropriations language, an approach taken by Congress in the Interior 
Appropriations Acts. A fee of $6,500 per drilling permit was authorized 
in 2010, and if continued, would generate an estimated $32.5 million in 
offsetting collections in 2013.
    Grazing Administrative Fee - The 2013 budget includes a new grazing 
administrative fee of $1.00 per animal unit month. The BLM proposes to 
implement the fee through appropriations language on a three-year pilot 
basis. The budget estimates the fee will generate $6.5 million in funds 
that will assist the BLM in processing grazing permits. During the 
period of the pilot, BLM would work through the process of promulgating 
regulations for the continuation of the grazing fee as a cost recovery 
fee after the pilot expires.
    Surface Mining and Reclamation Permit Fee - The 2013 budget 
continues an offsetting collection initiated in 2012, allowing OSM to 
retain coal mine permit application and renewal fees for the work 
performed as a service to the coal industry. The fee will help ensure 
the efficient processing, review, and enforcement of the permits 
issued, while recovering some of the regulatory operations costs from 
the industry that benefits from this service. The fee, authorized by 
section 507 of SMCRA, would apply to mining permits on lands where 
regulatory jurisdiction has not been delegated to the States. The 
permit fee will generate an estimated $3.4 million in offsetting 
collections in 2013.

Conclusion
    Thank you for the opportunity to testify on the President's 2013 
budget request for the Department of the Interior. We have a tremendous 
opportunity to invest in America's energy independence and economic 
growth. This budget balances forward looking investments with fiscal 
restraint. For America to be at its best, we need lands that are 
healthy, waters that are clean, and an expanded range of energy options 
to power our economy. This concludes my written statement. I am happy 
to answer any questions that you may have.
                                 ______
                                 

         Response to questions submitted for the record by the 
                    U.S. Department of the Interior

Chairman Hastings

1.  Has the Department of Interior expended any federal resources in 
        connection with the removal of Condit Dam on the White Salmon 
        River in southwest Washington? If so, please identify any and 
        all sources, including any grants that the Department of 
        Interior has awarded to non-governmental entities in connection 
        with this matter.
    Response: The U.S. Fish and Wildlife Service (FWS) has expended 
federal resources in connection with the removal of Condit Dam on the 
White Salmon River in southwest Washington. The FWS used resource 
management funds to assist in the Federal Energy Regulatory Commission 
(FERC) relicensing and negotiation of the Settlement Agreement for 
Condit Dam, and provided technical assistance, outreach and education, 
and conducted Section 7 consultations to evaluate impacts of dam 
removal on bull trout, a species listed as threatened under the 
Endangered Species Act.

2.  Has the Department of Interior studied, or does the Deparment plan 
        to study in the future the impact of the silt from the removal 
        of Condit Dam on endangered species, including salmon spawning 
        grounds below the dam on the White Salmon River? Has the 
        Department communicated with PacifiCorp regarding plans to 
        repair or mitigate the impact to the spawning grounds?
    Response: Bull trout is the only federally listed species under the 
jurisdiction of the FWS that could be affected by removal of the Condit 
Dam. The FWS prepared a biological opinion evaluating expected impacts 
of dam removal on bull trout and their critical habitat and concluded 
that long term benefits of dam removal outweighed short term impacts 
from release of sediments. No bull trout spawning grounds exist below 
the dam. Consequently, the FWS has not communicated with PacifiCorp 
regarding repair or mitigation plans related to salmon spawning 
grounds.

3.  Has your office or the Bureau of Indian Affairs received any 
        proposals or requests from federally-recognized Indian tribes 
        in Washington State for the Department to hold land in trust on 
        their behalf? If so, please identify the details of all such 
        proposals, including the tribe requesting, the location of such 
        property and under what authority such proposals or requests 
        are being made or considered.
    Response: Attached is a list, as of March 15, 2012, of land into 
trust applications pending in the Bureau of Indian Affairs from 
federally-recognized Indian tribes in Washington State. The list sets 
forth the tribe applying to have land placed in trust, the name of the 
property, the number of acres of the property, what the land will 
generally be used for, and the statutory authority for the proposed 
trust acquisition.

4.  On February 16, 2012, you held a town hall event in Anacortes, 
        Washington regarding the San Juan Islands. In 2010, the San 
        Juan Islands was included amongst 13 other locations in 
        documents as a potential national monument. Has the President 
        communicated with you about plans to include the San Juan 
        Islands for designation under the Antiquities Act? Is the 
        Administration considering any other federal designations 
        there?
    Response: The local support for a conservation designation of the 
Bureau of Land Management (BLM) managed lands within the San Juan 
Islands is strong. Legislation to designate the San Juan Islands in 
Washington State as a National Conservation Area has been introduced in 
both the Senate by Senator Maria Cantwell and Senator Patty Murray and 
in the House by Representative Rick Larsen. On March 22, 2012 the 
Department of the Interior testified in support of S. 1559, the San 
Juan Islands National Conservation Area Act, before the Senate Energy 
and Natural Resources Committee.

5.  On January 13, 2012, the President announced the merger of several 
        agencies, including a proposal to move the National Oceanic and 
        Atmospheric Administration into the Department of Interior. 
        However, in the FY 2013 Interior budget proposal just released, 
        it is unclear how this proposal is factored. Please provide a 
        full summary of all activities in the FY 2013 budget request, 
        including FTEs, associated with the President's proposal 
        relating to NOAA and the Department of Interior.
    Response: The 2013 budget request does not propose any funding or 
FTEs relating to a consolidation of the National Oceanic and 
Atmospheric Administration and the Department of the Interior. The 
President has requested that Congress reinstate the reorganization 
authority afforded to Presidents for almost 50 years. The authority 
would allow the President to present, for expedited review by Congress, 
proposals to reorganize and consolidate Executive Branch agencies to 
streamline the government and improve operations. A planning effort 
will begin once Congress provides authority to the President to 
reorganize.

6.  On September 21, 2011, you announced the ``Partners in Conservation 
        Awards'' to 17 recipients, including one featuring federal and 
        state entities that worked with the National Wildlife 
        Federation, a frequent plaintiff against the Department and 
        other federal agencies, to develop a guidebook titled, 
        ``Scanning the Conservation Horizon.'' The Award notice states 
        the guidebook is being used by Department of Interior bureaus 
        and Landscape Conservation Cooperatives ``to guide standardized 
        vulnerability assessment of the resources it manages'' and 
        ``allow comparison of risk across DOI bureaus for a common 
        understanding of the impacts of climate change.'' Please 
        provide a summary of each Department of Interior bureau's total 
        expenditure of federal resources, including FTEs, used directly 
        or indirectly to support the National Wildlife Federation in 
        publishing this guidebook.
    Response: In FY 2010, through a cooperative agreement with the 
National Wildlife Federation (NWF), the FWS, National Park Service and 
U.S. Geological Survey each provided $50,000 to support the development 
of the Scanning the Conservation Horizon guidebook and associated 
training for natural resource specialists and managers. Additionally, 
the Department contributed an estimated 0.5 FTE, estimated at a total 
of $72,800, for the FWS, NPS and USGS staff who participated in the 
technical review of the document during its development. A breakdown of 
the estimated FTE and associated expenditures by bureau follows:

[GRAPHIC] [TIFF OMITTED] T2938.010

Rep. Fleming
1.  Could you please provide the acreage, maps and the revenues 
        received from natural gas production on federal lands within 
        the following:
        a)  The state of Louisiana?
        b)  The 4th Congressional District?
        c)  The boundaries of Barksdale Air Force Base and if 
        applicable, Ft. Polk?
        d)  Kistatchie National Forest?
    Response: In Fiscal Year 2011, there were 198,960 under lease 
within the State of Louisiana, and total production revenues were 
approximately $21 million. The electronic systems used to manage lease 
acreage and revenue data cannot readily report data for the 4th 
Congressional District of Louisiana, the Barksdale Air Force Base or 
Ft. Polk, or the Kitsatchie National Forest. The Bureau of Land 
Management (BLM) is conducting a manual records review in order to 
generate responses to the remainder of this question. BLM anticipates 
completing the manual review by June 15, 2012. The additional data will 
be provided separately.

Rep. Bordallo
1.  The OIA budget requests $3 million for the continuation of brown 
        tree snake (BTS) control. The interdiction program on Guam is 
        staffed by personnel from the Department of Agriculture's 
        Animal and Plant Health Inspection Service (APHIS), however is 
        primarily funded through DOI and the DOD. As you may recall, 
        toward the end of FY 11, there was some uncertainty at the USDA 
        as to whether it would continue the BTS program in FY 12. 
        Ultimately an interagency agreement was reached and the USDA 
        decided not to continue this important program into FY 12 and 
        review it for efficiencies. I am hoping you could offer more 
        details as to the agreement that was reached, and whether there 
        is any uncertainty regarding the future of the program in FY 
        13.
    Response: After working closely with the U.S. Department of 
Agriculture (USDA) last summer to ensure the continuation of the USDA 
operated Guam BTS Interdiction Program beyond FY 2011, the Department 
of the Interior and the Department of Defense (DOD), in close 
cooperation with the USDA, conducted a first quarter FY 2012 review of 
the Program to identify potential cost-saving efficiencies that would 
enable the Program to be fully operational moving forward. The review 
was completed in February 2012 and a funding agreement was reached 
between the USDA, the DOD and the DOI to ensure the continuation of 
this important Program through the end of the fiscal year. While it is 
unclear how Congress may decide to prioritize funding available for BTS 
control and management efforts beyond FY 2012, the continuation of the 
Guam BTS Interdiction Program, from the perspective of DOI, will remain 
a high priority.

Rep. Grijalva
    I would like to get some more information about an ongoing dynamic 
between your department and the State of Utah. Please provide the 
Committee with answers to following questions:
1.  The state of Utah has been largely unsuccessful to date in its 
        quest for thousands of R.S. 2477 claims, yet it has recently 
        filed a notice of intent to sue the department to gain title to 
        over 18,000 rights of way, and this leads me to look with 
        skepticism on their claims, thousands of which have never been 
        constructed or maintained, just created by random travelers, 
        off-road vehicle users, long-forgotten prospectors and 
        infrequent livestock herders. I hope that you and the 
        department vigorously defend against this attack on federal 
        public lands in Utah. What will you do to ensure that federal 
        public lands are fully protected from this threat?
    Response: The Department of the Interior, through the Department of 
Justice, does plan a vigorous defense of United States' interests and, 
as the July 29, 2010, Secretarial Memorandum on R.S. 2477 makes clear, 
the Department must be able to make all appropriate arguments under the 
law to defend these interests. The Department itself does not 
adjudicate or specifically reserve R.S. 2477 rights. These legal 
determinations must ultimately be made by the courts. In this instance, 
we understand that plaintiffs believe themselves obligated to file so 
as to avoid a potential statute of limitations issue, and all parties 
recognize that adjudication of the lawsuits, if an alternative 
resolution cannot be found, will demand a significant amount of time 
and resources. The Department has also been working with the State of 
Utah in an attempt to build a constructive, inclusive solution to the 
issue of RS 2477 rights-of-way. The Department has joined with State 
and county officials and other stakeholders in a pilot negotiation 
project in Iron County, Utah, to try to resolve non-controversial 
claims through consensus building. This approach to addressing the 
issue, with openness on all sides, may help us establish a model for 
consensus-based problem solving that we can carry into the future.

2.  How will Interior determine how these R.S. 2477 claims would impact 
        existing and proposed conservation designations? How would they 
        affect your conservation goals and achievements?
    Response: The Department is still in the early stages of this 
matter, and we are beginning to gather the kind of information that 
will inform questions such as this. In general, once a suit to quiet 
title on an R.S. 2477 claim is filed the Department will, among other 
things, carry out an analysis of the resources that could potentially 
be impacted by designation of such a right-of-way. If an alternative 
resolution cannot be found, all parties agree that adjudication of 
these lawsuits will be time consuming and costly. Depending on the 
nature and scope of the right-of-way and the designation or resources 
at issue, if a county successfully proves R.S. 2477 claims in or near 
existing and proposed conservation designations, historic sites, or 
other areas managed by the Department to protect sensitive resources, 
the Department's ability to implement protective management could be 
impacted.

3.  How would the recognition of these claims affect DOI's ability to 
        manage federal public lands. Would it affect the effectiveness 
        of law enforcement and ORV monitoring? How about the 
        effectiveness of archaeological site protection efforts?
    Response: The Department will take any RS 2477 claims traversing 
the federal lands that are recognized by a court of competent 
jurisdiction into account when it manages the federal lands. The 
Department retains the power to reasonably regulate such rights-of-way. 
The Bureau of Land Management reviews travel impacts to archeological 
resources on a case-by-case basis. As appropriate, the Department 
protects archeological resources from damage by exercising its 
statutory and legal authorities, and by entering into agreements with 
neighboring land managers.

4.  Some of the state's claims lie in BLM wilderness areas designated 
        in the Cedar Mountains Wilderness Act and the Washington County 
        Wilderness Act. Frankly, this casts doubt in my mind as to the 
        state and counties' good faith and seriousness when it comes to 
        enacting federal public lands designations. How will you manage 
        designated wilderness areas, places Congress itself has 
        determined to be essentially roadless in the face of R.S. 2477 
        claims?
    Response: The Department will comply with Wilderness Act and 
Congressional direction regarding the management of designated 
Wilderness Areas. The Department ability to manage areas to preserve 
wilderness character could be impacted if the county and State are 
successful in proving R.S. 2477 claims in wilderness. Validity of an 
R.S. 2477 claim is ultimately left to the determination of a court of 
competent jurisdiction. Holders of valid R.S. 2477 rights-of-way are 
not entitled to make improvements or engage in new road construction 
without consulting the Department and adhering to the federal 
permitting requirements such as under the Federal Land Policy and 
Management Act. The Department will not issue such a permit in a 
Wilderness Area.

Rep. Lamborn
1.  States with disclosure requirements--including two with some of the 
        more stringent requirements, Wyoming and Colorado--provide 
        detailed approaches to protection of trade secrets relating to 
        the fracture stimulation fluid formulations. The states do so 
        in a way that achieves a balance between the public interest in 
        information about what has been discharged into subsurface 
        strata, and the valid interest of business entities in a 
        process or formulation that presents them with a legitimate 
        competitive advantage. The draft BLM regulations do not provide 
        equivalent assurances to suppliers that have a commercial 
        interest in formulations that is of the sort given protection 
        in the Uniform Trade Secrets Act that has been ratified by 46 
        states. Please describe how BLM would plan to recognize the 
        property interest in trade secrets that has been acknowledged 
        by the states that are regulating hydraulic fracturing.
    Response: In addition to the water and sand that are the major 
constituents of fracturing fluids, chemical additives are also 
frequently used. These chemicals can serve many functions, including 
limiting the growth of bacteria and preventing corrosion of the well 
casing. The exact formulation of the chemicals used in fracturing fluid 
varies depending on the rock formations, the well, and the requirements 
of the operator.
    In order to protect proprietary formulations, the proposed rule 
would require oil and gas operators using hydraulic fracturing 
techniques to identify the chemicals used in fracturing fluids by trade 
name, purpose, Chemical Abstracts Service Registry Number, and the 
percent mass of each ingredient used. The information would be required 
in a format that does not link additives to the chemical composition of 
fluids, which will allow operators to provide information to the public 
while still protecting information that may be considered proprietary. 
This design of the disclosure mechanism in the proposed rule will 
inhibit reverse-engineering of specific additives. The information is 
needed in order for the Bureau of Land Management (BLM) to maintain a 
record of the stimulation operation as performed. The proposed rule, 
would allow an operator to identify specific information that it 
believes is protected from disclosure by federal law, and to 
substantiate those claims of exemption. This approach is similar to the 
one that the State of Colorado adopted in 2011 (Colorado Oil and Gas 
Conservation Commission Rule 205.A.b2.ix-xii).

2.  In looking at the BLM draft regulations--it seems that in general 
        they go significantly above and beyond what any state has in 
        place right now. Why did BLM make such drastic changes when the 
        states have been doing a sufficient job of regulating fracking 
        for years?
    Response: The BLM recognizes that some, but not all, states have 
recently taken action to address hydraulic fracturing in their own 
regulations. The BLM's proposed rulemaking is designed to complement 
ongoing state efforts by providing a consistent standard across all 
public and tribal lands and ensuring consistent protection of the 
important federal and Indian resource values that may be affected by 
the use of hydraulic fracturing. Moreover, BLM's regulations are now 30 
years old and need to be updated to keep pace with the many changes in 
technology and current best management practices.
    The BLM is also actively working to minimize duplication between 
reporting required by state regulations and reporting required for this 
rule. The BLM has a long history of working cooperatively with state 
regulators and is applying the same approach to this effort.

3.  In your testimony you stated to the Committee that you have often 
        heard industry say that they would rather have one blanket set 
        of regulations to comply with, rather than a state by state 
        ``patchwork'' of differing regulations. The Natural Resources 
        Committee received a letter signed by multiple associations 
        representing the natural gas industry stating that their 
        companies support the current state process for regulation of 
        hydraulic fracturing. Please explain the instances when you 
        have been told by the natural gas industry that they do 
        specifically support federal regulations for hydraulic 
        fracturing?
    Response: At the President's direction, we are taking steps--in 
coordination with our federal partners and informed by the input of 
industry experts--to ensure that we continue to develop this abundant 
domestic resource on public lands safely and responsibly. Based on 
preliminary input we have received from industry, the public, and 
stakeholders, the Secretary has clearly outlined three common-sense 
measures. Those measures are straightforward:
        <bullet>  Requiring public disclosure of chemicals used in 
        fracking, with appropriate protections for trade secrets;
        <bullet>  Improving assurances on well-bore integrity so we 
        know fluids going into the well aren't escaping into the usable 
        aquifer; and
        <bullet>  Making sure companies have a water management plan in 
        place for fluids that flow back to the surface.

4.  In your testimony you told the Committee that the regulations were 
        crafted with input from the natural gas industry. Aside from 
        their support of Frac Focus, please tell us what other specific 
        provisions in the regulations were either suggested by the 
        natural gas industry or crafted with input from the natural gas 
        industry?
    Response: In developing the proposed rule, the BLM sought feedback 
from a wide range of sources, including tribal representatives, 
industry, members of the public and other interested stakeholders. The 
BLM developed the proposed well stimulation rule to provide common-
sense measures that will enhance public confidence in hydraulic 
fracturing on public lands, while also encouraging continued safe and 
responsible exploration and production. The BLM's proposed rule is 
consistent with the American Petroleum Institute's (API) guidelines for 
well construction and well integrity (see API Guidance Document HF 1, 
Hydraulic Fracturing Operations--Well Construction and Integrity 
Guidelines, First Edition, October 2009).
    In November 2010, Secretary Salazar hosted a forum, including major 
stakeholders, on hydraulic fracturing on public and Indian lands to 
examine best practices to ensure that natural gas on public and Indian 
lands is developed in a safe and environmentally sustainable manner. 
Subsequently, in April 2011, the BLM hosted a series of regional public 
meetings in North Dakota, Arkansas, and Colorado--states that have 
experienced significant increases in oil and natural gas development on 
federal and Indian lands--to discuss the use of hydraulic fracturing on 
the Nation's public lands.
    During the Secretary's forum and the BLM's public meetings, members 
of the public expressed a strong interest in obtaining more information 
about hydraulic fracturing operations being conducted on public and 
Indian lands.

5.  In the BLM regulations there are a variety of pre-disclosure 
        requirements. Oil and gas development is a constantly evolving 
        process and many engineering decisions are made on a day to day 
        basis. To what extent has BLM discussed with industry as to 
        whether or not these 30 day disclosure requirements are even 
        possible? And what assurance does industry have that BLM will 
        approve their submissions in a timely fashion that will not 
        completely stop the drilling operation while they wait for BLM 
        to approve their plans?
    Response: The proposed rule requires public disclosure of chemicals 
used during hydraulic fracturing after fracturing operations have been 
completed. The BLM understands the time sensitive nature of oil and gas 
drilling and well completion activities and does not anticipate that 
the submittal of well stimulation-related information will impact the 
timing of the approval of drilling permits.

6.  The proposed BLM regulations will greatly impact the states that 
        already regulated hydraulic fracturing. It will impact the 
        state's economies, and their ability to create jobs and foster 
        energy development in within their states. There will also have 
        to be significant coordination between state and federal 
        regulations. When in the process have you met with the states 
        to make them aware of your plans?
    Response: The BLM recognizes that in recent years, with the 
increase in well stimulation activities, some, but not all, states have 
taken action to address hydraulic fracturing in their own regulations. 
The BLM's proposed rulemaking ensures consistent protection of the 
important federal and Indian resource values that may be affected by 
the use of hydraulic fracturing.
    The proposed rule is designed to complement ongoing state efforts 
to regulate fracturing activities by providing a consistent standard 
across all public and tribal lands. The BLM is actively working to 
minimize duplication between reporting required by state regulations 
and reporting required for this rule.
    In keeping with longstanding practice and consistent with relevant 
statutory authorities, it is the intention of the BLM to implement on 
public lands whichever rules, state or federal, are most protective of 
federal lands and resources and the environment. And regardless of any 
action taken by the BLM, operators still would need to comply with any 
state-specific hydraulic fracturing requirements on private lands in 
the states where they operate.

7.  Please describe the process by which you have taken to consult with 
        the Tribes on these draft regulations? Please describe the 
        number of meetings held, the Tribes in attendance at these 
        meetings, the number of representatives from each Tribe and any 
        comments or supporting documents you may have received from the 
        Tribes during these discussions.
    Response: Tribal consultation is a critical part of this effort, 
and Secretary Salazar is committed to making sure tribal leaders play a 
significant role as we work together to develop resources on public and 
Indian lands in safe and responsible way. The BLM has been involved in 
active tribal consultation efforts on this topic, and is continuing to 
consult with tribes on the proposed rule. As part of the consultation 
process, the BLM conducted outreach to tribal representatives through 
four regional meetings in January 2012. Nearly 180 tribal 
representatives from all tribes that are currently receiving oil and 
gas royalties and all tribes that may have had ancestral surface use 
were invited. Eighty-four tribal members representing 24 tribes 
attended the meetings. These meetings were held in Tulsa, Oklahoma; 
Billings, Montana; Salt Lake City, Utah; and Farmington, New Mexico.
    In these sessions, tribal representatives were given a discussion 
draft of the hydraulic fracturing rule to serve as a basis for 
substantive dialogue about the hydraulic fracturing rulemaking process. 
The BLM asked the tribal representatives for their views on how a 
hydraulic fracturing rule proposal might affect Indian activities, 
practices, or beliefs if it were to be applied to particular locations 
on Indian and public lands. A variety of issues were discussed, 
including applicability of tribal laws, validating water sources, 
inspection and enforcement, wellbore integrity, and water management, 
among others. Additional individual meetings with tribal 
representatives have taken place since that time.
    BLM has activity engaged tribes and will proactively continue 
tribal consultation under the Department's recently implemented Tribal 
Consultation Policy, which emphasizes trust, respect and shared 
responsibility in providing tribal governments an expanded role in 
informing federal policy that impacts Indian tribes, including their 
lands.
    The agency will continue to consult with tribal leaders throughout 
the rulemaking process. Responses from tribal representatives will 
inform the agency's actions in defining the scope of acceptable 
hydraulic fracturing rule options.

8.  Unlike the more stringent state disclosure requirements, the draft 
        BLM regulations require pre-approval of fracture stimulation 
        formulations. What is the technical basis on which such 
        approval will be given or withheld by the agency? What is the 
        staff expertise that will be required to make such 
        determinations, and does BLM currently have the staff resources 
        to administer this pre-approval
    Response: The proposed rule requires public disclosure of chemicals 
used during hydraulic fracturing after fracturing operations have been 
completed.

9.  Please describe the Department's or BLM's familiarity with the 
        operational practice in the drilling industry of making 
        adjustments to well stimulation fluid formulations on a 
        relatively continuous manner during the process of drilling and 
        completing a well--including making adjustments to such 
        formulations while hydraulic fracturing operations are underway 
        as a result of many factors including the pH levels of the 
        water used and the temperature of the air during the job? 
        Please describe how BLM would expect to administer these 
        regulations if adopted in light of that practice, given the 30 
        day pre-approval submittal requirement?
    Response: The proposed rule requires public disclosure of chemicals 
used during hydraulic fracturing after fracturing operations have been 
completed.

10.  The states with the most stringent disclosure requirements for 
        hydraulic fracturing fluid formulations require that operators 
        provide disclosure of the chemicals used via the FracFocus 
        website. The draft BLM regulations make no reference to 
        FracFocus. Do the draft regulations as worded indicate that BLM 
        intends to set up an entirely new data base of fracture 
        stimulation chemicals? How would this data base be administered 
        if BLM should establish it?
    Response: The BLM is working closely with the Ground Water 
Protection Council and the Interstate Oil and Gas Commission in an 
effort to determine whether the disclosure called for in the proposed 
rule can be integrated into the existing website known as FracFocus.
    FracFocus is a voluntary hydraulic fracturing chemical registry 
website that is a joint project of the Ground Water Protection Council 
and the Interstate Oil and Gas Compact Commission. The site was created 
to provide public access to reported information on the chemicals used 
in hydraulic fracturing activities.

11.  What economic factors do you intend to take into consideration 
        when issuing the final regulations?
    Response: The hydraulic fracturing rulemaking process includes an 
estimate of economic benefits and costs that considers a number of 
factors, including employment impacts, discounted present value, 
uncertainty, and a number of rule alternatives.

Rep. Denham
Fish and Wildlife Service
1.  Your testimony states that the Administration proposes to increase 
        duck stamp fees to $25.00 per stamp per year, beginning in 
        2013; and this is due to the cost to purchase land increasing. 
        Does the government need to buy more land? How many acres was 
        Interior able to purchase through this fund over the past 3 
        years? Has there been any effort to reduce the amount of 
        hunting and use of guns on federal lands under this 
        administration? If so, it would seem that this tax on hunters 
        is simply for a land grab policy and not to further their 
        commitment to the environment and their sport.
    Response: This Administration is committed to promoting outdoor 
recreational activities on public lands. The Migratory Bird Hunting and 
Conservation Stamp (Duck Stamp) is one source of funds for the 
Migratory Bird Conservation Fund (Fund). The Fund provides the 
Department of the Interior with financing for the acquisition of 
migratory bird habitat. These protected lands are critically important 
for sustaining waterfowl and other species population levels. Such 
opportunities to acquire and conserve land through Duck Stamp dollars 
provide Americans with opportunities to enjoy the outdoors by engaging 
in activities such as hunting, fishing, hiking and wildlife watching, 
key components of the Administration's America's Great Outdoors 
Initiative. The following charts show the total acreage the Department 
of the Interior has purchased in 2009, 2010 and 2011:
[GRAPHIC] [TIFF OMITTED] T2938.011

[GRAPHIC] [TIFF OMITTED] T2938.012

Bureau of Land Management
2.  Counties with national forest lands and with certain Bureau of Land 
        Management lands have historically received a percentage of 
        agency revenues, primarily from timber sales. With the 
        declining revenue from timber sales, mostly due to restrictive 
        Administration policies, do you have a plan to revive these 
        timber sales so that local communities can continue to support 
        the education of their children that reside in rural areas and 
        needed emergency personnel? Is it an option to loosen up 
        environmental regulations to allow the timber industry to begin 
        to produce higher receipts; even if the industry is mainly 
        allowed to harvest annual yield to maintain the current acreage 
        of forests?
    Response: Although timber purchases as well as harvest levels are 
driven by market forces, the Bureau of Land Management (BLM) continues 
to offer a predictable, sustainable supply of timber sales in western 
Oregon of approximately 200 million board feet (MMBF) per year. In 
recent years the BLM's timber volumes offered for sale have ranged from 
highs of 236 MMBF in 2008 and 233 MMBF in 2010, to 198 MMBF in 2007.
    The BLM offered 198 million board feet of timber for sale in FY 
2011, and in addition, re-offered 12 million board feet from previous 
contracts that had been mutually cancelled. In FY 2012, the BLM plans 
to offer the program target volume of 193 MMBF of timber for sale. The 
BLM also plans to reoffer additional volume from eight more contracts 
that were mutually cancelled. For FY 2013, the BLM budget proposal also 
includes an increase of $1.5 million in the O&C Forest Management 
program to increase the volume of timber offered for sale.

Bureau of Reclamation
3.  Secretary Salazar, you have previously stated that you could waive 
        the Endangered Species Act when it came to unemployment caused 
        by the delta smelt regulation but indicated that by doing so, 
        it would be ``admitting failure.'' You did not wave the 
        Endangered Species Act when it contributed to 40% unemployment 
        in 2009. I want to ensure that people in my district are able 
        to work. Will you wave the Endangered Species Act if it puts 
        people out of work this year? Will you wave it if it puts 
        people out of work next year? (Salazar will not directly answer 
        this question, he will say that the California water situation 
        is complex and numerous factors need to be considered.)
    Response: Addressing the dual challenges of providing more reliable 
water supplies for California and protecting, restoring, and enhancing 
the overall quality of the Bay-Delta environment requires action to 
address a myriad of issues. California depends upon a highly-engineered 
system built generations ago, a system which was designed to serve a 
state population less than half of what it is today. The system remains 
vulnerable to catastrophic failure in the event of an earthquake, levee 
breeches, or natural disaster. The withdrawal of large quantities of 
freshwater from the Delta, increased discharges of pollutants from 
human activities, increases in non-native species, and numerous other 
factors have all threaten the reliability of California's water system 
and the Bay-Delta's biologically diverse ecosystem.
    Section 7(g) of the Endangered Species Act sets forth the process 
by which an Endangered Species Act exemption can be obtained. The 
Endangered Species Act does not authorize the Secretary of the Interior 
to unilaterally waive the Act's application. Rather, the exemption 
process involves convening a cabinet-level Endangered Species 
Committee. There have only been six instances to date in which the 
exemption process was initiated. Of these six, one was granted, one was 
partially granted, one was denied, and three were dropped. This rarely 
used process, which could lead to the extinction of one or more 
species, is costly and time-consuming. In passing Section 7(a), 
Congress intended the exemption process to serve as a last resort 
measure and expressed particular concern that it not undermine the 
Section 7 consultation process, which Congress believed could resolve 
most problems. A waiver of the Endangered Species Act would override 
protections on California's watersheds, on which 25 million people 
depend for clean drinking water, and circumvent the locally-driven, 
solution-oriented, collaborative approach that is reflected in the Bay 
Delta Conservation Plan (BDCP). Exempting the Central Valley Project 
from the Endangered Species Act is not an appropriate mechanism for 
solving California's water crisis.
    For the past three years, the Department has committed a vast 
amount of energy to advancing a collaborative planning process that 
will provide for the conservation of threatened and endangered species 
while improving water system reliability. The BDCP is intended to 
address the three major components of the Endangered Species Act as it 
relates to State Water Project and Central Valley Project operations: 
the Section 7 requirement that federal agencies ensure, in consultation 
with the federal fish and wildlife agencies, that their actions are not 
likely to jeopardize the continued existence of species or result in 
modification or destruction of critical habitat; the Section 9 
prohibition against the ``taking'' of listed species; and the Section 
10 provisions that provide for the permitting of non-federal entities 
for the incidental take of listed species.
    As further evidence of the Department of the Interior's commitment 
to addressing California's water supply issues, the Bureau of 
Reclamation's 2013 budget allocates well over $250 million for 
California water issues. This amount includes funding for the BDCP, 
science and monitoring activities to improve existing biological 
opinions governing Central Valley Project operations, fisheries and 
restoration actions, water deliveries to refuges, and continued 
maintenance of CVP water delivery and power generation facilities.

Follow up:
4.  How high does unemployment have to be before you wave the 
        Endangered Species Act? (He will not directly answer and say 
        that a number of factors must be considered.)
    Response: Section 7(g) of the Endangered Species Act sets forth the 
process by which an Endangered Species Act exemption can be obtained. 
The Endangered Species Act does not authorize the Secretary of the 
Interior to unilaterally waive the Act's application. Rather, the 
exemption process involves convening a cabinet-level Endangered Species 
Committee. There have only been six instances to date in which the 
exemption process was initiated. Of these six, one was granted, one was 
partially granted, one was denied, and three were dropped. This rarely 
used process, which could lead to the extinction of one or more 
species, is costly and time-consuming. In passing Section 7(a), 
Congress intended the exemption process to serve as a last resort 
measure and expressed particular concern that it not undermine the 
Section 7 consultation process, which Congress believed could resolve 
most problems. A waiver of the Endangered Species Act would override 
protections on California's watersheds, on which 25 million people 
depend for clean drinking water, and circumvent the locally-driven, 
solution-oriented, collaborative approach that is reflected in the 
BDCP. Exempting the Central Valley Project from the Endangered Species 
Act is not an appropriate mechanism for solving California's water 
crisis.

5.  A part of the SJRRP calls for Reclamation to reintroduce salmon 
        back into the San Joaquin River system above Mendota pool by 
        utilizing eggs from other Central Valley salmon runs that are 
        listed as threaten or endangered under the Federal Endangered 
        Species Act. How much will this program cost in fiscal year 
        2013 and every year thereafter? Not the amount requested (12 
        million), but the actual projected costs.
    Response: Funding needs for San Joaquin River Restoration Program 
(Restoration Program) fisheries reintroduction activities for FY 2013 
are estimated at $3,270, 000. Future reintroduction activities are 
estimated to range from $4,900,000 to $5,700,000 annually through FY 
2018, depending on the specific activities planned for the year.
        <bullet>  Given the harmful impacts of the interim flows from 
        Friant, has the Bureau of Reclamation already built the 
        necessary infrastructure to mitigate any further seepage and 
        ensured that the river is absolutely ready for sustained 
        increased flows?
    Response: The FY 2013 budget request for the Bureau of Reclamation 
includes funding to continue seepage monitoring and management efforts, 
including the evaluation and construction of seepage management 
projects. These projects include the construction or installation of 
interceptor lines, drainage ditches, shallow groundwater pumping, and 
channel conveyance improvements. Funding will also be directed toward 
non-physical actions such as property acquisitions. Reclamation will 
continue to hold interim flows to levels that do not cause material 
adverse seepage impacts until the seepage management projects have been 
completed.
    Public Law 111-11 and the Stipulation of Settlement entered in NRDC 
et al. v. Rodgers et al. (``Settlement'') provide for the release of 
interim flows in order to collect relevant data concerning flows, 
temperatures, fish needs, seepage losses, recirculation, recapture, and 
reuse. As Reclamation has obtained data regarding seepage, and 
consistent with Public Law 111-11, Reclamation has held interim flows 
to levels that avoid potential material adverse seepage impacts. 
Reclamation completed updates to the Restoration Program's Seepage 
Management Plan and posted an updated plan on the Program's web site in 
March 2011. The plan has been developed with input from landowners and 
district managers to address landowner concerns related to potential 
changes in groundwater elevations that may be a result of the 
Restoration Program. The approaches to monitor and set groundwater 
thresholds, as well as responses to address seepage before it impacts 
adjacent lands, are described in the plan. Reclamation installed and 
monitors more than 160 groundwater monitoring wells, many on private 
property in locations chosen or agreed to by landowners.
    In coordination with the Seepage and Conveyance Technical Feedback 
Group, Reclamation established thresholds for all monitoring wells and 
uses data from the wells to inform interim flow releases such that 
potential material adverse seepage impacts are avoided. As a result of 
the Seepage Management Plan and groundwater thresholds, Reclamation has 
limited flows below Sack Dam. Reclamation also established a Seepage 
Hotline for landowners to call if they see or anticipate seepage on 
their property.
    Reclamation is preparing a Seepage Projects Handbook, which is 
being developed in coordination with local irrigation districts and 
landowners through the public Seepage and Conveyance Technical Feedback 
Group. The handbook sets expectations, timelines and processes for 
implementing seepage projects. Reclamation recently held meetings with 
Reach 3, 4A, and 4B landowners and specifically invited landowners 
whose properties are the highest priority for seepage management 
actions. As a result of this meeting, six different landowners are 
beginning to work with Reclamation to evaluate their properties for 
seepage projects. Reclamation will limit interim flows to levels that 
do not cause material adverse seepage impacts until these projects are 
in place.
        <bullet>  All Central Valley salmon runs are struggling to 
        regain their historic numbers. Why would Reclamation propose to 
        fill one river with salmon from another and purposely reduce 
        the numbers of available salmon in other streams to plant them 
        into the San Joaquin system and further threaten and/or 
        endangered current runs?
    Response: Public Law 111-11 and the Settlement direct the Secretary 
of the Interior to reintroduce California Central Valley spring and 
fall run Chinook salmon into the San Joaquin River, with priority given 
to restoring self-sustaining populations of wild spring run. 
Historically, spring run Chinook salmon were abundant in the San 
Joaquin River system. Extirpation of these and other runs has led to 
the threatened status of this species. Since spring run Chinook salmon 
have been extirpated from the San Joaquin, reintroduction will require 
the use of eggs and fish from other streams. To ensure the collection 
of spring run eggs and fish from other streams will not jeopardize 
populations in those streams, all collections will be conducted under 
an Endangered Species Act permit issued by the National Marine 
Fisheries Service. In addition, the planned construction of a 
conservation hatchery will allow a broodstock to be developed and 
managed to provide a source of fish for the San Joaquin River without 
needing significant numbers of salmon from other streams. Reintroducing 
spring run Chinook salmon to the San Joaquin River will result in the 
establishment of a new, additional population, which will be an overall 
benefit to Central Valley salmon runs.
        <bullet>  Has Reclamation determined when it would stop 
        reintroducing salmon into the San Joaquin river system if these 
        efforts fail? In other words, has the Administration set a goal 
        that everyone is working to achieve for success in the San 
        Joaquin River Restoration Program?
    Response: Reclamation will stop reintroducing salmon into the San 
Joaquin River once the population has been determined to be naturally 
reproducing and self sustaining. Public Law 111-11 requires the 
Secretary of Commerce to report to Congress, no later than December 31, 
2024, on the progress made on reintroducing spring run Chinook salmon 
and future reintroduction plans. We anticipate continuing reintroducing 
salmon into the river until 2024, and including reintroduction plans 
beyond 2024 in the report to Congress.

6.  What has Reclamation done to date to replace the water supply lost 
        due to the implementation of the SJRRP?
    Response: Reclamation is pursuing several actions to reduce or 
avoid adverse water supply impacts to all of the Friant Division long-
term contractors. The actions include the following: continued 
development of operational guidelines for releasing interim and 
restoration flows and the framework for a Recovered Water Account; 
allocation of 680,000 acre-feet of Recovered Water Account water to 
Friant Division long-term contractors to take advantage of wet year 
water supplies and the delivery of 356,203 acre-feet of this amount 
based on the contractors request; recaptured flows at Mendota Pool and 
recirculated 66,000 acre-feet to the Friant Division long-term 
contractors to date; continued planning on downstream recapture and 
long-term recirculation with other water users; drafted guidelines for 
financial assistance for local groundwater banking projects; released a 
Draft Environmental Assessment and Feasibility Report for the Friant-
Kern Canal Capacity Restoration Project and continued progress on the 
project to achieve a late 2012 construction start date; continued 
progress on the Madera Canal Capacity Restoration Feasibility Study and 
the Friant-Kern Canal Pump-back Feasibility Study; and negotiated and 
executed 27 repayment contracts with Friant Division and Hidden and 
Buchannan Units contractors.

7.  How will Reclamation deal with seepage impacts to private 
        landowners from increased flows down the San Joaquin River? 
        Please provide the details of this program.
    Response: Reclamation will not increase flows above thresholds 
described in the next paragraph until seepage management projects are 
in place to protect private landowners from seepage impacts. Consistent 
with Public Law 111-11, Reclamation will hold interim flows to levels 
that avoid potential material adverse seepage impacts. Reclamation 
completed updates to the Restoration Program's Seepage Management Plan 
and posted an updated plan on the Program's web site in March 2011. The 
plan has been developed with input from landowners and district 
managers to address landowner concerns related to potential changes in 
groundwater elevations that may be a result of the Restoration Program. 
The approaches to monitor and set groundwater thresholds, as well as 
responses to address seepage before it impacts adjacent lands, are 
described in the plan. Reclamation installed and monitors more than 160 
groundwater monitoring wells, many on private property in locations 
chosen or agreed to by landowners.
    In coordination with the Seepage and Conveyance Technical Feedback 
Group, Reclamation has established thresholds for all monitoring wells 
and use data from the wells to inform interim flow releases such that 
potential material adverse seepage impacts are avoided. As a result of 
the Seepage Management Plan and groundwater thresholds, Reclamation has 
limited flows below Sack Dam. In addition to monitoring and 
establishing thresholds, Reclamation has also established a Seepage 
Hotline for landowners to call if they see or anticipate seepage on 
their property.
    Reclamation is preparing a Seepage Projects Handbook, which is 
being developed in coordination with local irrigation districts and 
landowners through the public Seepage and Conveyance Technical Feedback 
Group. The handbook sets expectations, timelines and processes for 
implementing seepage projects. Reclamation recently held meetings with 
Reach 3, 4A, and 4B landowners and specifically invited landowners 
whose properties are the highest priority for seepage management 
actions. As a result of this meeting, six different landowners are 
beginning to work with Reclamation to evaluate their properties for 
seepage projects. Reclamation will limit interim flows to levels that 
do not cause material adverse seepage impacts until these projects are 
in place.
    Reclamation is committed to managing flows in a way that does not 
exceed groundwater thresholds. Implementation of focused projects and 
actions to address seepage will allow Reclamation to incrementally 
increase flows as improvements are made. Data gathered from eight key 
monitoring wells is being reported in real-time to the California Data 
Exchange Center website. Data from 19 wells are reported weekly to the 
Program's website (http://www.restoresjr.net/flows/Groundwater/
index.html). Data from all of the wells are reported every few months 
in the Program's Well Atlas available online (http://
www.restoresjr.net/flows/Groundwater/index.html).

8.  What regulatory impediments does Reclamation identify as inhibiting 
        its ability to provide 100% of South-of-Delta contractor's 
        allocation of contract supplies?
    Response: As noted above, the CVP is operated to meet multiple 
purposes under a variety of statutory and regulatory requirements and 
constraints that affect operation of the CVP pumps, and therefore the 
South-of-Delta allocation. Operating criteria and restrictions included 
in the California State Water Resources Control Board's Water Right 
Decision 1641, the 2008 Fish and Wildlife Service Smelt Biological 
Opinion, and the 2009 National Marine Fisheries Service Salmon 
Biological Opinion can reduce the amount of water exports allowed at 
Jones Pumping Plant and therefore limit the amount of water that can be 
moved south. This year the South-of-Delta allocation is being primarily 
driven by dry hydrological conditions caused in part by low 
precipitation and snowpack in the Sierra Nevada.

Rep. Hanabusa
1.  Mr. Secretary, Following the 2009 Supreme Court decision in 
        Carcieri v. Salazar, little to no legislative action has been 
        taken to remedy the uncertainty among tribes and the BIA 
        regarding our country's trust obligations. Can you provide any 
        details on possible administrative actions that the DOI is 
        taking in order to resolve this uncertainty?
    Response: Generally, since the Carcieri decision, the Department 
must examine whether each tribe seeking to have land acquired in trust 
under the Indian Reorganization Act was ``under federal jurisdiction'' 
in 1934. Under the authority delegated to the Assistant Secretary for 
Indian Affairs, the Bureau of Indian Affairs (BIA) makes the 
determination as to whether to acquire land in trust on behalf of an 
applicant tribe in most instances. BIA staff work closely with the 
Solicitor's Office to ensure that all legal criteria are satisfied 
prior to the approval of a fee-to-trust acquisition. The Department's 
attorneys, in turn, work closely with the Assistant Secretary's Office 
to undertake the analysis, which involves mixed questions of law and 
fact, as to whether an applicant tribe was under federal jurisdiction 
on June 18, 1934 and provide legal counsel to the Assistant Secretary 
and BIA staff.
    Whether a tribe was under federal jurisdiction on that date 
requires a fact-intensive analysis of the history of interactions 
between that tribe and the United States. This analysis ordinarily 
requires the Department to examine: (1) whether there was an action or 
series of actions before 1934 that established or reflected federal 
obligations, duties, or authority over the tribe; and, (2) whether the 
tribe's jurisdictional status remained intact in 1934. The analysis is 
done on a tribe-by-tribe basis; it is time-consuming and costly for 
tribes, even for those tribes whose jurisdictional status is 
unquestioned. It requires extensive legal and historical research and 
analysis and has engendered new litigation about tribal status and 
Secretarial authority. Overall, it has made the Department's 
consideration of fee-to-trust applications more complex.
    The Department continues to believe that legislation is the best 
means to address the issues arising from the Carcieri decision, and to 
reaffirm the Secretary's authority to secure tribal homelands for all 
federally recognized tribes under the Indian Reorganization Act. A 
clear congressional reaffirmation will prevent costly litigation and 
lengthy delays for both the Department and the tribes to which the 
United States owes a trust responsibility.

Rep. Noem
1.  What are your plans to ensure funding for water projects, like 
        Lewis & Clark, is realized in a timely way?
    Response: Faced with limited funding and multiple worthy projects, 
the Bureau of Reclamation has had to set priorities and make tough 
choices, with the goal of making meaningful progress on the projects 
receiving funding. The capability of the rural water project sponsors 
to accomplish construction projects far exceeds the available funding. 
Reclamation allocated funding in a manner that would allow construction 
to continue with the goal of accomplishing discrete phases of projects 
that will provide water to project beneficiaries upon completion of 
that phase of the project. Our funding request will enable multiple 
projects to achieve this goal in the next fiscal year.

2.  Lewis & Clark has already been underway for more than 20 years. 
        What are your plans to Lewis & Clark is completed in a timely 
        way?
    Response: The Bureau of Reclamation has been working diligently to 
advance the completion of all of its authorized rural water projects 
consistent with current fiscal and resource constraints with the goal 
of delivering potable water to tribal and non-tribal residents within 
the rural water project areas. Completion of the Lewis & Clark project 
is a priority project for the Department of the Interior. Recently, 
$5.487 million was awarded to the Lewis and Clark project pursuant to 
the Consolidated Appropriations Act of 2012 and the FY 2013 President's 
budget request includes an additional $4.5 million in funding. The 
Bureau of Reclamation has been conducting studies to modify the 
existing criteria and develop more comprehensive criteria for ranking 
the authorized rural water projects so that Reclamation can assign its 
limited construction dollars in the most effective manner. As part of 
the process of developing final revised criteria, Reclamation will work 
closely with members of Congress, project partners, and stakeholders to 
develop a set of measures to rank authorized rural water projects for 
allocating rural water construction funds in the future.

3.  Could you provide and explain to me the criteria and methodology 
        Department of Interior use in determining how to prioritize the 
        water projects within the Water and Related Resources account? 
        Is weight given to criteria--such as population served, local 
        commitment as determined by prepayment of the local members, 
        and potential for economic impact? How do these criteria fare 
        in relation to whether there is a tribal component? Are there 
        other criteria considered? How much weight is given to 
        additional criteria?
    Response: The Bureau of Reclamation administers the Water and 
Related Resources account, which provides funding for five major 
program areas--Water and Energy Management and Development, Land 
Management and Development, Fish and Wildlife Management and 
Development, Facility Operations, and Facility Maintenance and 
Rehabilitation. The criteria and methodology that is used to determine 
water project priorities varies depending on the program. As it relates 
specifically to rural water projects authorized by Congress, the Bureau 
of Reclamation is evaluating new criteria for allocating rural water 
project funding. The Bureau of Reclamation developed and used revised 
interim criteria to allocate additional funding provided in the 
Consolidated Appropriations Act of 2012. Reclamation also used the 
revised interim criteria in fiscal year 2013 to prioritize funding for 
the authorized rural water project construction funding. The revised 
interim criteria give consideration to the time and financial resources 
already committed by project beneficiaries, the urgent and compelling 
need for water, the financial need and regional impacts, the regional 
and watershed benefits, the water and energy benefits and service to 
Native American Tribes.

4.  How does the Bureau reallocate funding in the Water & Related 
        Resources account for projects completed or nearing completion? 
        Will this funding remain in the Water & Related Resources 
        account with respect to future budget requests?
    Response: The Bureau of Reclamation administers the Water and 
Related Resources account, which provides funding for five major 
program areas--Water and Energy Management and Development, Land 
Management and Development, Fish and Wildlife Management and 
Development, Facility Operations, and Facility Maintenance and 
Rehabilitation. The criteria and methodology that is used to determine 
water project priorities varies depending on the program. The Bureau of 
Reclamation does not anticipate the need to reallocate funding in the 
Water & Related Resources account for projects completed or nearing 
completion; however, in the event this unforeseen event occurs, 
Reclamation will take action consistent with Congressional guidance.

Rep. Young
1.  In what appears to be an annual occurrence, the President's Budget 
        proposes cutting the Alaska Land Conveyance Program. Last year, 
        the program was halved. As you know, Congress was able to 
        restore most of the funding, but again, this budget proposes a 
        near 50% cut. Today, BLM has only surveyed and patented near 
        60% of the original 150 million acres owed to the State of 
        Alaska and the Native community. On millions of acres, the 
        conveyance process has not even yet begun. This amounts to 
        little more than 1% more than the BLM had completed last year, 
        and at twice the funding than has been requested this year. At 
        this rate, it would take roughly 41 more years to see a full 
        100%. In your view, is this an acceptable amount of time for 
        the State and the Native Corporations to wait before the land 
        entitlement is 100% conveyed? It's been over 50 years since 
        Statehood, and 40 years since the passing of ANCSA. How long do 
        we have to wait for this process to be complete?
   Why can the Interior Department find all kinds of money to fund 
        Wilderness studies in ANWR and other refuges, America's Great 
        Outdoors, and other nonsense, but cannot find the money to 
        fully fund the Alaska Conveyance Program?
    Response: The Department is the steward of 20 percent of the 
Nation's lands, including national parks, national wildlife refuges, 
and the public lands. Interior manages public lands onshore and on the 
Outer Continental Shelf, providing access for and management of 
renewable and conventional energy development and overseeing the 
protection and restoration of surface-mined lands. The Department is 
also the largest supplier and manager of water in the 17 western states 
and provides hydropower resources used to power much of the country. 
Interior is responsible for migratory wildlife and endangered species 
conservation as well as the preservation of the Nation's historic and 
cultural resources. The Department supports cutting edge research in 
the earth sciences--geology, hydrology, and biology--to inform resource 
management decisions at Interior and improve scientific understanding 
worldwide. The Department also fulfills the Nation's unique trust 
responsibilities to American Indians and Alaska Natives, and provides 
financial and technical assistance for the insular areas. In short, 
these many and varied mission areas required us to make difficult 
choices; the Department's budget includes significant reductions and 
savings.
    At the same time, however, we are working closely at the local 
level to determine priorities so that either we can convey by patent 
(if surveyed) or by interim basis (if unsurveyed) working title to the 
lands the clients need. The Bureau of Land Management will prioritize 
survey work on a geographic basis, maximize the use of contract 
surveyors, and use available technology to ensure this work is done in 
the most cost efficient manner. And we will continue to evaluate 
options for additional program reforms and efficiencies to complete 
final transfers in a timely manner.

2.  Early February 2012, Congressman Boren and I wrote you a letter 
        regarding the BLM's draft hydraulic fracturing rules, which 
        would affect lands held in trust for Indian tribes and their 
        members. I have not received a response to the requests in that 
        letter. As a result, what tribes have the Department approached 
        during the current tribal consultation process as it relates to 
        this draft rule? What is your time frame, and how to do you 
        plan to accommodate tribal concerns in this rule?
    Response: In its March 29, 2012 reply to your letter, the 
Department indicated that the BLM places a high priority on tribal 
consultation and in January 2012 held consultation sessions on the 
proposed hydraulic fracturing rule in Tulsa, Oklahoma; Billings, 
Montana; Salt Lake City, Utah; and Farmington, New Mexico. During these 
sessions, the Department received a clear message from tribal 
representatives that they would like the BLM to update its regulations 
on well stimulation and that more information about post-drilling 
stimulation operations on tribal lands should be provided. The BLM is 
committed to working closely with the tribes throughout the development 
of this rule. Tribal governments will have essentially until the rule 
is final to consult on the effect of the rule.
[GRAPHIC] [TIFF OMITTED] T2938.013

[GRAPHIC] [TIFF OMITTED] T2938.014

[GRAPHIC] [TIFF OMITTED] T2938.015

                                 __
                                 
    The Chairman. Thank you very much, Mr. Secretary, for your 
statement.
    Let me start by saying that one of the initiatives that we 
are going to take up in this committee next year and we--in 
fact, we have had hearings on that, is the issue of the 
Endangered Species Act. And I say that because the Endangered 
Species Act was last reauthorized in 1988. And I think it 
expired some nearly 20 years ago, and it hasn't been 
reauthorized. And I think it needs to be brought up to date.
    So, what I would like to ask you is--and knowing that you, 
your Department, along with NOAA, are actively involved in some 
200 lawsuits and legal actions concerning the ESA--and that 
focuses on candidate listings, on habitat, on recovery plans, 
and other parts of that process. All Department resources spent 
defending those suits and resources are not going to--recover, 
but rather to lawyers and special interest groups. And that is 
what concerns me, and this is the basis for my question.
    Last year, the Interior Department entered into settlements 
with certain plaintiffs that would result in requiring the 
Department to make decisions affecting petitions to list over 
700 species under ESA. I am concerned that this would very 
likely undermine transparency and science-based ESA decisions, 
particularly when lawyers are being paid attorney fees in these 
settlements, and deadlines are being set by the Federal courts. 
Congress and the public should be allowed to know how these 
settlements came about, and the requirements that they will 
impose.
    So, my question to you is pretty straightforward. Do you 
know, or does the Department keep track of, how much money in 
spent by the Department on litigation, including payments made 
to settle lawsuits? Do you know--have that figure?
    Secretary Salazar. Doc Hastings, I have asked for that 
information, in terms of how much is being paid out in 
settlements, but I would offer to you, Mr. Chairman, with all 
due respect, that I do think it is important that we move 
forward with ESA reform, and that we find ways of dealing with 
these conflicts in a manner that is not as litigation-driven 
and conflict-ridden as it has been.
    And just an example that I know Congressman Flores and some 
of you here are very interested in, the sand dunes lizard in 
Texas and in southern New Mexico, and our hope is that, working 
with the oil and gas industry and other communities that are of 
great interest, that we will be able to come up with what will 
be a 1.1 million-acre conservation area that has the assurance 
that may prevent the listing of that lizard. We are still 
working on it and trying to bring it across the finish line.
    But I do think there are ways in which we can work more 
constructively with ESA than has been done in the past.
    The Chairman. Well, what I would like is that if you--
certainly would continue to work with us. Because those costs 
are big. And I mean it has been well said, the ESA has been 
around a while. Nobody wants to see species eliminated. But as 
my friend from Utah says, using an analogy to baseball, if your 
recovery--you know, if your batting average is a recovery of 
ESA, you wouldn't last in Class D baseball. I mean that is just 
how low it is. And we need to understand all of that.
    Final question. As you know--and I referred to this in my 
opening remarks, about trying to obtain documents as it relates 
to the surface mining and also the Gulf of Mexico, one of the 
issues that does trouble me is on the moratorium and trying to 
get documents from your agency where there appears to be--and I 
say ``appears,'' because we don't know--there is interference 
on behalf of the Department of the Interior with the Inspector 
General in getting documents.
    I just think that we should be open and transparent on 
that. And I would like to ask for your assurance that those 
documents that we ask--that we know we have gotten from IG 
could be supplemented by what we could get from your agency. It 
would be very, very helpful. And I just want to ask if you will 
continue to work with us to see that we can get those documents 
so we can make whatever determination those documents reveal to 
us. And if you would do that, I would be very appreciative.
    Secretary Salazar. Mr. Chairman, I will continue to work 
with you. We provided thousands of pages on both issues on the 
stream protection rule, as well as the moratorium issues. And 
we will continue to work with you to provide everything that we 
possibly can.
    The Chairman. OK. Well, I look forward to working with you 
in the future.
    If you talk more closely in the microphone, I think it 
would be easier for others to hear. I should probably go back 
and say, ``Let's start this all over again, so everybody can 
hear,'' but I won't do that.
    With that, I will recognize the Ranking Member for his 
questions.
    Mr. Markey. Thank you, Mr. Chairman. The House begins today 
consideration of a five-year transportation bill. The 
Majority's bill would seek to fund our transportation projects 
by drilling off of our beaches on the East and West Coast, by 
drilling off of Florida in an area extensively used by the 
military, by drilling in rich fisheries like Bristol Bay in 
Alaska, and in our most pristine wildlife refuge.
    Even Senator Inhofe from Oklahoma, someone with whom I 
rarely agree, said there is no money in expanded energy 
production. CBO agrees with him.
    Mr. Secretary, do you believe it is a good idea to try to 
fund our nation's transportation projects with the massive 
expansion of drilling in pristine wildlife areas or off of the 
beaches of Florida and California that ultimately would only 
produce phantom revenues, because ultimately it will never 
happen? Could you give us your view on that--those proposals?
    Secretary Salazar. Chairman Markey, first, let me say that 
the 5-year plan that we have put out at the Department of the 
Interior and the development of the Outer Continental Shelf 
will make available 75 percent of available resources that we 
know. And we will move forward with the development of those 
resources, as we have, and the Gulf of Mexico and exploration 
and development in other areas, as well.
    Second, let me also say that my view on having reviewed the 
summaries of the proposed transportation bill is that it will 
not fund the transportation needs of the United States of 
America. And I do think that many of those areas that are being 
put out there at this point in time essentially do create a 
phantom revenue, because we know that those places are not 
going to be developed in the near term at all. And even if they 
were developed, as I understand it under the projections that 
have been made, it would only provide less than 10 percent of 
the revenues that are needed for surface transportation. And 
that is on the assumption that you would develop areas where 
the oil and gas industry does not have any information with 
respect to what the oil and gas resources are underneath those 
parts of the ocean.
    Mr. Markey. Thank you, Mr. Secretary. I agree with you. 
Phantom revenues from phantom drilling will not pay for a 
single off-ramp, will not pay for a single pothole being filled 
in our country. We have to be more real about where the money 
is going to come from.
    Last week Mr. Holt and I sent you a report, Mr. Secretary, 
that the Committee staff prepared documenting the oil and gas 
drilling violations and enforcement actions that have occurred 
on Federal lands over the last three Administrations. I 
understand that you are still reviewing that report. But I 
wanted to raise a few specific findings with you.
    In the Department's 2013 budget you make it a priority to 
further increase inspections of high-risk onshore oil and gas 
operations by 9 percent. I fully support you in your efforts, 
but our report found that only a very small percentage of 
violations result in fines, that there were many 
inconsistencies in the way that fines were issued by 
inspectors, and that some chronic violators were never fined at 
all.
    In fact, the Department can only impose fines of $500 per 
day for major drilling violations. And over the entire decade 
covered by the report, the total fines issued were just 
$273,000. And this is for hundreds and hundreds of violations. 
That is pocket change to some of these oil companies.
    Can you commit to taking a look at our report to determine 
whether the agency needs to change the enforcement strategy to 
better deter violations, and ensure that drilling operations 
are safe?
    Secretary Salazar. Congressman Markey, I have received your 
letter and I have asked the Deputy Secretary to look at the 
information that we have from the BLM. And so I would ask him 
to respond briefly to your question.
    Mr. Markey. I appreciate that. And finally, on the question 
of the production tax credit, we know that that expires at the 
end of this year. And so far, the Republicans have taken a 
position that they are going to support the ending of the 
production tax credit for wind in our country. The industry is 
saying that that could lead to upwards of 30,000 to 40,000 
people losing their jobs, a huge number compared to the number 
of jobs created by the Keystone pipeline.
    How important is it for us to have the production tax 
credit extended? What would it mean for wind development on 
public lands in our country?
    Secretary Salazar. I think the importance of it cannot be 
understated [sic]. We have made huge progress, Herculean 
progress, in the last three years on wind energy in America. 
And I think without the extension is essentially will be a 
killer for the wind industry in America.
    Mr. Markey. A killer, meaning?
    Secretary Salazar. It will--it could bring it to a close.
    Mr. Markey. Could end the wind industry in the United 
States. That is absolutely, I think, frightening for the next 
generation of Americans who really do believe there is a wind 
and solar revolution unfolding in our country, and the United 
States should be the leader.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. And the Chair 
recognizes the gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And if there is truly 
a wind and solar revolution going on in the country, then the 
market will take care of that, and people will come rushing 
into it. But so far it seems that the real revolution is in 
those who are cronies who get hundreds of millions of dollars, 
only to go bankrupt. That is not what I would call a 
revolution.
    But with regard to massive amounts of wind, of course you 
cannot beat Washington, the capital area, for that. But let me 
go directly to the budget for Fiscal Year 2011/2012. It went 
from 88 million to 132 million for the BSEE operation, safety, 
and regulations. In other words, 44 million extra dollars, 
Secretary.
    We have a report that shows there have been 30 additional 
inspectors hired with that money. Are there any other 
additional inspectors that are anticipated to be hired with 
that money? Or is that going to be the extent of the new 
inspectors with the new money?
    Secretary Salazar. Congressman Gohmert, that is a very good 
question. We are, in fact, hiring inspectors. We have combed 
the universities of this country and are hiring people and are 
moving forward with a major effort to make sure that the Bureau 
of Safety and Environmental Enforcement is one that has the 
resources that it needs. And we are looking at ways of doing 
things more efficiently, including looking at the possibility 
of remote monitoring of what is happening in oil and gas wells.
    So, it is, at the end of the day, simply an effort to try 
to make sure that the environment and safety regulation of 
offshore drilling, which is so important to the United States 
of America, is done safely and responsibly.
    Mr. Gohmert. And I appreciate your acknowledgment of how 
important offshore drilling is. We know from the Deepwater 
Horizon fiasco that there were--we had testimony from a former 
employee, was head of the BLM at the time, that the only real 
check and balance with regard to offshore inspectors was to 
send them out in pairs so that there would be no chance of 
bribery or anything like that, because they would self-report 
if they were sent out in pairs. And we never got a response 
back on whether or not that worked out very well with the last 
pair that were sent to the Deepwater Horizon before the 
blowout, since that was a father and son pair. Some think 
father and son may not be as likely to self-report.
    But I would ask in the days that come if we could get 
information on what improvement there has been, if any, with 
regard to safeguards and the offshore inspectors.
    But let me go quickly to ANWR. There has been an analogy 
that if the entire ANWR area were considered the size of a 
football field, that the area proposed for drilling is around 
the size of a postage stamp. And we know there is no foliage, 
no fish, no wildlife that we have detected in the area where 
the drilling is proposed. So let me just ask you, Secretary. 
Are you aware of any living creatures that exist in a living 
condition in the area proposed for drilling in ANWR?
    Secretary Salazar. Congressman Gohmert, I have been there 
several times. And the answer to that is yes, absolutely. It is 
one of the richest wildlife areas in the country and in Alaska.
    Mr. Gohmert. We are talking about the area to be drilled.
    Secretary Salazar. Yes, and----
    Mr. Gohmert. OK. Well, my time is running out. We will have 
to get you pictures of exactly where the area is proposed to be 
drilled.
    With regard to hydraulic fracking, I was shocked that there 
had been a draft proposal of rules for hydraulic fracking while 
a study is being done on hydraulic fracking. Would it have made 
more sense, in your estimation, to propose rules after you got 
the study on exactly what effect hydraulic fracking was having?
    Secretary Salazar. Congressman Gohmert, we oversee 700 
million acres of mineral estate in the United States of 
America. The common sense concepts that will be embedded in the 
rules that we are moving forward with, I think, are supported 
by the responsible oil and gas companies in this country. And 
they include wellbore integrity, they include disclosure of 
chemicals that are being injected into the earth, and they 
include----
    Mr. Gohmert. OK. We will have to get you some of those 
reports that obviously do not support what you say that they 
do. But I would suggest to you if you are going to spend money 
and effort on rules that you are going to enforce, you really 
ought to wait for the study. And with that, I yield back.
    The Chairman. The time of the gentleman has expired.
    Secretary Salazar. Can I make just a comment on that?
    The Chairman. Yes, go ahead.
    Secretary Salazar. I think one of the things that you will 
find, Congressman Gohmert and members of the Committee, in this 
budget is a recognition that natural gas is a very significant 
part of our energy portfolio for the United States of America.
    Mr. Gohmert. We agree on that.
    Secretary Salazar. And so, there is a lot of hysteria that 
takes place now with respect to hydraulic fracking, and you see 
that happening in many of the states. So part of what you will 
see in this budget is the continuing study of hydraulic 
fracking.
    My point of view, based on my own study of hydraulic 
fracking, is that it can be done safely, and has been done 
safely in hundreds of thousands of times. And so what we need 
to do is to make sure that the science supports the confidence 
that the American people are entitled to as we move forward in 
the exploration and development of this very abundant natural 
gas resource.
    Mr. Gohmert. Really appreciate that response. And hopefully 
we can get the EPA to stop the hysteria until they have some 
science to support them.
    Thank you, Secretary. I do appreciate.
    The Chairman. The time of the gentleman has expired. The 
gentleman recognizes the--or the Chair recognizes the gentleman 
from northern--or from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for taking the time to testify before this committee. 
And we do appreciate very much your service to our nation.
    Mr. Secretary, as you are well aware, ever since the oil 
spill caused by British Petroleum off the coast of Louisiana, 
the largest oil disaster, in my opinion--and I think in 
history--where are we with the office that is responsible for 
monitoring and conducting safety inspections in terms of 
preventing another oil spill like what British Petroleum had 
caused in this incident?
    I understand that one of the suboffices under your 
Administration is responsible for this. Have we pretty much 
gotten that straightened out?
    Secretary Salazar. Congressman, it is a very good question. 
And because of the importance of the oil and gas resource from 
America's oceans, what we have done is we have led the most 
significant overhaul of the oversight of oil and gas 
exploration and development in America's oceans. We have blown 
up what was the former MMS and put together a program that has 
been very well thought out.
    And we are now in a position where we believe that, with 
Congress giving the resources that we have asked for, the 
organizations that oversee oil and gas production in America's 
oceans, that we have created the leading agency for oversight 
not only in the United States but around the world. And given 
the fact that oil and gas in the earth's oceans really is a 
global industry, we are creating the template for other 
countries as well to follow what we are doing here in the 
United States.
    Mr. Faleomavaega. Mr. Secretary, has British Petroleum made 
good its promise to the people to compensate individuals and 
many small businesses that were affected severely and caused by 
the oil spill? I am curious about that.
    Secretary Salazar. I think, Congressman, it is still an 
ongoing matter. There are still the funds that have been set up 
which are being paid out by Mr. Feinberg, who is in charge of 
paying out the claims that are being submitted there. There is 
still active litigation with the trial to begin against BP on 
February the 27th.
    And so, the whole set of issues that will make the Gulf and 
its people whole are still very much in a dynamic position at 
this point in time.
    Mr. Faleomavaega. Thank you, Mr. Secretary. I notice with 
interest that the proposed budget for the Bureau of Indian 
Affairs is set at about $2.5 billion. Where are we with the 
settlement on the Cobell case? And, you know, God bless her 
heart, you know she passed away. And I just wanted to know if 
your office has taken any measures--I know there are 
negotiations that are taking place, but have we come to some 
better conclusion, what has been now for the last 15 years? I 
can remember this issue, it has been dragged on now forever, it 
seems like.
    Secretary Salazar. The Deputy Secretary was a great leader 
in bringing about the Cobell settlement, and has been 
overseeing its implementation. And so I will have him respond 
to the question.
    Mr. Hayes. Congressman, as you know, the settlement was 
passed by Congress and signed into law by the President. It 
does not go into effect until all judicial proceedings have 
been completed. There are appeals now in the D.C. Circuit Court 
that we hope will be completed within the coming months. As 
soon as all litigation ends, we will be implementing the $1.9 
billion land consolidation program, and the class action funds 
will be distributed to the plaintiffs.
    Mr. Faleomavaega. And are we assured that from now on the 
Department of the Interior is not going to fail again, you 
know, in providing the proper royalties to the Indian tribes? 
We have simply just forsaken that responsibility for the last 
100 years or so. Have we taken measures to make sure that----
    Mr. Hayes. Yes.
    Mr. Faleomavaega [continuing]. The Indian tribes are no 
longer going to have to file suit for another 10, 15 years to 
properly gain what they should have been given all these years?
    Mr. Hayes. It is a very good point, Congressman. The 
Secretary established a trust reform commission specifically to 
look top to bottom about whether we needed to do additional 
reforms. That was anticipated to start with the settlement. We 
are not waiting for the final judicial resolution of the 
matter. And the first meeting, public meeting of the trust 
reform commission, will be held on March 1st.
    Mr. Faleomavaega. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman has yielded back his time. And 
the Chair recognizes the gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Thank you. And welcome, Secretary. The last 
time you were here, I complimented you on something you did. I 
don't think that is going to happen again. Although the answer 
you gave to----
    Secretary Salazar. Well, I was hopeful.
    Mr. Bishop. The answer you gave to Representative Gohmert 
came awfully close to it on that last response. So thank you 
for being here.
    Look, I have nine questions I want to ask. I will try to 
phrase them in ways that can be given short answers. We will 
see how many we can get through, if at all possible.
    Mr. Secretary, on January the 26th your Department 
published a notice in the Federal Registry that the BLM would 
start charging $10 for overnight camping fees in the North 
Fruita Desert Special Recreation Management Area in your home 
state of Colorado. Obviously, the campers objected to that and 
there were concerns.
    However, Mr. Secretary, if the campers were to object to 
the fee and, let's say, occupy the campground under their First 
Amendment rights, would they be able to stay there for months 
without paying that fee?
    [Laughter.]
    Secretary Salazar. No.
    Mr. Bishop. OK. Second question. I understand that your 
budget has taken $15.8 million out of the rangeland management 
fund. I understand that. What worries me is I understand the 
President also plans to collect a $1 per AUM administrative fee 
in addition to that. That would be in addition to the grazing 
fee that is already set at $1.35. That is a 75 percent 
increase.
    If indeed this goes through, will you come to Congress to 
seek the authority to make that proposal for that 
administrative fee, or is this one of the things the President 
wants to do just because?
    Secretary Salazar. The proposal is in the budget, so we 
don't need congressional authorization to do it. It would bring 
up the AUM to what would be, I think, $2.35 for that. And those 
of you who know what the private sector pays for grazing rights 
on----
    Mr. Bishop. Even though the AUM is set statutorily, you are 
going to change the Executive Order of the President and add an 
administrative fee, just by fiat of the Administration?
    Secretary Salazar. It is $1 that will bring it up to $2.35 
for AUM.
    Mr. Bishop. All right. I would ask you to rethink that, and 
actually try to work with Congress on those, especially when 
you are raising the AUM by 75 percent per unit. That is 
significant.
    Let me go on to the third one. It has been said by some 
here that--even though Estonia has been doing oil shale for 100 
years, last year they produced 1.3 million barrels and met the 
European Union's environmental standards, some here have still 
said that there is not an oil shale technology that is 
available. Does your office believe that we don't have the 
technology to do oil shale?
    Secretary Salazar. We don't have the technology to do oil 
shale in a way that will protect the water resources of 
Colorado, Utah, and the West.
    Mr. Bishop. All right. So you--and does the fact that 
Estonia has been able to do that for 100 years, does that have 
an impact on that decision?
    Secretary Salazar. I think closer to home is the failure of 
the 1970s and the total failure of oil shale to be developed 
after the investment of billions of dollars in Western 
Colorado.
    Mr. Bishop. It was a BLM effort. And you are right, that 
one did happen to fail. But the world is moving forward in 
developing oil shale. We should not have our head in the sands.
    One of the chances--one of the reactions of the draft PEIS 
includes a swath of land that stops private companies--one in 
my state--who has preferential lease lands to make them off-
limits to commercial leases. The fact that the Department of 
the Interior is making it more difficult to comply with the 
terms of the R&D leases does have an impact on commercial 
property, and I find that disturbing.
    Let me try number four, quickly. The NLCS, wonderful 
organization, has been upgraded to, I believe, a directorate, 
if that is the correct name. Does that new position include 
additional supervisions of the area--supervisionary power of 
the area that is under control of the NLCS?
    Secretary Salazar. I don't think that it does, Congressman 
Bishop, but the NLCS is a very important part of the--America's 
public estate.
    Mr. Bishop. Thank you. That is a good--I like that answer. 
Once again, it was promised that would not be the case, so I 
appreciate that very much.
    Let me say--because I have only got to five, there are four 
others here, I am sorry about that, I don't have enough time--I 
am concerned somewhat with wilderness and wild lands. We have 
done a good deed in solving the wild land issues. I appreciate 
your efforts in that.
    But as you were talking about some of the oil shale 
productions and looking at the land management plans, et 
cetera, you once again put wilderness characteristics as one of 
the things you are looking at. That was one of the problems we 
had with wild lands. I would actually urge you to be very 
careful in that respect.
    I apologize for not getting to the other four. But the 
first one about the campers was actually the most important 
one. Thank you, sir.
    Secretary Salazar. Thank you, Congressman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And welcome again to 
Secretary Salazar.
    As you are very well aware, I am heavily interested in 
water, and hydrofracking is something that is very near and 
dear to the area that I am in. And--because it is in an 
earthquake-prone area, it is even more concerning. So any 
information that would help us be able to know whether there is 
new technology, as was being discussed, that would be very 
helpful to some of us who are facing that.
    The water challenges--one of your 7 initiatives for 2013--
how were those proposed reductions in spending for basic data-
gathering and talking about USGS stream-gauging, another dear 
subject, and groundwater monitoring specifically impact your 
ability to fulfill statutory mandates and affect the decision 
support and the impact on states and other non-Federal programs 
or partners? That is real critical to us.
    Secretary Salazar. Congresswoman Napolitano, thank you for 
the very good question. I will have David Hayes answer the 
water issue, because he has been the ring leader of everything 
that we have been doing in California specifically on water. On 
hydraulic fracking, it is part of the reason that this budget 
has the $15 million for USGS to study hydraulic fracking, is so 
we can make sure we fully understand all of the dimensions of 
hydraulic fracking, including water use and what that all 
means.
    We support natural gas. We want it to move forward. But we 
also need to anticipate that with a 100-year supply of natural 
gas, that we need to be leaning forward and having some of 
these questions that people are answering--or asking, answered. 
So----
    Mrs. Napolitano. And hydrofracking, Mr. Secretary, also as 
it relates to oil.
    Secretary Salazar. We are on the hydraulic fracking issue 
with all that we can, because we know the importance of natural 
gas.
    Mr. Hayes. And, Congresswoman, on your question about the 
stream gauges, it is important to note that net-net, we are not 
reducing the amount of money for stream gauges. There is a 
decrease in the budget, but it is being offset by some 
increases from the use of stream gauges from another account, 
the rapid disaster response effort.
    So, we are fully committed to maintaining that stream gauge 
network, which is so important to so many members of this 
committee.
    Mrs. Napolitano. Especially the agricultural area. 
Congratulations on your WaterSMART. That is great to see that 
increase. And I am hoping you are going to incorporate more of 
Title XVI into that and, of course, begin to prepare our areas 
for the eventual drought cycles that have been plaguing the 
United States, and how we can begin to see that the USGS budget 
request is including to be able to check out where our aquifers 
standing is, so that we can begin to store water in aquifers, 
whether it is recycled or captured water, or any kind of water. 
We need to be ensuring that not just the West but other states 
begin to look at where they are at with it, since they are not 
being spared some of those--Mother Nature's power balls. Any 
comment?
    Mr. Hayes. We agree very much, and we thank you for your 
constant support of Title XVI dollars. We are continuing to 
push forward with Title XVI and with WaterSMART in general, 
because it stretches water supplies, which helps everybody.
    Mrs. Napolitano. But we----
    Mr. Hayes. So we appreciate your continued support.
    Mrs. Napolitano. Well, we have a--over $500 million backlog 
throughout. So we need to ensure that we don't wait another 50 
years to be able to get these projects going that have already 
been approved by Congress.
    Mr. Hayes. Right. And as you know, that program relies on 
partnering with municipalities that are coming forward with 
applications. And we are working closely with them, and will 
continue to do so.
    Mrs. Napolitano. Thank you. The other issue is the creation 
of the National Groundwater Monitoring Network, and 13 million 
toward the assessment of the groundwater availability--again, 
going to aquifers. And, of course, you are well aware that we 
have San Gabriel that has been in the clean-up mode for the 
last 20-some-odd years, which has no further funding to be able 
to move forward to continue that. We just got another maybe 10 
years left.
    Any way we can be able to focus on being able to take care 
of these contaminated sites to make water available for use?
    Mr. Hayes. Congresswoman, the San Gabriel situation is a 
unique situation. It is obviously a Superfund site. It is 
unusual the Department of the Interior has been funding a part 
of the clean-up. We are certainly willing to work with you as 
we move forward to see what can be done.
    Mrs. Napolitano. Thank you so very much. And I will have 
other questions for the record. Thank you, Mr. Chair. I yield 
back.
    The Chairman. The gentlelady yields back her time. The 
Chair recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And good to see you 
again, Mr. Secretary.
    Recently our committee received a copy of a BLM proposal to 
regulate hydraulic fracturing on Federal lands, on top of what 
the states are already doing well. This is an issue the 
Resources Committee has been closely monitoring in the past 
year.
    You appeared before our committee in November and testified 
about BLM's plans to regulate fracking on Federal lands. In 
your testimony you stated that you have worked ``closely with 
industry, other Federal agencies, and the public'' regarding 
oil and gas development. Based on your reference to open 
government, can you tell the committee, yes or no, do you plan 
to issue these fracking regulations through a formal rulemaking 
process under the Administrative Procedures Act, which would 
allow for an open process and time for public comment, or not?
    Secretary Salazar. Yes.
    Mr. Lamborn. Thank you. That is a great answer, I 
appreciate that. I will move, shifting gears, because of the 
sake of time.
    Mr. Secretary, President Obama has often expressed his 
support for new technology and developing our natural 
resources. One emerging technology is oil shale, an industry 
which flourishes in countries like Jordan and Estonia, as 
Representative Bishop referred to, but has repeatedly been 
stifled by inconsistent and restrictive Federal regulations 
regarding its development here in the U.S., despite the fact 
that we have more oil shale resources in the lower 48 states 
than any other country in the world.
    Recently, your Department removed thousands of acres from 
leasing for oil shale development. Can you tell the Committee 
why your Department does not encourage the development of this 
resource that holds such tremendous potential, and why your 
Department continuously takes steps to stifle its development, 
which prevents the creation of American jobs and American 
energy?
    Secretary Salazar. Thank you, Congressman Lamborn, for that 
very good question. The reality of it is that oil shale 
development is a matter that affects three states: the western 
part of Colorado, part of Utah, and a part of Wyoming. The 
kerogen that is locked up in that shale is kerogen that people 
have been trying to unlock for over 100 years. And that 
technology has not yet been developed. And the oil and gas 
industry, when they give you their honest answers, will tell 
you that they still don't have the technology to be able to 
develop it in a commercially feasible way. And that is why the 
research and development that is underway so much in the State 
of Colorado and in the State of Utah are all so important.
    In addition to that, there are questions that need to be 
answered. How much water is it going to take? From Colorado 
Springs--Congressman Lamborn, you would know well the 
importance of water to your community and the importance of 
water to the State of Colorado. When I look at what is 
happening with the declining water supplies and the over-
subscription of water on the Colorado River Basin, the reality 
of it is that if millions of acre feet of water are required to 
move forward with the development of oil shale on a commercial 
basis, the question is, is the water there? And what will the 
impact be to agriculture and other municipal uses?
    So, I raise that issue of water, just as one example of the 
kinds of questions that need to be answered before anybody 
engages in a whole scale giveaway of the public lands to oil 
companies that want to develop oil----
    Mr. Lamborn. Mr. Secretary, it sounds like you 
predetermined the answer when the R&D leases haven't even 
really been fully developed. I mean the technology that the 
country of Estonia uses, for instance, is mining and retort. 
There is really no water involved in that process. So if you 
raise water as an issue, that doesn't even apply to one of the 
potential technologies.
    Secretary Salazar. Well, Congressman Lamborn, with all due 
respect, I would remind you that mining and retort was what was 
used with billions of dollars of investment in the early--in 
the 1980s in the State of Colorado, and it went bust.
    And so, there is still a lot of research and development 
that has to take place to answer all of these questions. And we 
are fully supportive of the research and development, and have 
continued to move forward with the granting of leases, so that 
research and development on this potential energy----
    Mr. Lamborn. Mr. Secretary, your Department just withdrew 
all kinds of acres--how is that helping, if you say you believe 
in we should at least research it?
    Secretary Salazar. Well, Congressman, the leases for 
research and development are still out there, and acreage is 
still very available for research and development, both on our 
public lands as well as private lands. If it was withdrawn, 
where the lands related to commercial leasing--because, 
frankly, the United States of America is not ready to move 
forward with commercial leasing of hundreds of thousands of 
acres of oil shale lands when the technology is not there yet 
to develop it.
    Mr. Lamborn. You say the technology is not there. You are 
not letting them go forward. You are predetermining the 
results.
    Secretary Salazar. We are letting it go forward with all 
the research and development, and we are very supportive of 
them moving forward with those research and development 
projects.
    Mr. Lamborn. But the----
    Secretary Salazar. I have personally visited them. And some 
day you might want to do the same.
    Mr. Lamborn. I have, too.
    Secretary Salazar. OK.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary, for being here.
    Four quick questions, if I may, sir. On the issue of 
fracking, hydraulic fracking, the public's right to know and 
the taxpayer's right to know. As we move forward, the 
compounds, chemicals in this process, do you believe that that 
needs to be transparent and publicly available, and that there 
shouldn't--and that the public should know what the content of 
that process is going to be, and what potential effect it can 
or cannot have?
    Secretary Salazar. Yes. And it is important that we do it 
in the right way. There may be proprietary trade secrets That 
need to be addressed within the content of the rule, and we are 
looking at that. But at the end of the day--and I have said 
this a year ago, when I brought most of the oil and gas 
industry--invited them to a meeting that we had at Interior to 
talk about the issue of hydraulic fracking, because I do see 
the hidden nature of what is being injected into the 
underground as essentially being the Achilles heel that can 
essentially kill the potential for America to develop this very 
abundant natural gas resource.
    And so, it is interesting to note that over the last year 
many of the most responsible and largest companies in the 
United States are in full agreement on the disclosure of 
wellbore integrity requirements. And many of the states have 
moved forward in that direction, as well.
    Mr. Grijalva. Mr. Secretary, National Park Service. Some 
have suggested that the constraining Federal budgets will lead 
to a discussion of the Park Service mission. And if it makes 
sense--and in the future it would make sense to take units out 
of the system. Could you discuss the role of the Park Service 
units play in local economies, regardless of whether they are 
the Grand Canyon or a national seashore?
    And the other issue, let me applaud you on your decision to 
withdraw acreage from the Grand Canyon for its protection. 
Sometime this week we are going to have another effort to 
overturn that decision. And so, I know it is a rhetorical 
question, but do you oppose that effort to overturn that 
decision?
    And with that, let me ask you, Mr. Secretary, to respond to 
those two questions.
    Secretary Salazar. I do oppose efforts to overturn the 
decision, Congressman Grijalva, on the Grand Canyon. With 
respect to investments in National Parks, I think it is always 
important for everyone on this committee, everyone in Congress, 
Democrat and Republican alike, to recognize that outdoor 
recreation and tourism is a huge part of our economies.
    We know, for example, in the Grand Canyon or in Mount 
Rainier, or any of our other National Parks, that those parks 
are a huge economic engine for those states and for those 
communities. And so when the Outdoor Recreation Foundation puts 
forward a study based on economic science that says there are 
eight million jobs being created through tourism and outdoor 
recreation, we know it is important for hunters, for anglers, 
for bikers and hikers. And so it is something that obviously 
merits tremendous support. And it is the underpinning of the 
budget requests that we have here.
    Is it what we would, frankly, like to have and need to have 
to be able to do more to deal with the backlog and the 
maintenance and the need to establish National Parks like the 
Cesar Chavez Park that we have been working on for many years? 
The fact of the matter? No. The resources are--that is why this 
is such a painful budget, because it doesn't go as far as we 
would like it to go in those areas.
    Mr. Grijalva. Yes, national landscape conservation system. 
Last year the Majority attempted to zero out the funding for 
this project. Can you discuss what choking off funds would mean 
to that, the management of 27 million acres, and the importance 
of this initiative?
    Secretary Salazar. The National Landscape Conservation 
System, which was created into law by this Congress and by the 
last Congress, signed by the President of the United States, I 
think, in February of 2009 is a very important part of our 
public domain. These are the most special places within the 250 
million acres that are overseen by the Bureau of Land 
Management. And I believe that they need continued support and 
funding to be able to have them provide the kind of economic 
activity that they do to the people of this country.
    Mr. Grijalva. Thank you, Mr. Chairman. And I will submit to 
the Secretary some questions regarding an issue in Utah, 
relative to RS2477, the claims, the potential litigation. And I 
will submit those questions to the Secretary for dissemination 
of the answers to the entire Committee. Thank you, sir.
    The Chairman. I thank--and that is a good entre into 
saying--and I will repeat this at the end--if Members don't 
have questions that were asked, they will have an opportunity 
afterwards. And if the Secretary and his staff would try to 
respond in a timely manner, I know we appreciate it. I know 
that Mr. Bishop will be counting the days of getting answers to 
his four questions before the time comes.
    Recognize the gentleman from Louisiana, Mr. Fleming.
    Mr. Fleming. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for--you know, we have discussed this issue and 
offshore drilling many times here, and I appreciate your 
willingness to come and commiserate with us on this.
    Would you agree, sir, that the technical expertise with 
hydrofracking mainly lies with the industry itself? That is, 
those who are doing this day after day, the engineers, people 
who have been doing this for even 60 years? Would you agree, 
sir, that the main knowledge base exists with this group today, 
as opposed to Federal agencies and, you know, people who are 
not in this business?
    Secretary Salazar. I would say that industry has a 
tremendous, tremendous expertise on fracking, and it obviously 
has been going on for a very long time.
    I would also say that the huge change in what we are now 
predicting to be the natural gas resource of the United States 
that gives us a 100-year supply was brought about, frankly, by 
the scientists at the United States Geological Survey and the 
Department of Energy, working closely with industry. And so 
there is expertise in both government, as well as in industry, 
on the issue of hydraulic fracking.
    Mr. Fleming. Right. And I think you have really answered my 
question even more, and we agree even more than perhaps I would 
have suspected, and that is this has been a very collaborative 
effort. That is to say that scientists, both in the pure 
science community and also in the industry itself, have come 
together. And I agree with you, sir, I think that the natural 
gas future is very bright for the United States.
    So, here is my question. The main players, ExxonMobil, 
Chesapeake, and others, to what extent, before these rules were 
brought out--and I know they are not finalized, but they are 
preliminary--before doing that, to what extent have you had 
input from the industry?
    Secretary Salazar. We have had, Congressman Fleming, very 
significant input, including--I think it has been more than a 
year ago where I invited all those companies to come to have a 
discussion on hydraulic fracking at the Department of the 
Interior. There has been major outreach by the Bureau of Land 
Management to all of these companies. And that will continue to 
be the case, as we move forward with the formal rulemaking 
process.
    Mr. Fleming. Sir, can you point to any measures in your 
proposed regulations that you adopted from their 
recommendations?
    Secretary Salazar. I remember well the--one of the panels a 
year ago at the Department of the Interior by industry 
representatives where they were of the belief that it was 
appropriate to have disclosure of what was being injected into 
the underground. Certainly that was one of the considerations 
that took place with respect to one of the cornerstones of this 
new rule.
    Mr. Fleming. OK, thank you. The--in reading through these 
rules, one thing that is really coming out, I think very 
clearly, is there are a lot of predisclosures: water sources, 
the formulation of the fluids, the engineering, and so forth. 
But the problem is the folks who do this day to day tell me 
that every day is a new day. They have to formulate, 
reformulate every day. Even water sources. They have to do a 
lot of things on the fly.
    And the other thing that businessmen tell me, and women, 
even in other industries, tell me that the biggest impediment 
to hiring jobs and improving the economy is the fact that 
regulations restrict them in their day-to-day decision-making.
    So what I am seeing here, sir, is a lot of new regulations 
that handcuffs those who are on the front line doing this. It 
will take longer, be more expensive, and be more restrictive. 
It will be less ability to make moment-to-moment decisions. So 
I would love to hear your comments on that.
    Secretary Salazar. Congressman Fleming, our view is that 
natural gas and hydraulic fracking are very appropriate for the 
United States of America, but we need to make sure that we 
provide confidence to the American people that public health 
and safety and the environment are being protected. And the 
measures that we have put in place, in my view, Congressman 
Fleming, are very appropriate, common-sense measures.
    If I had the time, and we weren't restricted here, I would 
tell you the story of Mac Trailer, which now is employing 900 
people in Ohio, where I was yesterday, and the man is also a 
farmer who started the company in his garage. He is very 
supportive of moving forward with these common-sense rules 
because of the fact that he believes that it is essential to 
the natural gas future and his company.
    Mr. Fleming. Yes. But since I am running out of time, let 
me ask one more quick question. What has happened recently, or 
even in the last few years, that we have to now rush to come 
out with all of these Federal rules that we never had before? 
What is the sentinel event that has caused this?
    Secretary Salazar. The fact of the matter is we are doing a 
tremendous amount of hydraulic fracking. Over 90 percent, maybe 
99 percent of all the wells on public lands are using hydraulic 
fracking. And it is part of what has caused this natural gas 
revolution and great potential for America. And we need to make 
sure that we are doing it right, so that we can capture the 
future American energy--domestic-grown energy that will power 
our economy.
    Mr. Fleming. Thank you. I yield back.
    The Chairman. The time of the gentleman has expired. Ms. 
Bordallo, you are recognized for five minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. Secretary Salazar, I 
have some very important questions for my jurisdiction. The 
budget request for OIA includes discretionary compact impact 
funding for 5 million to fund grants to jurisdictions affected 
by the compact migration, and to implement a plan to mitigate 
the impacts and the costs of the compact migration.
    I am very supportive of this, as a first step to address 
the inadequacies of the compacts. Can you elaborate on the 
rationale for this increase, and how this funding will be used 
in the affected jurisdictions?
    Secretary Salazar. We--Congresswoman, I just want to say my 
Assistant Secretary, Tony Babauta, has spent a lot of time 
working out in the territories, and knows that the compact 
issue is one of the most important issues. And this is not the 
only one of the compact issues that we are working on.
    Deputy Secretary works with him closely, and so I will have 
him quickly respond to your question.
    Mr. Hayes. Congresswoman, as I think you know, our plan is 
to work collaboratively with you and with others in the 
territories to decide how best to implement this program. Our 
Assistant Secretary Babauta is going to be convening the first 
meeting of the Pacific leaders in March, coinciding with the 
Summit of the Micronesian Chief Executives. So we want to do 
this right, in full collaboration with you and with the 
leadership of the territories.
    Ms. Bordallo. Thank you. What will the plan include? Last 
May I joined Senators Bingaman, Murkowski, and Inouye and 
several of my House colleagues in a letter to you and Secretary 
Clinton outlining policy proposals which we believe could 
reduce the costs of compact migration, including better 
educating FAS migrants and those who entered the U.S. under the 
compact, and targeted investments in the health infrastructure 
in the FAS.
    Will these proposals be incorporated into the mitigation 
plan? And has the Administration acted on any of the proposals 
outlined in our letter? This letter was sent almost a year ago, 
Mr. Secretary.
    Secretary Salazar. The answer to that, Congresswoman, is 
that there has been a huge focus of--for me, for the Deputy 
Secretary, as well as for Tony Babauta, and there have been 
meetings with the Governors of the various territories, and we 
are doing everything we can to try to make sure that the 
consequences of migration from the compacts are, in fact, 
addressed. And it is the first time ever, really, that you have 
had an Assistant Secretary that pulls together the Governors 
from each of those places to look at these issues.
    Ms. Bordallo. So will we be expecting some kind of a answer 
to this?
    Secretary Salazar. We have action underway, and we would be 
pleased to brief you further on the specifics of what----
    Ms. Bordallo. Thank you.
    Secretary Salazar [continuing]. We are doing.
    Ms. Bordallo. Now, in the 111th Congress, DoD and DoI 
expressed the Administration's support for H.R. 44, the Guam 
World War II Loyalty Recognition Act. Assistant Secretary 
Babauta has also affirmed the Administration's support in the 
112th Congress. Can you reaffirm the Obama Administration's 
support for H.R. 44? And if you could, just give me a yes or no 
answer.
    Secretary Salazar. Yes.
    Ms. Bordallo. Good. And Mr. Secretary, at the end of 
January, Present Obama called the United States the world's top 
traveling tourist destination. He signed an executive order 
directing the Secretaries of Commerce and Interior to lead an 
interagency task force to develop a national travel and tourism 
strategy. Tourism is very critical to the economy on Guam and 
each of the territories. Will you ensure that the task force 
includes members who will address the needs of the territories 
in the national strategy?
    Secretary Salazar. Congresswoman, I am the co-chair of the 
task force with my colleague, Secretary of Commerce Bryson. And 
we are working on the report. It is quick action. And we 
recognize the importance of tourism and the overall economy for 
the United States, and obviously for the territories as well. 
And I would be very delighted, actually, to get information 
from your office that we can incorporate into the report that 
we will be presenting to the President.
    Ms. Bordallo. I guess what I am saying, Mr. Secretary, is 
would we see representatives from the territories included in 
this plan, as they meet?
    Secretary Salazar. We are moving to quickly on this that we 
expect to have the short-term plan out in probably 10 days. And 
then the longer-term plan in--several weeks after that.
    But what I will do is I will make sure that we are 
consulting with Tony Babauta, and have him involved in giving 
us recommendations. And he will be reaching out to your staff 
as well, to make sure that those recommendations are included 
in the task force report.
    Ms. Bordallo. Thank you, Mr. Secretary. Mr. Chairman, I 
have other very important questions, but--that I wish to be 
answered, but I will include them, if you would, into the 
record.
    The Chairman. Yes. Well, as I mentioned previously, you 
will have the opportunity to send them to the Secretary. And 
hopefully you will get a very quick response on that. I 
appreciate that.
    Ms. Bordallo. Thank you.
    The Chairman. Mr. Duncan from South Carolina is recognized 
for five minutes.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman. 
Secretary Salazar, thanks for being here today. And just to set 
the stage, gasoline prices have risen approximately 89 percent 
during the past 3 years. Diesel fuel, in my state, was $3.86 a 
gallon when I filled up over the weekend, and it is approaching 
$4 in a lot of areas in the country. That input cost is driving 
food prices up, and I am afraid we are going to see, I guess, 
north of $4 a gallon of gasoline unless we do something.
    I think America is looking for us here in Congress, and 
also the Administration, to take the measures to reduce what 
they pay at the pump. And I understand that is an all-
encompassing energy policy, and I get all that. But when I look 
at your budget, and the budget request that was provided us, 
the budget includes over 900 million for research and 
development and increases investments. And this kind of goes 
along with what the gentleman from Colorado was asking you 
earlier.
    But I see on here that there is an investment--using your 
words, ``increases investments''--in hydraulic fracturing, 
drilling safely on the OCS. And 13 million for hydraulic 
fracturing and the Department of Energy and EPA are also 
involved in the regulation and promotion of that, if you will, 
totally somewhere around $45 million.
    And when I look further down in your budget request under 
``water availability,'' there is an additional $5 million. And 
here is what it says. First off, this is research and 
development and increases investments in energy production. And 
you have a bullet point, ``Hydraulic Fracturing, $13 million.'' 
Then, two steps down, it says, ``Water Availability, $5 
million,'' of which, proactively--not passively, but 
proactively--addresses concerns about potential impacts of 
hydraulic fracturing on air, water, and ecosystems. So you 
invest 13 million and in promoting hydraulic fracturing, you 
are going to turn around and invest or spend $5 million 
proactively addressing concerns.
    And I just want to make note of the fact that hydraulic 
fracturing is not a new phenomenon. It has been around for, 
well, almost 100 years, from some of the knowledge that I have 
been able to read. James Lankford, from--a congressman from 
Oklahoma says it has been going on in Oklahoma for over 50 
years. He says, ``Come drink our water in Oklahoma.''
    So, I guess the question I have for you is why are we 
investing $13 million of taxpayer money promoting hydraulic 
fracturing, but then turning around and spending $5 million to 
prove that it is--or try to prove that it may be detrimental? 
So I would like for you to address hydraulic fracturing.
    Secretary Salazar. Congressman Duncan, we are supportive of 
natural gas development in this country. You know, from day 
one, the Administration has included that as a high priority. 
And our program--the President, even in 2009, was asking me to 
work on the Alaska natural gas pipeline. We have been 
supportive of leasing and development of natural gas on the 
public estate of the United States of America. So we are moving 
forward with that.
    We also want to make sure that we address the concerns that 
have been raised by the American public, and that--and we do 
believe that hydraulic fracking can be done safely. And so, the 
issues that we are dealing with, wellbore integrity, disclosure 
of fluids that are put--injected into our earth, and dealing 
with what we call the flowback water, are all the common sense 
kinds of rules, Congressman Duncan, that, at the end of the 
day, will be supportive of the natural gas industry which has 
become so robust in the United States, and which has a great 
and wonderful future.
    Mr. Duncan of South Carolina. Are you or are you not going 
to increase the public lands available for hydraulic 
fracturing?
    Secretary Salazar. We--it may be that as many as 99 percent 
of the wells that are currently being drilled on public lands, 
where we have made available more than 40 million acres of 
public lands for oil and gas development, that 99 percent of 
the wells that are being drilled for natural gas are, in fact--
--
    Mr. Duncan of South Carolina. Drilling or fracking?
    Secretary Salazar. Well, they are using hydraulic fracking 
for those wells, to be able to develop natural gas. Enhanced 
oil recovery is--technique has been around for a very long 
time, as well. So it is an ongoing activity that has been there 
for a very long time.
    But what has happened is that because of the technological 
findings that have allowed the major breakthroughs that have 
now given us the 100-year supply of natural gas, what we need 
to do is to make sure that the American public is confident 
that their health and the environment are being protected as 
hydraulic fracking proceeds. And that is what we are trying to 
do with the efforts of the Department of the Interior, 
including our rules, and including the science.
    Mr. Duncan of South Carolina. Mr. Secretary, it is proven 
technology, Marcellus and Barnett. It is being used. And I 
would say we open up more public lands. I look at the energy 
economy in North Dakota, and unemployment there is three 
percent or less, because we are allowing the development of 
energy on private and state-owned property. They get it. Right 
across the state line in Montana is Federal land, and it is off 
the table.
    What I would like to see the Department of the Interior do 
is say, ``We are going to open up the Bakken oil field in 
Montana on Federal lands, and allow more energy development.''
    I am out of time, sir. Mr. Chairman, I yield back.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Northern Marianas, Mr. Sablan, is recognized.
    Mr. Sablan. Thank you very much. And good morning, 
Secretary Salazar, and thank you for your service to our 
nation, and your advocacy of and for the--support for the 
Northern Marianas and the rest of the U.S. insular areas.
    Like I was mentioning to you earlier, we have an issue--and 
we will work with you on this, but we have an issue in the 
Northern Marianas where we have one hospital, it is out of 
money, and it may not pay its doctors and nurses next week. It 
didn't pay most of its employees this past month. And we will 
work with you. As a matter of fact, we are already reaching out 
to your Assistant Secretary Babauta, trying to set up a meeting 
with him as soon as we can.
    But Mr. Secretary, let me also commend your--the 
Administration for working with local ranchers and other 
private land owners to establish the Everglades Headwaters 
National Wildlife Refuge and Conservation Area in South 
Florida.
    But could you please explain how the new Everglades refuge 
designation fits into protections for water quantity and 
quality in Florida and the Everglades ecosystem as a whole, and 
how will the new Everglades Headwaters National Wildlife Refuge 
and Conservation Area support a comprehensive Everglades 
restoration plan?
    Secretary Salazar. Thank you very much, Congressman Sablan.
    First of all, on the hospital issue, I am aware of the 
hospital issue, and have received a report from the Assistant 
Secretary on the issue, and he is working to see whether there 
is a solution there that can be found.
    Mr. Sablan. Thank you.
    Secretary Salazar. On your question on the Everglades, the 
Everglades is a World Heritage Site, and it is one of the most 
significant conservation initiatives that I have worked on as 
Secretary of the Interior, as the Chairman of the Everglades 
Task Force.
    The comprehensive plan that is being implemented is 
restoring the river of grass, and there are a number of 
different reasons for doing it. One is the economy in Florida, 
and South Florida, is very dependent on having good water and 
quality water to continue the job creation that is important to 
southern Florida.
    Second, the tourism that comes with the Everglades and the 
Everglades area is also a very important job creator in that 
area. So we look at the Everglades as being a template for 
conservation. We worked with the ranchers in the Everglades 
Headwaters Area and the Department of Agriculture to start 
moving forward with an Everglades Headwaters National 
Conservation Area.
    So there is tremendous excitement. And it is not just from 
the Department of the Interior. We also have the Army Corps of 
Engineers and many of the other agencies--EPA, as well as 
USDA--who have been very involved as we have moved forward and 
made Herculean progress in the last three years on the 
restoration of the Everglades.
    Mr. Sablan. Well, thank you. Thank you for your response, 
Mr. Secretary. And I am really happy that you also are aware of 
the situations we have in the Northern Marianas.
    But I am also excited and I support the almost $9 million 
increase in funding for refuges for Fiscal Year 2012. This 
would allow management programs to continue to operate. Since 
this Administration came into office, 15 million acres of land 
designated by the Bush Administration has been put into the 
refuge system, including the Mariana Trench and Mariana Arc of 
Fire National Wildlife Refuge. The request does not reflect 
this land increase with a comparable increase for refuge 
funding.
    When the Mariana Trench Marine National Monument was 
established, there were plans and promises. And I brought this 
up at the last--promises for a visitor center. What will the 
Service do to fulfill commitments to the people of the Northern 
Mariana Islands in regards to the visitor's center, a promise 
made by the White House?
    Secretary Salazar. Let me ask the Deputy Secretary if he 
has any information, because I don't on that specific question.
    Mr. Hayes. Congressman, we are looking to find planning 
monies to help figure out how to fund a visitor's center at the 
Trench. As I think you know, we are using existing staff in 
Honolulu to do that. We do not have funding right now for a 
visitor's center, but we are committed to move forward with the 
planning of one, and we will look forward to working with you 
on that.
    Mr. Sablan. All right. And then this may not require 
funding, Mr. Secretary, but the nominee for the final position 
on the Mariana Trench Advisory Council was selected in August 
of last year. Will your Department be able to clear this 
nominee so Advisory Council members will be able to attend the 
inaugural meeting slated for the end of this month? Please--we 
have one more nominee that has not been cleared by the 
Department.
    Secretary Salazar. Let me just say this is the first time 
that I hear it, unless David has heard something about that. 
But, Congressman, we would be happy to take it up.
    Mr. Sablan. Thank you.
    Secretary Salazar. Important that we have these advisory 
boards----
    Mr. Sablan. Well, thank you.
    Secretary Salazar [continuing]. Fully operational. So we 
will----
    Mr. Sablan. Thank you very much, Mr. Secretary. Thank you, 
Mr. Hayes. And I will--my additional questions, Mr. Chairman, I 
will submit for--thank you very much.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentleman from Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today.
    I would actually like to go back to a little bit of some of 
the earlier questioning that was going on when you made 
reference that the Geological Survey and others have had 
outreach by the BLM to companies. Question that I would like to 
explore with you is several states have rules in place 
regulating hydraulic fracking. These regulations have been 
carefully crafted in stakeholder conversations with major 
parties and industry. And I would like to know, did the 
Department of the Interior consult with states and with tribes 
in regards to BLM regulations?
    Secretary Salazar. Congressman Tipton, we have had a 
massive outreach effort that has included input from tribes and 
states and industry and environmental community, and everybody 
else. And so that is being reflected, and there will be other 
opportunities to do that as we move forward with the formal 
rulemaking process.
    Mr. Tipton. OK. And in terms of it being reflected, I do 
have a letter from the Governor of North Dakota expressing his 
concerns with the new regulations. And I am curious. What 
response did you receive from Governor Hickenlooper and the 
State of Colorado in regards to new BLM regulations?
    Secretary Salazar. You know, I was with the Governor of 
Colorado, John Hickenlooper, on Saturday night. We did not 
discuss these issues, we discussed other issues related to 
potential resolution of conflicts between the Federal 
Government and the State of Colorado.
    But this is--at the end of the day your question goes to 
outreach to states that already have developed regulations in 
the way that Colorado and North Dakota have done. I think that 
is important. And I admire what they have done in Texas and in 
other places. I do think that it is important for us, as the 
steward of the public estate and the 700 million acres of 
mineral estate that we oversee on behalf of the American 
people, that we have a set of rules that govern those lands. 
And that is what we intend to do through the efforts of the 
Bureau of Land Management.
    Mr. Tipton. And I understand your position on this. But I 
would like to know. Why do you believe that the Department of 
the Interior should usurp state authority to regulate hydraulic 
fracking? The well construction in Western states like Colorado 
have been doing it safely for decades, as we have had heard 
through numerous Western states, as well.
    In fact, we had testimony just a few weeks ago with 
Director Abbey, Harris Sherman, former Secretary Babbitt, 
noting that over a million fracking operations had taken place 
with no incident dealing with state regulations that had been 
in place. So what flaws in state regulations were reached 
through consensus with industry, local governments, and 
environmental--did the Department really lead you to try and 
enact different regulations, as opposed to having state 
involvement?
    Secretary Salazar. Scott, the outreach that we did to the 
states included meetings in Bismark, North Dakota, in Golden, 
Colorado. And those were led by the BLM to get input from those 
respective states.
    Now, I think your question really goes to the fact that if 
you have states now coming on board and saying that they are 
going to develop their own regulatory regime, why is it 
necessary for the United States to develop its regulatory 
regime on public lands? My answer to that is I think we have a 
responsibility--I believe we have a responsibility, under the 
laws of this country, to make sure that these 700 million acres 
of the American citizen-owned public estate, that we have 
taking care of those lands in a way that any land manager, any 
land owner, would do.
    In addition to that, Congressman Tipton, I would also add 
that I think there are many in the industry who have spoken to 
me who have said that they would rather have a standard that 
they can follow from state to state, so they are not 
subjected--you know, almost--most of the companies that are 
involved in hydraulic fracking and natural gas production 
operate across many state lines. And what I always hear from 
industry is that they don't like to deal with the patchwork of 
regulation. It makes it difficult for them to address different 
sets of regulations.
    So, our regulations will deal only with the public estate. 
But it also seems to me that it may create the template for 
what ought to be happening across the country, as well.
    Mr. Tipton. You know, we have in some of the states with 
the most stringent requirements for disclosure, in particular, 
websites called FracFocus. But yet the BLM makes no reference 
to it in terms of their proposals. So, in the draft 
legislation, where it indicates that the BLM intends to set up, 
at the cost to taxpayers, a whole new database, I think that 
something--a concern that we are seeing reflected at multiple 
levels--that we are having stealth tax increases, as Mr. Duncan 
noted, at the pump, that ultimately the American taxpayer is 
having to pay for bureaucratic regulations tiered from the 
state to the Federal Government, and duplication going on.
    Secretary Salazar. If I may, Mr. Chairman, I would like to 
have our Deputy Secretary just to describe FracFocus for a 
minute and how we are using it as well, because I think it is 
of interest to members of the Committee.
    The Chairman. Go ahead.
    Mr. Hayes. Thank you, Mr. Chairman. Just to respond very 
quickly, the Congressman is referring to a draft proposal that 
is not a proposed rule. We are working on a proposed rule that 
will be fully referencing--will be fully available for comment.
    We are very interested in making sure that disclosed 
information is available to everybody. We will explicitly be 
asking for comment on how we can interact with FracFocus and 
other state-based disclosure issues, because we have no 
interest in creating any conflict with state regulation. In 
fact, as the Secretary said, we want to conform and help work 
together with the leading states who are engaged in this 
exercise.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Secretary. 
Many questions, little time.
    There are two main resources issues that will affect 
America's well-being, its economy, and, therefore, its national 
security in this century. We had quite a bit of conversation on 
energy. Let me segue over to water, specifically water in 
California.
    We went over seven billion people on the planet last year, 
and by the middle of this century, over nine billion. 
Production of food is going to be a critical issue to not only 
our nation, but the world. Water is essential to make that 
happen.
    Mr. Secretary, let me commend you for your efforts on the 
project, it was backlogged for 20 years. Last month it went 
into operation, 35,000 more acre-feet to the San Joaquin 
Valley. Last week you announced $1.5 million for the first 
phase of the Madera Water Bank, 100,000 acre-feet of additional 
water. We need to continue to work on those kinds of projects 
and your efforts with the Bay Delta Conservation Plan that is 
critical to addressing California's long-term water security. 
For a state that will have 50 million people in the next 20 
years, to maintain our agriculture economy is essential.
    But let me talk about lessons learned. We went through a 
horrific hydrological drought in 2009 and 2010. And the 
regulatory constraints made it even worse, in my opinion. What 
are the lessons that have been learned? We had 174 percent of 
snowpack last year. This year we had one of the driest 
Decembers on record, and January hasn't been much better. We 
are at 18 percent of our normal snowpack. What lessons, in 
terms of our water supply for this year, have we learned from 
2009 and 2010?
    Secretary Salazar. We have many lessons, and we have 
improved on a lot of things that we are doing, including how we 
are letting users know the timing as to how much water will be 
available. But my Deputy Secretary, David Hayes, has probably 
spent more time on your issue in California on water than on 
any single other issue in the United States. So I would like 
him to respond very briefly, if we may.
    Mr. Costa. Very quickly, because I have some other 
questions I want to get----
    Mr. Hayes. Regretfully, that may be true. Congressman, as 
you know, we have hardwired in a number of the reforms to--that 
we developed with your help, with Senator Feinstein's help and 
others during that drought, including transfer authority, ways 
to move water around from willing buyer to willing seller. 
Those are all in place. They were not temporary. We have 
institutionalized them, and they are available for us if we 
have another dry year. And we are committed to using them to 
the hilt----
    Mr. Costa. Are we going to have greater operational 
flexibility on the projects this year, if----
    Mr. Hayes. As you know, we negotiated a settlement with all 
parties last year to provide operational flexibility under the 
biological opinions. We have confidence we can continue to 
operate with the consent of all the parties in a sensible way.
    Mr. Costa. Mr. Secretary, you have been meeting with the 
Governor on the Bay Delta Conservation plan. What are your time 
lines this summer, and what do you hope to announce on the 
long-term aspects of our water needs?
    Secretary Salazar. We met with the Governor in Sacramento, 
the Deputy Secretary and I, and Mike Connor, the Commissioner 
of the Bureau of Reclamation. We agreed that we would put the 
pedal to the metal, and try to get to a point where we can 
announce the broad outlines of a Bay Delta Conservation plan 
with the coequal goals of water supply and ecosystem 
restoration and protection, so we are on a----
    Mr. Costa. Equal goals of water supply and restoration?
    Secretary Salazar. Yes, and our plan is to----
    Mr. Costa. The water supply and restoration are equal 
goals?
    Secretary Salazar. Co-equal goals.
    Mr. Costa. Correct.
    Secretary Salazar. And we will have that--our plan is--my 
plan is to travel to California in July and help make that 
announcement.
    Mr. Costa. OK. Storage studies are part of the Bureau's 
efforts, and there are four areas that are critical: Shasta, 
Los Vaqueros, Sites, and Temperance Flats. The time lines that 
have been reported for Shasta that shows a lot of promise. Is 
there a way that we can expedite that? Because we have to 
increase our water supply for our growing state. There is--it 
is one of the critical tools that we need to follow.
    Secretary Salazar. Deputy Secretary?
    Mr. Hayes. As you know, Commissioner Connor just made an 
announcement on that last week, where he indicated that we are 
moving forward with Shasta evaluation, and----
    Mr. Costa. I think you have a 2017 deadline. I think we 
need to look at moving that up, especially coinciding with the 
Bay Delta Conservation----
    Mr. Hayes. I think the key point is that he intends to get 
a draft out by 2013, hopefully, and that is the key point. We--
--
    Mr. Costa. In addition to that, on Temperance Flats, I 
think it has a multitude of benefits I think you need, both 
because it is south of the Delta, restoration of the San 
Joaquin River and other factors. You need to look at that.
    Let me close on that question. You have limited amount of 
money in this budget for the restoration of the settlement 
agreement. If you get no more money, how are you going to make 
that happen?
    Secretary Salazar. It is a painful budget. Tough choices. 
And so we are trying to do everything that we can to figure out 
how we keep moving forward in many of these programs that are 
so essential to California and to all the states.
    Mr. Costa. I know, but--my time has expired, Mr. Chairman, 
but this is a critical issue. We are going to be hearing a bill 
on it tomorrow, I believe.
    The fact is that there is about $300 million-plus that you 
have been given for restoration. Some are estimating costs to 
be $1.2 billion for the entire restoration project over the 
next 10 years. If you get no more than the $300 million-plus, 
how are you going to do it?
    Secretary Salazar. Well, you know, we face tough choices 
every day. And sometimes we have to extend the time frame for 
completing projects. But we are working on it. It is a high 
priority, and we are not going to go--let the investment go--
that the American taxpayer has already made in that restoration 
simply disappear.
    The Chairman. The time of the gentleman has expired.
    Mr. Costa. Thank you.
    The Chairman. The gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Secretary Salazar, I find your testimony today 
very interesting. The Administration claims to commit to 
powering the American economy. You tout the Bureau of 
Reclamation's facilities that deliver cheap, affordable water 
to millions of Americans, and allow Western farmers to thrive. 
You claim the Administration is encouraging economic 
development in Indian country, and honoring trust 
responsibilities.
    Yet this Administration is taking actions or considering 
actions that compromise each of these goals in my state, alone. 
The Administration opposes my jobs legislation, H.R. 1904, the 
Southeast Land Exchange and Conservation Act. While this budget 
proposes essentially a $45 billion tax increase on American job 
producers, it stands in the way of a project that would have an 
estimated total economic impact of over $61 billion, and 
providing over 3,700 high-paying Arizona jobs, and generating 
19 billion in Federal, state, county, and local tax revenue.
    The Administration is requesting millions of dollars to 
purchase lands across the West under the guise of better 
management, yet it opposes legislation that would allow BLM 
alone to acquire over 4,000 acres of pristine and highly 
desired conservation land in Arizona that will, in fact, lead 
to better--that will lead to better land management at zero 
cost to the taxpayer. In fact, I will quote. The Nature 
Conservancy called one of these the last vestiges, and is 
priceless in----
    Secretary Salazar. Excuse me. You are speaking about 
Resolution Copper?
    Mr. Gosar. I am talking about the Southeast Land Exchange.
    Secretary Salazar. So that is a Resolution Copper----
    Mr. Gosar. Yes. Yes, I am.
    Secretary Salazar. OK. Just wanted to make sure.
    Mr. Gosar. The 14 billion in tax revenue, the 4,100 of 
pristine land coming into the BLM stewardship, 3,700 jobs, 
increased domestic mineral independence, all these benefits are 
supposed to be central to your agency's mission. Did the 
Administration take any of this into account when taking an 
opposition to my bill?
    Secretary Salazar. The answer is we believe there is a way 
forward. With respect to Resolution Copper, it was approved 
last year in the Senate Energy Committee, and unfortunately did 
not get through the Congress before the time of the Congress 
expired. We had the right balance, in terms of moving forward 
and doing the compliance with environmental issues. We don't 
believe that you ought to take a shortcut in dealing----
    Mr. Gosar. How would the pre-NEPA actually benefit anything 
going forward? All those interchanges are exactly the same. 
They get no stewardship difference of any of those, the 
Antiquities Act, the environmental impacts, they have to do it 
all the same.
    Secretary Salazar. Congressman Gosar, I personally have 
visited the site with Senator McCain, and know that it is an 
important opportunity for both jobs, as well as an important 
opportunity for conservation. It also is a place where there 
are very significant tribal interests that need to be 
addressed, and also a place where the water issues in that area 
are very important to also address.
    So, it is important that the legislation that was 
proposed--I believe it came out of the Senate Energy Committee 
on the Senate side, and actually had made it to the Floor, that 
that kind of legislation move forward so that we can make sure 
that we get----
    Mr. Gosar. I actually find it kind of unusual that we 
consider legislation from the previous Congress when--having a 
bill that passed the House directly, and we should be 
considering that accordingly. So I find a lot of excuses here, 
and particularly when you look at how much studies have been 
done around this area. I find it very excuse-ridden as to why 
we are standing in the way. I think we ought to be looking at 
this very constructively, and moving forward with it.
    I got a little short time, and I want to hit something 
else. I would like to briefly touch on the Administration's 
potential mandates that would shut down the Navajo Generating 
Station. As I am sure you are well aware, because the Interior 
is a 25 percent owner of the NGS, the plant is critical to 
Arizona's water supply because it provides 95 percent of the 
power for the Central Arizona Project. CAP delivers more than 
500 billion gallons of the Colorado River to 80 percent of 
Arizona's populations. Without it, Arizona's farmers would be--
have to use groundwater, surely drying up our precious water 
resources.
    The plant employs over 500 people; 80 percent are Native 
American. The revenues from the excess power is critical to the 
Federal Government's obligation to uphold previously enacted 
water settlements. I would like to thank the Assistant 
Secretary Hayes, in your understanding of those effects of BART 
and the rulemaking process.
    Can you please tell me, Secretary, what the Interior has 
done to articulate to the EPA the importance of the issues 
related to the tribes, Arizona's water and state economy? And, 
although the Interior does not control the regulatory process, 
the agency could be hit hard due to this action.
    Secretary Salazar. I understand, and I have had the Deputy 
Secretary lead the effort for the Department of the Interior. 
David?
    Mr. Hayes. Congressman, we have been in very close 
partnership with EPA. Obviously, EPA has an important decision 
to make, and we do not step in their shoes. They have been very 
cooperative. They have been also reaching out to the tribes, 
engaging in consultations. And, as you know, we helped sponsor 
a third-party independent analysis through the National 
Renewable Energy Laboratory that provides a lot of useful 
information that we think provides a basis for good decision-
making. And we continue--we will continue to work 
collaboratively across the affected agencies, and with the 
tribes and the water users.
    The Chairman. The time of the gentleman has expired. The 
gentleman from California, Mr. Garamendi, is recognized.
    Mr. Garamendi. Mr. Secretary and Deputy Secretary, thank 
you very much. It seems as though we have a lot of instructions 
for you, having listened to the last hour and almost two hours 
now of us telling you how to run a Department. You have a very 
complex Department. I want to thank you for the comprehensive 
approach that you have made to address the multiple issues that 
confront us.
    Energy--apparently, if we drill enough, we will solve our 
energy problems. That is not ever going to happen. We need more 
comprehensive--not from you, but from us--energy policy. 
Perhaps some day we will actually get to that.
    I note in all of your responses here that you have 
initiated, engaged in a two-prong approach to energy. One, do 
it safely; and two, do it. Is that correct, Mr. Secretary?
    Secretary Salazar. Yes, Congressman.
    Mr. Garamendi. And I just ask my colleagues to pay 
attention to your responses. When it is not done safely, we get 
big problems, such as the BP blowout. So we have to move 
carefully. And nonetheless, we have to move.
    I want to take this in a different direction. Water policy, 
we will be debating that tomorrow with a very, very important 
bill that is brought before this committee. And we will save 
that for tomorrow. I want to raise the issue of the National 
Parks. It has not been discussed here. Could you tell us your 
plan for the National Parks?
    Secretary Salazar. Congressman Garamendi, the National Park 
System of the United States of America is the envy of the 
world. It also is a place where we host over 250 million--I 
guess the number is about--close to 300 million visitors a 
year. And they are great economic generators from Yosemite to 
the Statue of Liberty, the Everglades, to Glacier, to all of 
our units around the country.
    We have challenges because of the fact that we are having 
these places as icons of America, they are the attractants that 
bring people from all over the world to make the United States 
what we hope will be the top travel and tourism destination. 
And so we need to continue to work with the Congress to find 
the right resources to be able to support both the operations 
side, as well as the continued perfection of the National Park 
System, because there is a long way to go.
    The Director Jarvis for the National Park System put 
together a group that included former Justice Sandra Day 
O'Connor and Senator Bennett Johnson and Howard Baker and 
others. And as a result of that, they put forward a call to 
action to prepare our National Parks for their centennial year 
on 2016.
    But we have some very significant challenges that are 
facing us, and we are doing the best that we can, including 
looking for resources from places in the private sector, as we 
did in the reparation or repairs of the Washington Monument. 
But it is an issue which we spent a lot of time worrying about 
and working on.
    Mr. Garamendi. Is it not a fact that we are hundreds of 
millions of dollars behind in maintenance at the National 
Parks?
    Secretary Salazar. The fact is we are probably somewhere 
between $9 billion and $14 billion in backlog in maintenance in 
our National Park System.
    Mr. Garamendi. I guess I slipped three zeroes there, didn't 
I?
    This is a challenge for the Congress. I know over the 
years--and certainly during your Administration--you have made 
every effort to squeeze from the budget the necessary funds for 
the National Parks. The American people are short-changing 
their heritage and some of the great gifts that have been given 
to us on the natural side, by not maintaining these and 
providing for the maintenance of these parks. It ought to be in 
all of our interests to find the money to do that. But I 
appreciate your efforts on that.
    I am just going to wrap this up with what is tomorrow's 
agenda in this room. It is basically a rewrite of the entire 
California Federal water and state water programs. I would hope 
that we have your testimony, as best that can be made available 
in two days--or one day--that the legislation has been made 
available to us. But it is a remarkable rewrite, and an 
enormous change in long-standing Federal and state policy.
    So your attention to this issue tomorrow is of great 
importance. And whatever you can do, given that you have had 
less than a day to review the legislation.
    Secretary Salazar. Thank you, Congressman Garamendi. And 
there are few people who understand the water issues of 
California as well as you do. And we are very involved and 
engaged in all those water issues, and we will review the 
proposed legislation and provide our comment based on the 
expertise of the Deputy Secretary and Bureau of Reclamation 
Connor.
    The Chairman. The time of the gentleman has expired. Mr. 
Flores from Texas.
    Mr. Flores. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for joining us today. And thank you for your service 
to our country. I am going to start out by listing several 
concerns. And then, at the end, I will repeat the questions 
that I gave you during the concerns. Alternatively, if we don't 
have enough time, I would ask you to separately respond to the 
questions.
    The first one has to do with the budget, and this doesn't 
pertain to you as much as it does to the President's budget 
overall. But the President's budget fails to address the fiscal 
crisis. It ignores his competitiveness council recommendations, 
ignores the deficit commission recommendations, it fails to 
address the loaning and solvency of Social Security, Medicare, 
and Medicaid. That is truly a shame.
    The President's budget spends $47 trillion over the next 10 
years. That is 1.5 trillion more than he proposed to spend last 
year. The President's budget adds $1.9 trillion in new taxes 
and fees, none of which will create new jobs.
    With respect to the Department of the Interior budget, I 
believe Americans deserve to know how the Interior Department's 
tax and fee increases will create more American jobs and 
cheaper energy for the--and cheaper gasoline prices for their 
hard-earned dollars.
    In the preamble of the DoI budget, Interior takes credit 
for increased energy production. The fact of the matter is this 
increased energy production is the result of decisions that 
were made years ago, prior to this Administration. Moreover, 
most reputable economists are predicting that production of 
energy from public lands--or oil and gas production of energy 
from public lands will soon decline.
    The second thing--the next thing I want to talk about is I 
sent a bipartisan letter--there are 182 Members of Congress 
that signed this letter, and we sent it to you last week, 
requesting that you relook at the latest OCS lease sale plan. 
There are claims, not only in the budget materials that have 
been published, but also in the President's conversations with 
the American people, and also with other administrative--other 
folks--spokespersons for the Administration, they claim that 75 
percent of the United States is available--or offshore areas 
are available for oil and gas production.
    If we can go back one map to the map that predates the 
Obama Administration--not the one that had the green on the 
sides. Well, we are short one map. Anyway, let me put it up to 
you. This map right here shows what areas were available for 
offshore production. Not the one on the screen, it is the one 
in my hand. The top map shows the area that--those areas that 
were available for offshore lease sales prior to the latest 
lease sale.
    The map that was on the screen and the map at the lower 
part of this page shows the areas that are not available to 
leasing now, which represent the red areas. And the purple area 
has been placed off limits until sometime after 2022. That is a 
question that we will come back to in a minute.
    Now, let me tell you what the question is. What I would 
like you to do is to send me a response, or send the 182 
Members of Congress a response as to, A, will you revise this 
proposed lease sale to include more offshore access, instead of 
less? And second, if you will not, will you tell me--tell this 
committee what the expected impact is on American jobs, the 
American deficit, the American economy, and also on energy and 
gasoline prices?
    The next area that is discussed in the budget has to do 
with fracking. I am going to try to get through these quickly, 
since I am running out of time. One is, why are we doing this? 
There is--the EPA administrators have said there is no evidence 
of groundwater contamination from fracking.
    The second thing is, in the proposed rules we are not 
following any state models. There is no emphasis on using 
something that has been proven, like FracFocus, or the Wyoming 
model for fluid disclosures, or the Colorado model for the 
protection of operators' intellectual property. One of my 
questions--requests will be that you respond to those issues.
    And then the last and the worst one is probably--is the one 
that says there is a 30-day requirement for a frack permit 
prior to commencement of any operations. You don't know exactly 
how you are going to frack a well until you have it down to 
total depth, to your total target depth, and you have gotten 
your cuttings back that you can analyze, you have gotten your 
logs back. And then you can make an exact determination. The 
way the preliminary rules have come out, you know, you would be 
subject to waiting time for up to 30 days, paying potentially 
tens of thousands of dollars a day, if not millions of dollars 
a day, while you wait to get approval to frack.
    Next thing I need to know is how much money are we going to 
spend on the ocean and marine spacial planning, and how many 
full-time equivalents will we be spending on that?
    And then last--and this--let me clarify at the very 
beginning, this has not been a problem with the Department of 
the Interior. But I call this the Solyndra question, and I ask 
anybody that is going to testify regarding the President's 
budget. We need to--a commitment from the Department of the 
Interior that there is going to be program integrity, that 
there will be no attempts to pick winners and losers, no 
attempts to target funds for the projects that you propose to 
spend money, taxpayer money, on in here to the President's 
contributors or any sort of manipulation, other than using a 
fair and transparent system.
    So again, if you can get back to me on leasing schedule, 
fracking regs, ocean zoning, job creation metrics from the 
higher DoI fees and taxes and program integrity, that would be 
helpful.
    And again, on the last point, I am not saying that DoI has 
a problem with Solyndra. Thank you.
    The Chairman. The time of the gentleman has expired, but 
there is your first public list of questions that are requested 
by the members of the Committee.
    The Chair recognizes the gentleman from Maryland, Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you, Secretary 
Salazar, for being here and being patient with us.
    I am from Maryland, as you know, and very focused on the 
health of the Chesapeake Bay and the Bay watershed. And I look 
at a lot of these questions, particularly the hydraulic 
fracturing question, through that lense. The Chesapeake Bay 
watershed includes six states and the District of Columbia: New 
York, Pennsylvania, Delaware, Maryland, Virginia, West 
Virginia, and the District of Columbia. The footprint of the 
Marcellus shale deposit includes New York, Pennsylvania, 
Virginia, West Virginia, parts of Western Maryland, at least.
    So, you have this coincidence of the Bay watershed with the 
Marcellus shale deposit. And so there is a lot of activity 
going on, as you know, much of it on private lands. But what 
you offer us is the opportunity to get a clearer picture of how 
these practices can be implemented in a safe fashion, because 
of what is happening on public lands.
    So, I applaud you and the President for focusing in on 
these issues of safety. I think that the rules that you are 
proposing are absolutely common sense. And I am hard pressed to 
understand why anyone would object to them, because they are 
very basic things that you are trying to ascertain.
    I did want to get a little more understanding of this issue 
of the content of the fracking fluid, and specifically what it 
is you are going to be looking for because, you know, we have 
had the industry sit before this committee in the past, and 
kind of hide the ball when it comes to what the contents are, 
the specific chemicals that are being used, the percentage of 
the composition represented by one chemical versus another. 
Because you can put a list out and say, ``Well, these are the 
chemicals that are being used,'' but if you don't indicate what 
amounts, relative amounts of those chemicals are being used, 
you may not get the full picture in terms of whether it is safe 
or not safe.
    So, could you just speak, take a little time to speak a 
little more, explicitly or in detail, about what you are trying 
to ascertain in terms of the content of these chemicals being 
used? And if you could, also touch on the sort of proprietary 
information, trade secret, and dimension of this which I 
understand, but I am also worried that that is going to be 
thrown up as a smoke screen, potentially, in terms of our being 
able to get this information.
    Secretary Salazar. Thank you, Congressman Sarbanes. And let 
me first say thank you for your leadership in Maryland on so 
many conservation issues, including getting children outside 
and to the outdoors and into conservation. And I will note that 
on the Chesapeake Bay, which covers the areas that you so 
eloquently described, we do have a major effort underway from 
many of our agencies, as well as other agencies, where there is 
significant investment going on in trying to clean up the 
Chesapeake Bay, and trying to move forward with a number of 
restoration efforts.
    On the issue of hydraulic fracking, and the content of the 
rule, our objective here is to have a rule where there is 
disclosure that brings about the confidence of the American 
public that chemicals that are being injected into our earth 
are not going to be harmful to people or to the environment. 
And how exactly the rule will be finalized, with respect to the 
trade secrets issue is still a component to the rule that is in 
process.
    And at the end of the day, if the ball is hidden and nobody 
knows, then that is not going to fulfill the objective of 
making sure that the public has knowledge about what is being 
injected into our earth.
    So those are still things that we are working on. And as 
the Deputy Secretary said earlier, we will be continuing the 
outreach effort and the comment effort as we move forward to 
the final rule.
    Mr. Sarbanes. I appreciate that. I am running out of time, 
but I just want to make an observation for the Committee, 
because we are going to keep having this issue of hydraulic 
fracturing presented to us over time.
    There is a lot of discussion about how this has been a safe 
practice. But many of those lessons are drawn from the 
experience in the West. And safe in the West doesn't 
necessarily translate to safe in the East. I mean we are--when 
you talk about where the Marcellus shale deposit is, you are 
talking about a density of population that is different, you 
are talking about different topography, geology. There are many 
factors at work.
    And so, I encourage you, as you are looking at this on 
public lands--and obviously, that is more so in the West than 
the East--to be careful about--and I caution my colleagues, 
too, we need to be careful about drawing lessons in one 
circumstance or environment, and applying those someplace else. 
I think we need to take a fresh look at the potential safety 
issues with respect to this Marcellus shale deposit opportunity 
that we have in the East, and make sure that that is being done 
properly.
    Thank you, and I yield back----
    The Chairman. The time of the gentleman has expired. The 
gentleman from Maryland, Mr. Harris.
    Dr. Harris. Thank you very much, Mr. Chairman. Thank you, 
Mr. Secretary, for appearing before the Committee today. Let me 
just ask, first, a couple simple questions.
    Your testimony says that the budget is essentially level. 
But in fact, it is an increase, is that right? I mean it is 
over a one percent increase.
    [No response.]
    Dr. Harris. Because we are having huge debates about 
whether, you know, a half percent increase for government 
employees, or a one percent increase--and no one would call 
them level. So to be accurate, I mean, it includes an increase. 
Because the sentence after that says it includes reductions and 
savings of 500 million. But in fact, it includes an increase in 
spending.
    Secretary Salazar. It is a one percent increase.
    Dr. Harris. OK, thank you. Now, I know you were--a question 
was asked about the credits associated with offshore wind. And 
I know you were in Maryland recently about the offshore wind 
project. Do you agree that offshore wind is going to be an 
absolute--absolutely cost our ratepayers more than natural gas, 
electricity generation? Would you stipulate to that?
    Secretary Salazar. I think that is true for today, with 
respect to what is happening on wind off of the Atlantic. But I 
will also say that what we have seen with renewable energy--
solar, geothermal, and wind--is that the costs have been 
significantly dropping. And when you get to the right critical 
mass, the renewable energy efforts ought to be competitive with 
other----
    Dr. Harris. Well, I am talking about the project in 
Maryland, because it is not in the future. It is to be built 
next year, capitalized next year, with this year--with next 
year's technology. The project in Maryland. Our ratepayers will 
pay more than if we generated the electricity from natural gas. 
That is all I am saying. Will you stipulate to that?
    Secretary Salazar. I am not familiar with the specifics of 
the project in Maryland. Perhaps my Deputy Secretary----
    Dr. Harris. Well, Mr. Secretary, you were there to announce 
the approval of the permits for the project to go forward.
    Secretary Salazar. No, that is--no, let me--that is not 
true. What we went to Maryland to announce is that we have 
identified the wind energy area places where wind energy farms 
can be stood up. There is no lease that has been issued in 
Maryland. And so it will be several years before a wind farm is 
actually stood up.
    What we have done is work closely with the Republicans and 
Democratic Governors across all of the states of the Atlantic 
to look at the potential of this great energy resource off the 
Atlantic. And we have made significant progress, and we feel 
very good about the renewable energy potential----
    Dr. Harris. Well, thank you. I just don't feel good about 
the fact that, you know, the estimate is that it will cost 
three times as much to our ratepayers for that energy as it 
would to--at least three times; some estimates are even higher 
than that.
    Let me just talk a little bit, because my colleague has 
said, you know, we shouldn't draw lessons from one circumstance 
to another.
    Now, Mr. Secretary, you have certainly heard of Pavilion, 
Wyoming, I take it, because there was a great controversy. We 
held a hearing in the science--one of the Science Committee 
subcommittees about the fact that numerous areas throughout the 
country are attempting to do exactly that with the Pavilion 
results. And you know, because the U.S. Geologic Survey, for 
instance, was not consulted very intensively about that, about 
what the EPA was doing, the depths of their monitoring wells, 
for instance, in a known geologic formation that is very 
different from geologic formations across the country.
    In fact, I will tell you what is safe in the West might not 
be safe in the East. But I will tell you with hydrofracturing 
Marcellus shale, what is not safe in the West, if that study 
were true--and I don't think it is very different than the 
Marcellus shale formation.
    You said that there is going to be $50 million in a 
hydrofracturing study included in this budget. Is that right?
    Secretary Salazar. Fifteen.
    Dr. Harris. $15 million. Let me ask you. Given the fact 
that you haven't been--that the EPA has not been working with 
the USGS on this, the EPA is asking for funding, why should we 
fund two different agencies that aren't obviously communicating 
with each other on an issue of this importance? I mean this is 
what people get upset about with Washington. We have 
duplication of efforts, agencies not talking to each other. 
And, on this circumstance, that resulted in a faulty study from 
the EPA.
    In my opinion--now, my understanding is it might be the 
opinion of some people in your Department, as well. So why 
should we fund the USGS and EPA to do this study?
    Secretary Salazar. Congressman Harris, let me say, first of 
all, you raise a very important issue overall, and that is that 
we need to make sure that we have integrity, in terms of the 
results. As I said in Wyoming in a meeting in a press 
conference with Governor Mead, I think the jury is still out on 
the EPA study----
    Dr. Harris. And I appreciate your honesty----
    Secretary Salazar. And also----
    Dr. Harris [continuing]. Earlier in the hearing, and on 
that.
    Secretary Salazar. And also because of that, the United 
States Geological Survey and the EPA are working together to 
make sure that the results of the final study are ones that are 
peer-reviewed and ones that we can have some conclusive 
evidence of. Maybe it is a wellbore integrity issue in that 
particular place. Maybe there is some other issue. But we need 
to make sure that when these kinds of studies get to the final 
conclusion, that they are the kinds of conclusions that we can 
have total confidence in.
    And so, the effort that we have between the U.S. Geological 
Survey and the EPA and the funding requests and the Department 
of Energy, the three agencies and moving forward are being 
coordinated so that we are able to make sure, number one, that 
we can move forward with natural gas production in a very 
robust way here, in the United States; and number two, that the 
science and issues around hydraulic fracking are ones that are 
well understood by the American public.
    Dr. Harris. Thank you very much, Mr. Secretary.
    The Chairman. The time of the gentleman has expired. The 
gentleman from New Mexico, Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much, and Mr. 
Secretary, welcome. Bienvenido. It is good to have you here 
with us, sir.
    First off, Mr. Secretary, I want to thank you for your 
sensitivity to protecting sacred sites when we talk about 
sovereignty in our tribes across the country. Many times we 
have conversations about this, but the reality of your 
responsibilities are wide. But your attention to the tribes, 
not only in the budget but also in your responses to questions 
today is certainly important. And I am happy to see the 
Administration taking protecting sacred sits seriously. So I 
want to commend you and your staff for that.
    Mr. Secretary, there is going to be an important discussion 
on Friday in this committee pertaining to abandoned mine land 
funding with the OSM budget pertaining to Surface Mining 
Control and Reclamation Act, SMCRA. We are hoping to be able to 
get support for an effort to use the AML funds to clean up 
abandoned uranium mines in New Mexico. And so, just to put it 
on your radar, I am thankful to the Chairman for bringing this 
important discussion to this committee, because it has been a 
long time coming. And we look forward to working with your 
office on the implementation of that piece.
    Mr. Secretary, I also want to acknowledge the work that you 
have been doing--and I think we touched on this a little bit 
ago--pertaining to solar energy zones. My only concern with the 
solar energy zones, Mr. Secretary, is that we have not had one 
designated in New Mexico just yet. And so we want to make sure 
that we are on your radar as well, with the amount of solar 
production that we have in our great state. And I know that you 
have had a chance to go down there and visit quite a bit, and 
really respect the opportunity that we have down there.
    And so my question, Mr. Secretary, is as we talk about 
smart from the start, and the identification of these solar 
zones, is there a way for new solar zones to be created in the 
future, say in Northern New Mexico or other places across New 
Mexico?
    Secretary Salazar. The answer to that is absolutely yes. 
And I would just comment, Congressman Lujan, that the best 
places for solar energy are in New Mexico and Arizona and 
Southern California and Nevada. And so, we do have a focus, 
including Arizona. And when the solar energy programmatic 
environmental impact statement is completed, there also will be 
a piece there that will--we will identify the best places for 
solar energy, where we have the least conflicts. But we also 
will have a process in there to be able to add additional solar 
energy zones.
    In your State of New Mexico, we are working as well on 
transmission, because right now that is the single biggest 
issue, in terms of being able to get the solar energy from 
where it is being produced to the place where it will be 
consumed. But New Mexico is very much a high priority because 
of its solar energy potential.
    Mr. Lujan. And, Mr. Secretary, I appreciate that transition 
to transmission. As we talk about, you know, the reality of not 
being able to move solar power from where we can generate it if 
we don't have access to transmission lines with all of the 
conversations about energy here, and this is something that we 
have brought up in conversations throughout the Committee, and 
we were very supportive of the White House's initiative with 
the rapid response transmission team last September to 
acknowledge that there are important transmission projects 
across the West and the East to be able to move power.
    And so, I am curious, Mr. Secretary, if you are working 
with the rapid response team. There is a specific line in New 
Mexico, the SunZia line in the southern part of the state that 
would move power up into Albuquerque. And with the convergence 
of another project called Tres Amigas, which we were hoping to 
be built in New Mexico, which would open up opportunities to 
working with Texas.
    Secretary Salazar. Congressman Lujan, from the beginning of 
the Administration, we have tried to bring the entire Federal 
Government together to be helpful in standing up of 
transmission. And so, meetings in my office have included 
Chairman Wellinghoff and Secretary Chu, as well as Tom Vilsack, 
Secretary of Agriculture. And what we have done is to move 
forward and identify those projects that we think are 
absolutely needed and can be built. And so, the President and 
the White House have been directing us to do everything we can 
to deal with the transmission challenges that we have.
    Mr. Lujan. On that note, Mr. Secretary, one concern that I 
have is, as you know, the Western Area Power Administration is 
also working with SunZia developers and other transmission 
projects, and they are a candidate for low-cost financing 
support. Unfortunately, there was a piece of legislation that 
was passed out of this committee with much support from the 
Republican Majority that would repeal Western's borrowing 
authority to projects like SunZia. Do you believe that 
eliminating Western's borrowing authority would increase or 
decrease the likelihood of these kinds of transmission 
projects?
    Secretary Salazar. You know, I am not familiar with the 
legislation. But at the end of the day, renewable energy 
projects need to have the right power purchase agreements and 
the right financing to be able to be economical and to be 
built. And so we will take a look at the legislation that you 
speak about.
    Mr. Lujan. And with that, Mr. Chairman, thank you very 
much. Yield back the balance----
    The Chairman. The time of the gentleman has expired. And 
with any luck we can get all Members in if we just adhere to 
the five-minute rule. We will go to Mr. Johnson of Ohio.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Secretary, do you 
support Federal officials threatening hard-working businesses 
and individuals for following the compliance mandates of 
legally binding government contracts?
    Secretary Salazar. No.
    Mr. Johnson. OK. I assume that it is also safe to say that 
you don't support lying or asking someone to lie for you, as 
well. Is that true?
    Secretary Salazar. It is absolutely true.
    Mr. Johnson. Well, I didn't think you did. Please take a 
look at slide one. This is a statement of work that the Office 
of Surface Mining and Reclamation and Enforcement agreed to 
with the original contractors in your Department's efforts to 
rewrite the 2008 string buffer zone rule. The highlighted 
portion shows that the contractors had authorization to ask the 
coal industry what effect your rewrite of the string buffer 
zone rule would have on future coal production.
    In fact, I draw your attention to the very word in 
paragraph seven--I am sorry, R, ``the contractor shall.'' So it 
wasn't just an authorization, it was a mandate, a contractual 
mandate.
    Slide two, Mr. Secretary, is an email exchange in which 
John Cranyon, a career OSM employee, authorizes a contact on 
November 22nd by the contractors with the coal industry to see 
how the proposed rule would affect future coal production.
    Finally, in slide three, the contractors ask on December 
15th to verify this contact with the coal industry. As you can 
see in pink, the Presidential appointee, an employee of yours, 
Joe Pizarchik, violates the agreed-upon statement of work, and 
says that no contact is allowed and, furthermore, threatens 
extreme consequences if the contractors ask for input from the 
coal industry.
    Now, Mr. Secretary, you just confirmed for me a minute ago 
that you don't support Federal officials threatening hard-
working businesses for complying with mandates of legally 
binding contracts. So, in your view, is this the way you 
instruct your employees to run rulemaking procedures, by 
threatening extreme consequences for following the contract by 
consultants hired by the government?
    Secretary Salazar. Congressman Johnson, I had not seen 
these emails before this time. But I will say this, that the 
SBR and this contract have been controversial. And my Deputy 
Secretary has been involved in overseeing it, and I would like 
him to respond----
    Mr. Johnson. OK, so--yes. I don't want a filibuster here, 
Mr. Secretary, because we got a lot to cover.
    You see from this documentation that Mr. Pizarchik 
threatened extreme consequences to the contractor for following 
the mandates of the agreed-upon statement of work. Does this 
mean that you, in turn, disapprove of Director Pizarchik's 
handling of this rulemaking process?
    Secretary Salazar. You know, I don't know enough about this 
email and the context of everything else that happened to be 
able to respond to your question today.
    Mr. Johnson. OK. So when can I expect you to get back to me 
with your assessment? Because this is an egregious situation 
here. It has tremendous impacts, not only on my district, but 
the coal industry across this nation.
    Secretary Salazar. Congressman Johnson, I will take a look 
at the emails, and we will provide a response.
    Mr. Johnson. Well, it is clear to me that the extreme 
consequences that Mr. Pizarchik referred to were the 
termination of the contract when he didn't like the answers 
that he was getting, and forcing the American taxpayers to pay 
the contractors in full for simply doing their job. This cost 
the American taxpayers millions of dollars. And this, to me and 
the American taxpayer, is simply unacceptable.
    Mr. Secretary, you already said that you don't think it is 
OK to lie or have someone lie for you. Now, either you weren't 
being totally honest with me when you said that, or you don't 
enforce these principles within your own Department. Because in 
November, this committee heard testimony from OSM's contractors 
that they were asked to lie to soften the blow of the job 
losses that your new string buffer zone rule will have on the 
nation.
    So, let me ask you this. Did you, anyone from your office, 
the White House, or anyone else in a position of authority at 
the Department, direct OSM employees to ask the contractors to 
change assumptions on the economic analysis to address the job 
numbers in the draft economic analysis?
    Secretary Salazar. No.
    Mr. Johnson. They did not? That is your testimony? You know 
that for certain?
    Secretary Salazar. I know that I did not, and I have no 
knowledge that the White House or anybody else would have.
    Mr. Johnson. OK. So that means that Director Pizarchik or 
someone else at OSM asked the contractors to lie and change the 
baseline coal production level to show fewer job losses, and 
that you or no one else was involved. Is that your testimony 
here today?
    Secretary Salazar. Congressman Johnson, I know there were 
problems with the contract, and----
    Mr. Johnson. No, I am asking you a very specific question. 
Mr. Pizarchik said there would be extreme consequences. So he 
issued that direction to the contractor. And you are saying 
that you or no one else in your Department was involved--or at 
the White House--was involved in that. Is that your testimony 
here today?
    Secretary Salazar. I know that I was not----
    Mr. Johnson. Yes or no, Mr. Secretary. I am out of time.
    Secretary Salazar. Your answer--your question requires me 
to say I had no knowledge of this, and I do not believe that 
anybody in the White House did, nor do I believe that anybody 
in my senior management did.
    Mr. Johnson. OK.
    Secretary Salazar. So we will get back to you with a 
response to your question in the context of other information 
that may be associated----
    Mr. Johnson. I am out of time. Mr. Chairman----
    The Chairman. The time of the gentleman has expired, and 
this is--certainly is an issue that should be followed up on.
    The gentleman from Michigan, Mr. Kildee, is recognized.
    Mr. Kildee. Thank you, Mr. Chairman. I would ask my friend, 
Mr. Johnson, if he could provide to the Minority the documents 
which he had on his screen and the questions that went with 
that, and also any other related material. It would be helpful 
for the Minority to have that, and I would ask that you provide 
that----
    Mr. Johnson. Absolutely, I will be glad to.
    Mr. Kildee [continuing]. To the Minority as quickly as 
possible. Thank you very much.
    First of all, I welcome the Secretary here. I see he has 
brought with him my former chief of staff, Christopher Mansour, 
and I hope he is doing as good a job for you as he did for me, 
Mr. Secretary. And I am encouraged to see that $47.8 million 
provided for the ecosystem restoration in the Great Lakes--that 
is a $2.9 million increase.
    And, as you know, my district borders on the Great Lakes 
there, and it is a very important thing. While there is a 2.9 
increase--actually, to break down you have a 2.9 million 
increase for the Asian carp--the efforts to keep the Asian carp 
out of the Mississippi Basin into the Great Lakes. If they were 
to get into the Great Lakes, we know that that would have a 
probably permanent devastating effect upon the biodiversity 
that exists in the Great Lakes.
    You also have lessened the amount of money for the zebra 
mussels, which have devastated much in the Great Lakes, 
including the water intakes. Has that been based upon the 
relative dangers posed by these two species? And have the 
biologists felt that this is the best priority for the money 
available?
    Secretary Salazar. The answer, Congressman Kildee--and I 
appreciate the question and your focus on the Great Lakes and 
the Asian carp--we have many invasive species throughout the 
country, but I would say that the species of most significant 
concern that is invasive right now, or close to the very top of 
the list, is the Asian carp. And so we are not only investing 
additional money into trying to figure out how we can deal with 
that issue through the Fish and Wildlife Service, but also 
through other agencies.
    And part of the $47.9 million being invested into the Great 
Lakes in Interior's budget is that we recognize that it is one 
of the huge water landscapes of national significance for the 
country.
    Mr. Kildee. You know, the Great Lakes and Lake Baikal in 
the Russian Federation are the two largest bodies of fresh 
water in the world. And Russia now is beginning to protect its 
Lake Baikal. And we really have--we have shared, between the 
United States and Canada, probably the first largest body of 
fresh water. So I really appreciate the efforts of your 
Department.
    Are you working with other agencies, like the Corps of 
Engineers, to help you on that? Or are you cooperating--or 
various other agencies cooperating with the Department of the 
Interior?
    Secretary Salazar. Yes, I would--Congressman Kildee, the 
effort on the Great Lakes is a very high priority for President 
Obama, just as the Everglades in Florida are. We have spent a 
good amount of time. It is a whole of government effort that 
goes beyond the Department of the Interior and includes 
multiple agencies that have a significant equity in the 
protection and restoration of the Great Lakes.
    Mr. Kildee. Well, I appreciate that very much. The Great 
Lakes are not just a treasure for the Midwest, but actually for 
our country, and actually for the globe. They are a significant 
part of the total environment of our globe. And I appreciate 
your personal interest in this, and your personal 
prioritization. And I would urge you to continue that. And I 
thank you very much for what you are doing.
    Secretary Salazar. Thank you very much, Congressman Kildee.
    The Chairman. I thank the gentleman.
    Mr. Kildee. Thank you.
    The Chairman. Mr. Secretary, we have two more Members. I 
know you had a hard 12:30. If we adhere to it, it might be a 
minute or so. If we could do that, I would appreciate that.
    Mr. Thompson is recognized for five minutes.
    Mr. Thompson. Thank you, Chairman. Thanks, Mr. Secretary.
    Mr. Secretary, when I was on my four-hour drive yesterday 
back to Washington, I always look for the best place to stop 
and fill up the car. And yesterday it was $3.65 a gallon. It 
has been going up in a frightening way, as--and as you can 
imagine, we do a lot of miles and pull a lot of gas.
    And long-term prospects for gas prices I don't think are 
good, just because of the utilization from--that is projected 
in China and India, as they consume much of the oil. And I know 
we have other energies that we are working on, but it is going 
to take a long time for anybody to fill that--fill what oil 
provides us in this country.
    And so, as I was reading--thank you for the hand-out, too. 
When I was going through the mandatory proposals page on page 
11, one of them stood out to me to ``repeal the authority to 
accept royalty payments in kind, rescinds the authority to 
accept oil in lieu of royalty payments.'' And with gas prices 
where they are today, and probably soon to go over $4 it 
sounds, and what the future may hold as China and India consume 
so much more, it seems like our strategic oil reserves are 
incredibly important.
    And does this compromise that, where we are not--this 
proposed change within the President's budget is--what is your 
knowledge, thoughts of impact with this specific proposal and 
our strategic oil reserves, which I know aren't meant to 
maintain prices, but you know, with the hurricanes and all the 
things that we have seen in the past, you know, terrorist 
attacks, whatever, where that strategic oil reserves is 
really--would be a lifeline for this country. Energy is--just 
fuels everything that we do.
    Secretary Salazar. Congressman Thompson, first let me say 
thank you for your thoughtful observation on the economics of 
oil and gas and the world supply and the demand from China and 
India and so many other places. It is the fact, that we have a 
diminished oil and gas supply, given the nature of how 
competition has grown worldwide.
    On your specific question on the strategic petroleum 
reserves----
    Mr. Thompson. The impact of that provision on the 
President's budget on----
    Secretary Salazar [continuing]. And the royalty--and the 
answer is no. The elimination of the royalty-in-kind program 
will not have any impact whatsoever on the strategic petroleum 
reserve. The elimination of the royalty-in-kind program is 
something that I instituted a couple years ago, because of the 
fact that it was a program that had huge problems, including 
ethical problems within the former MMS.
    Mr. Thompson. OK. The--we had a director from BLM sitting 
in the Deputy Secretary's seat there for a joint Energy 
Subcommittee and the Subcommittee on Agriculture I chair, 
Conservation, Energy, and Forestry, and he had acknowledged 
that--we have been hydrofracking for six years in this country, 
there has been a million wells hydrofracked in the United 
States. And he actually noted that there has been no problems 
with--when hydrofracking is performed correctly, according to 
standards, no--when it has been--in terms of no issues on 
public lands with hydrofracking.
    And so, I take exception to my colleague from Maryland, who 
seems to want to blame a lot of problems that the Chesapeake 
Bay may have because of the Marcellus, specifically--and I can 
speak to Pennsylvania, and I certainly invite him and would 
invite you to come on up to the Pennsylvania Fifth District. We 
will go out and visit those sites. The Chesapeake Bay has no 
threats from hydrofracking, the work that is going on there.
    My--I do have questions regarding--this will be my final 
question. The President's budget calls for 30 million to be 
divided among EPA, Fish and Wildlife, and U.S. Geological 
Survey for management activities for the Chesapeake--that is a 
$6.5 million plus-up--and $73 million for restoration, a $15 
million plus-up. I just wanted to see how--just quick thoughts 
on how those will be used. Is this going to contribute to 
implementing the EPA's total maximum daily load proposal that 
is out there?
    Secretary Salazar. The overall effort with respect to the 
Chesapeake is that it is being coordinated among the Federal 
family, in the same way that we are doing it in the Great Lakes 
or in the Everglades and so many of these other ecosystems that 
have been damaged, and which we are doing everything we can to 
restore them. And so the money will be invested in a way that 
creates jobs and protects the resource for the long term.
    Mr. Thompson. Do we have a number? Do we know what the 
total investment has been, specifically, that we put in the 
Chesapeake Bay over the years, and since these----
    Secretary Salazar. I don't have that with me today, 
Congressman Thompson, but I would be happy to try to get you 
that number.
    Mr. Thompson. OK. Thank you, Mr. Secretary. Thank you, 
Chairman.
    The Chairman. I thank the gentleman. And our final question 
comes from the gentleman from Louisiana, Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman. Mr. Secretary, during 
the President's State of the Union speech, he said--and I am 
going to quote--that ``I am directing my Administration to 
allow the development of clean energy projects on enough public 
lands to power three million homes.'' Do you all consider 
natural gas a clean energy?
    Secretary Salazar. I think the President was referring 
there to our efforts on----
    Mr. Landry. That is not what I asked. Is natural gas a 
clean energy? It is just a yes or no.
    Secretary Salazar. I think we--natural gas is a clean 
energy----
    Mr. Landry. OK, OK.
    Secretary Salazar [continuing]. In the sense that it is the 
kind of energy that we believe has a huge future for American 
power----
    Mr. Landry. OK. I mean I would love to let you go on. They 
only give me 5 minutes. But if you want to give me 10 or 15, I 
will let you keep going.
    There has been a lot of talk about wind energy and the 
amount of money that you all are trying to budget for the 
proliferation of wind energy. And in light of the President's 
comments--in August of 2009, ExxonMobil was fined about 
$600,000 for violating the Migratory Bird Act, for killing 85 
bald eagles over a 5-year period. That is the Act that, down in 
Louisiana, if hunters shoot over the limit of ducks, they 
prosecute them for.
    There was a wind farm in California that killed 80 golden 
eagles and over 7,500 species of other protected birds. But yet 
no violations were given to that farm because there is an 
exclusion under the Migratory Bird Act for wind farms. Do you 
agree that that exclusion should continue?
    Secretary Salazar. Congressman Landry, I am not familiar 
with that exclusion.
    Mr. Landry. OK. Well, I will be more than happy--we will 
send that. If that is--if that fact pattern is the case, if the 
wind industry does enjoy an exemption under the Migratory Bird 
Act, is that something that you think should continue for the 
wind industry, while other industries are being--don't enjoy 
those exemptions?
    Mr. Hayes. I would be happy to--there is no exemption for 
the wind industry under the Migratory Bird Act.
    Mr. Landry. OK. Well I will be sure to--well, great, then.
    Mr. Hayes. Happy to follow up.
    Mr. Landry. And maybe we should send that wind farm--we 
should send some agents over to the wind farm.
    Do you--going back to the President's comments under the 
State of the Union, do you know the footprint, the amount of 
acreage that would be needed for a wind farm to power three 
million homes?
    Secretary Salazar. I don't have that specifically off the 
top of my head, but we can get you that information.
    Mr. Landry. Do you know the amount of acreage for a solar 
farm, I guess, to power three million homes?
    Secretary Salazar. I can do the calculation. I can tell you 
that solar energy farms that are producing 300 megawatts of 
power may take a section or two of land.
    Mr. Landry. And----
    Secretary Salazar. I can also just tell you, Congressman 
Landry, that for every one acre of land that we have leased out 
for renewable energy projects, there have probably been a 
million acres of land that have been leased out for oil and gas 
development.
    Mr. Landry. Well, I wouldn't disagree with that. But the 
question is how much power--how many more homes are they 
powering per acre? In other words, is the value that the 
American taxpayer is getting versus the acreage that you are 
leasing, is it equitable?
    In other words, it is my understanding, based on the 
calculations that I have done, that the amount of land needed 
to power three million homes is vastly greater if you use solar 
or wind industry than it is to just drill for, say, natural 
gas.
    I will give you an example. Independence Hub, off the coast 
of the Gulf--off the coast of Louisiana, in the Gulf of Mexico, 
right now currently produces enough natural gas to power five 
million homes. And I would venture to say that the acreage that 
it is utilizing is much smaller, so the footprint is much 
smaller.
    And of course, there is another clean energy out there that 
has a much smaller footprint, that being nuclear. The amount of 
acreage needed to put up a nuclear plant to power three million 
homes, I think, is again greatly reduced.
    And so, my question to you all is that--does that come into 
the calculation? I mean the amount of land that you are going 
to--that is needed to power three million homes, do you look at 
it and say, ``Well, are we getting the best bang for the buck 
per acre?''
    Secretary Salazar. Congressman Landry, the President has 
been very clear from day one to me, as Secretary of the 
Interior: We have an all-of-the-above energy strategy. And we 
believe in a very bright future for natural gas in America. We 
also believe in a very bright future for solar and wind and 
geothermal and alternative biofuels. And so we are moving 
forward with an all-of-the-above strategy. And I think when one 
is honest in looking at the last three years, we have made very 
significant progress on all fronts.
    Mr. Landry. You didn't mention nuclear. Is that not a 
clean----
    Secretary Salazar. Nuclear is also part of that energy 
portfolio.
    Mr. Landry. I am out of time.
    The Chairman. The time of the gentleman is expired.
    Mr. Landry. Thank you, Mr. Chairman.
    The Chairman. And I do think that the gentleman brings up a 
very interesting point. As there is discussion about energy in 
this country, there are a variety of factors that should go 
into that, very certainly.
    Mr. Secretary, thank you very much for being here and 
giving us a little bit more of the time than what you wanted. I 
know, as I mentioned earlier, Members will have questions and 
we would like to have as quickly as possible a response. I know 
that several Members have questions on the Antiquities Act, and 
we will do that, and also on the wild lands initiative, which 
started earlier on. And so we will have some questions on that.
    But once again, thank you very, very much for taking your 
time to be here. And if there is no further business for the 
Committee, the Committee stands adjourned.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Rivera follows:]

    Statement of The Honorable David Rivera, a U.S. Representative 
                 in Congress from the State of Florida

    Thank you Mr. Chairman. Welcome again Mr. Secretary.
    First, let me thank you for listing the 4 species of large 
constrictor snakes as prohibited injurious species under the Lacey Act. 
As you know, these snakes have invaded South Florida, disturbing our 
fragile ecosystem, threatening our native species and even causing 
human deaths. These are not harmless pets as some have suggested.
    I am disappointed however, that the other 5 species of snakes were 
not included in your announcement. Those other snakes, I would argue, 
pose a greater threat to our ecosystem due to their larger populations.
    Furthermore, your announcement was not broad enough to address the 
large snakes already living out in the wild. Conservative estimates say 
they may run into the thousands. Several of my Florida colleagues and I 
have recently sent you a letter requesting the Department to develop a 
plan to address this problem. I am not going to ask for a response 
right now but would ask for unanimous consent to include that letter 
into the record (insert).
    Thank you Mr. Chairman. My staff also recently met with Captain 
Jeff Fobb of the Miami-Dade Fire Department's Anti-Venom Unit. I 
believe you are familiar with Captain Fobb; he was the gentleman that 
supplied the Burmese python for your announcement last month. My 
colleagues may know him from the Swamp Wars TV-series.
    The unit is comprised of a highly specialized team of paramedic 
firefighters who are trained in response, management, and treatment of 
envenomations. The unit maintains the ONLY anti-venom bank for public 
use in the United States.
    Among their ``normal'' duties, they are also the first-responders 
whenever invasive species, such as the Burmese python, threaten our 
neighborhoods. Moving forward, I would ask the Department and the US 
Fish and Wildlife Service to consider plans to develop and support 
programs that can help these local agencies, who are on the front-lines 
combating invasive species, carry out our shared mission of protecting 
our natural resources.
    Next item, Mr. Secretary, Everglades restoration is important to 
Florida and to the United States. I know it's important to you. Thank 
you for your leadership in water and lands issues.
    The Tamiami Trail bridge, which is expected to be finished soon, 
and the other public works being built to restore more natural flows to 
the Everglades need the seven and a half mile swath of FPL land that 
runs through the middle of the Everglades National Park. The Park 
Service and Congress both know this and in 2009, Congress passed bi-
partisan legislation that enabled a land exchange between the Park and 
FPL. The net gain to the Park was an additional 60 acres of land and 
FPL would have a corridor to put their power lines outside of the Park.
    I'm sure you share my concern about all the taxpayer dollars spent 
on Mod Waters, and it not working simply because of a holdup with this 
land exchange. The schedule the Park Service itself publicly posted for 
the project shows the agency publishing a draft Enviromental Impact 
Study (EIS) last month. That didn't happen. When can we expect it?
    FPL is working with the State of Florida on transmission lines and 
running the line within its holdings in the Park is one of the options. 
The more we delay on this land exchange, the more likely it seems that 
option gets. From the perspective of wanting to protect the natural 
integrity of the Park, I think it's much more preferable to have power 
lines on the outside edge of the Park than running right through the 
middle of the Park. I would ask you to please expedite the EIS.
    [A map titled ``Tamiami Trail Modification project limits'' 
submitted for the record by The Honorable David Rivera 
follows:]

[GRAPHIC] [TIFF OMITTED] T2938.002

[GRAPHIC] [TIFF OMITTED] T2938.003

[GRAPHIC] [TIFF OMITTED] T2938.004

                                ------                                


    [A letter submitted for the record by the Independent 
Petroleum Association of America follows:]

[GRAPHIC] [TIFF OMITTED] T2938.008

[GRAPHIC] [TIFF OMITTED] T2938.009

                                ------                                



    [A map submitted for the record by The Honorable Bill 
Flores follows:]
[GRAPHIC] [TIFF OMITTED] T2938.001

                                ------                                


        [``OSM Statement of Work Authorizing Contact with Coal 
        Companies on Proposed Rule'' submitted for the record 
        by The Honorable Bill Johnson follows:]

        [GRAPHIC] [TIFF OMITTED] T2938.005
        
        [GRAPHIC] [TIFF OMITTED] T2938.006
        
        [GRAPHIC] [TIFF OMITTED] T2938.007
        
                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
